<html>
<title> - THE STATE DEPARTMENT'S FOREIGN POLICY STRATEGY AND FY20 BUDGET REQUEST</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




           THE STATE DEPARTMENT'S FOREIGN POLICY STRATEGY AND
                          FY20 BUDGET REQUEST

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                             MARCH 27, 2019
                               __________

                           Serial No. 116-16
                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
                 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
        
        
       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                                              
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
35-589PDF                 WASHINGTON : 2019    





                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          JOE WILSON, South Carolina
KAREN BASS, California               SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts       TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island        ADAM KINZINGER, Illinois
AMI BERA, California                 LEE ZELDIN, New York
JOAQUIN CASTRO, Texas                JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada                   ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California                 FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania             BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLIPS, Minnesota             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota                KEN BUCK, Colorado
COLIN ALLRED, Texas                  RON WRIGHT, Texas
ANDY LEVIN, Michigan                 GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia         TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey           STEVE WATKINS, Kansas
DAVID TRONE, Maryland                MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas


                    Jason Steinbaum, Staff Director

               Brendan Shields, Republican Staff Director
                            
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

Pompeo, Hon. Michael, Secretary, United States Department of 
  State..........................................................     7

             ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD

Information submitted for the record from Representative 
  Cicilline......................................................    45
Information submitted for the record from Representative McCaul.. 



                                APPENDIX

Hearing Notice...................................................    97
Hearing Minutes..................................................    98
Hearing Attendance...............................................    99

                       STATEMENTS FOR THE RECORD

Statement for the record submitted by Chairman Engel.............   100
Statement for the record submitted by Chairman Engel.............   102

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

Response to questions submitted by Chairman Engel................   103
Response to questions submitted by Representative McCaul.........   222
Response to questions submitted by Representative Sherman........   223
Response to questions submitted by Representative Perry..........   228
Response to questions submitted by Representative Sires..........   232
Response to questions submitted by Representative Burchett.......   239
Response to questions submitted by Representative Keating........   240
Response to questions submitted by Representative Cicilline......   242
Response to questions submitted by Representative Bera...........   262
Response to questions submitted by Representative Lieu...........   272
Response to questions submitted by Representative Allred.........   283
Response to questions submitted by Representative Houlahan.......   285

 
 THE STATE DEPARTMENT'S FOREIGN POLICY STRATEGY AND FY20 BUDGET REQUEST

                       Wednesday, March 27, 2019

                          House of Representatives,
                      Committee on Foreign Affairs,
                                                     Washington, DC

    The committee met, pursuant to notice, at 12:35 p.m., in 
room 2172, Rayburn House Office Building, Hon. Eliot Engel 
(chairman of the committee) presiding.
    Chairman Engel [presiding]. The committee will come to 
order.
    Without objection, all members may have 5 days to submit 
statements, questions, and extraneous materials for the record, 
subject to the length limitation in the rules.
    Chairman Engel. This afternoon, we will hear testimony from 
Secretary of State Mike Pompeo on the Trump Administration's 
2020 international affairs budget request and a range of other 
issues dealing with the Administration's foreign policy and 
management of the State Department.
    Welcome back to the House, Mr. Secretary. I know you spent 
many good days here, and I appreciated your reaching out 
shortly after the election when you were first nominated as 
Secretary of State. I value our open line of communication.
    Secretary Pompeo. Thank you, Mr. Chairman.
    Chairman Engel. Welcome to the public and members of the 
press as well, especially our friends from C-SPAN who are 
celebrating its 40th birthday this week.
    So, let me, first of all, start with the budget. The 
Administration's first budget request before you were 
Secretary, Mr. Secretary, was deeply disappointing. Slashing 
investments in diplomacy and development by nearly a third, it 
met resounding bipartisan rejection here in Congress.
    The second budget was baffling. After Congress made it 
clear we would not gut American diplomacy, the Administration 
made essentially the same request to do just that. Again, it 
was rejected.
    And the third budget, which, once again, in my opinion, 
seeks to hobble the State Department and other agencies, this, 
in my view, demonstrates contempt for diplomacy and diplomats 
and contempt for the Congress, frankly, whose job it is to 
decide how much to spend on foreign affairs.
    The first year, when the budget was sent, it was rejected, 
and we came up with our budget, in a bipartisan way I should 
say. And then, the second year, the Administration came to 
lowball us once again. And now, the third year, at the same 
time when the budget has been rejected twice before, why would 
the Administration send a similar budget, only to be rejected a 
third time?
    So, Mr. Secretary, let me be clear, this budget request was 
dead the moment it arrived on Capitol Hill. I do not know 
whether the Administration really believes that we can mount an 
effective foreign policy, one that advances American interests, 
values, and security, on a shoestring budget, or if the people 
calling the shots just do not care. But Congress will not stand 
by and see American leadership on the global stage undermined, 
and that is not just our opinion; that is the power of the 
purse. That is what we are supposed to do. So, that is the good 
news.
    The bad news comes when the Administration shows the world 
just how little stock it puts in diplomacy and development, in 
building bridges of friendship and forging alliances, in 
resolving conflict and crises. This budget, in my opinion, 
signals to the world that the Trump foreign policy is one of 
disengagement, of pulling back from places where American 
leadership is needed the most. And we know other countries that 
do not share our values, countries like China and Russia and 
Iran, those countries are more than happy to fill the void.
    So, it also tells our diplomatic and development work force 
that their efforts are not valued. That has had an impact that 
we can already see. We see it in the plummeting morale at the 
State Department and the number of diplomats chased to the 
exits. We see it in report after report after report of 
politically motivated targeting and harassment of career 
employees, allegations on which the Department has failed to 
respond to multiple committee requests for information. We see 
it in the drop of the number of civil servants at the 
Department and the sharp decline in employee satisfaction, 
according to the Partnership for Public Service.
    And when I look at the Administration's policies, I am left 
wondering how often, if State Department experts are being 
ignored completely. From denigrating our alliances; NATO; to 
cozying up to strongmen; to walking away from our international 
agreements and obligations; from an abortive summit with North 
Korea; to saber rattling in Venezuela; to clearing the way for 
Iran and Russia to run roughshod over Syria, if we leave; from 
waging a trade war with China that is hurting American farmers 
and consumers; to slamming the door on vulnerable people around 
the world seeking to come to our country, those do not seem 
like policies to me built on the expertise and experience that 
our diplomats offer. They seem like what I call fly by-the-
seat-of-your-pants diplomacy.
    And so, as Congress exercises its constitutional 
responsibility in rejecting the inadequate budget request, this 
committee will also conduct oversight to deal with what I 
consider major problems in foreign policy and at the State 
Department.
    Mr. Secretary, I was hopeful that the Department would work 
collaboratively with us to allow this committee to carry out 
its constitutionally mandated oversight duties, but I must say, 
3 months into this Congress, the response from the Department 
to our requests has ranged from foot-dragging to outright 
stonewalling. It is very frustrating, and that is not 
acceptable. I believe you would feel the same way, since I know 
you, if you were still a Member of this body.
    I hope the trend changes, but if it does not, I will use 
every tool at this committee's disposal to get the answers we 
need. And I hope we can get some of those answers today. I look 
forward to a frank conversation and to your testimony, Mr. 
Secretary.
    And before I introduce you, I will call on my friend, the 
ranking member, Mr. Mike McCaul of Texas, for any opening 
statement he may have.
    Mr. McCaul. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary. I applaud the work that you are 
doing for our country. Let me say, in my recent visit to the 
State Department, I found that the morale is very good.
    Over the last 2 years, the Administration has embarked on a 
forward-leaning agenda which is putting America back where it 
needs to be. And I want to thank you for ending the era of 
leading from behind and strategic patience. The importance of 
our diplomatic mission cannot be overstated. With the growing 
crisis in Venezuela, an unpredictable North Korea, China and 
Russia creating mischief around the globe, terrorism on the 
rise in Africa, and Iran threatening Israel, we must show our 
strength through hands of diplomacy.
    The President's budget request identifies our most 
challenging threats. For example, it includes $662 million to 
counter Russia's malign influence in Europe and Eurasia. This 
vital assistance will support our allies like Ukraine to help 
enhance their cybersecurity infrastructure, to counter Russian 
attacks and their propaganda and disinformation campaigns.
    In regard to the Ukraine's upcoming elections, I will 
closely watch, and I know you will as well, how the Russians 
interfere. It may be a precursor to what we will see here in 
2020.
    The President's budget proposal also contains some much-
needed reforms. However, I do agree with the chairman; I 
believe that certain cuts have unintended consequences that 
cost us more in the long term. This is especially true of cuts 
to critical humanitarian and developmental assistance programs 
that promote democracy, support economic growth, and provide 
lifesaving resources to bolster stability in areas at risk of 
terrorism and extremist ideologies. As the former Secretary of 
Defense Jim Mattis once said, ``If you do not fund the State 
Department fully, then I need to buy more ammunition.''
    On terrorism, a few years ago, you and I had the 
opportunity to travel to Northern Africa and the Middle East, 
and I remember watching the F-18s taking off in the Persian 
Gulf from the deck of the Harry Truman to hit ISIS targets in 
Syria. Today, it almost feels a little surreal to be able to 
finally say that their so-called caliphate is gone. And I 
applaud your efforts in that mission. But we also still note 
the threat from ISIS, al-Qaeda, and others still remains.
    On fragile States, a key lesson from violent conflicts and 
fragile States is that they provide a fertile recruiting ground 
for terrorists and transnational criminal organizations. This 
broken model can be fixed, and we need to do more in terms of 
prevention. That is why Chairman Engel and I reintroduced our 
fragile States bill this Congress. It will require that the 
Administration launch a new initiative to coordinate our 
assistance to these broken States.
    On the Middle East, any strategy there must always include 
strengthening our ties with Israel. And for starters, I was 
very proud of your efforts and the President's to see our 
embassy move from Tel Aviv to Jerusalem.
    Mr. Secretary, I want to applaud your efforts, also, in 
countering Iran. Some do not see their true menace. They are 
still the No. 1 State sponsor of terror. They support 
Hezbollah, Hamas, and the Houthis, hold Americans hostage. They 
have an assassination campaign in Europe, a reckless missile 
program, suppress their people's freedom, and let's not forget 
want to wipe out Israel, and chant death to America.
    I applaud last week's sanctions that target Iranian weapons 
of mass destruction proliferators. We cannot let Iran get 
nuclear weapons ever.
    On China, their government aggressively steals our 
intellectual property, threatens Taiwan, partakes in growing 
military adventurism, and targets both developed and 
underdeveloped nations through their One Belt One Road 
Initiative.
    I am very supportive of the action items laid out in your 
Indo-Pacific speech last year. As you know, many countries tell 
us America is just not there the way the Chinese and other 
countries are. And that is why I introduced the Championing 
American Business Through Diplomacy Act with Chairman Engel. In 
sum, it bolsters U.S. economic and commercial diplomacy by 
mandating that our diplomats have better training and do more 
to ensure countries do business with American companies rather 
than with the Chinese.
    On Venezuela, we can all agree that the socialist policies 
of Nicolas Maduro have turned the once rich country into a 
failed mafia State. With little food and medicine, millions of 
people are suffering more every day and forced to flee to other 
countries in the region. Maduro's armed thugs are blocking the 
delivery of humanitarian aid. They have shot innocent 
civilians, kidnapped the chief of staff of Interim President 
Guaido, and just yesterday attacked Guaido's motorcade. I would 
also like to note that Maduro has taken four Texans who work 
for Citgo and put them in a Venezuelan prison.
    I commend the President for supporting the people of 
Venezuela in their quest to take back their country through 
free and fair elections, and applaud neighbors like Colombia, 
Brazil, and the Lima Group for their effort.
    Secretary Pompeo, it is a great honor to welcome you today 
as a Secretary, as a former colleague, and a friend. And I have 
always said that partisanship, as the chairman says, must end 
at the water's edge. This hearing gives us a chance to put 
partisan politics aside and offer solutions to complex issues.
    I look forward to your testimony.
    And I yield back.
    Chairman Engel. Thank you, Mr. McCaul.
    And now, let me introduce our witness. Michael Pompeo is 
the 70th United States Secretary of State, taking office April 
26th of last year. From January 2017 until he became our top 
diplomat, Mr. Pompeo served as the sixth Director of the 
Central Intelligence Agency. From 2011 until 2017, he 
represented Kansas' 4th congressional District right here in 
the U.S. House of Representatives. He is a lawyer, an 
entrepreneur, and from 1986 until 1991, served in the United 
States Army.
    Mr. Secretary, welcome back to the House. We are pleased to 
have you with us today. And I now recognize you for 5 minutes 
to summarize your testimony.

  STATEMENT OF HON. MICHAEL POMPEO, SECRETARY, UNITED STATES 
                      DEPARTMENT OF STATE

    Secretary Pompeo. Great. Thank you. Thank you, Chairman 
Engel. Thank you, Ranking Member McCaul. I will be brief this 
morning.
    Thanks for the opportunity to discuss the Administration's 
Fiscal Year budget. It is designed around the national security 
strategy to achieve our foreign policy goals. The request for 
$40 billion for State Department and USAID puts us in position 
to do just that. These moneys will protect our citizens at home 
and abroad, advance American prosperity and values, and support 
our allies and partners overseas. We make this request mindful 
of the burden on American taxpayers and take seriously our 
obligation to deliver exceptional results on their behalf. This 
budget will achieve our key diplomatic goals. Let me walk 
through many of them.
    First, we will make sure that China and Russia cannot gain 
a strategic advantage in an age of renewed great power 
competition. We will continue our progress toward final, fully 
verified denuclearization of North Korea, and we will support 
the people of Venezuela as they work toward a peaceful 
restoration of their democracy, so they can achieve prosperity 
in their once rich nation. And we will continue to confront the 
threat posed by the Islamic Republic of Iran and its maligned 
behavior. We will work to help our allies and partners around 
the world to become more secure and economically self-reliant 
as well.
    I take it as a personal mission to make sure that our 
world-class diplomatic personnel have the resources they need 
to execute America's diplomacy in the 21st century. Mr. 
Chairman, I know that you, too, care deeply about the welfare 
of our dedicated professionals. I have seen it. They get up 
every day and carry out the Department's vital national 
security and foreign policy missions. And like you, my foremost 
priority is to ensure we have the resources to recruit, hire, 
develop, retain, and empower them to remain the world's finest 
diplomatic team. We especially need the extremely qualified 
individuals we nominated to serve in important management 
positions across the Department, many of whom have been 
awaiting Senate confirmation since last year. I also appreciate 
this committee's focus on ensuring that the 75,000 men and 
women of the Department's work force are treated respectfully 
and justly.
    I have great respect for the committee's oversight role, 
and I work to ensure that those commitments are carried out. 
When I served in this chamber, I pressed Administration 
officials hard about the importance of executive branch 
responsiveness to requests from Congress, and my team will 
continue to work with yours to fulfill your requests for 
briefings, meetings, information from the Department, to work 
constructively to identify how we can appropriately respond to 
the committee's oversight and investigative requests.
    I look forward to continuing to work with you on all of 
these key foreign policy priorities and many more. And I will 
now end my remarks, so that we will have fulsome time for a 
good conversation.
    Thank you.
    [The prepared statement of Secretary Pompeo follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. Thank you very much, Mr. Secretary.
    I will now begin with my questions, and after my time has 
expired, I will recognize members for 5 minutes for the purpose 
of questioning the witness.
    So, I have three questions. I am going to try to get them 
in. And so, if you could give us a short answer, perhaps it 
would work, and then, we will follow it up.
    Mr. Secretary, from your experience in Congress 
investigating Benghazi, you know, of course, that we cannot 
conduct our constitutional oversight duties effectively if the 
executive branch stonewalls or drags its feet on committee 
requests for information. I want you to know, for over a year, 
the State Department has not responded to my concerns about 
allegations that senior officials targeted career employees for 
improper reasons, including their work for previous 
Administrations, their sexual orientation, and even their 
national origin. As you know, the Inspector General will finish 
his investigation of this matter shortly. You testified last 
May that people engaged in such targeting should not be working 
at the State Department.
    I am holding two emails from 2017 right here from a senior 
official, Brian Hook. In one, he pledges to gather intel on an 
employee who was, quote, ``born in Iran''. On the other, he 
makes a list of employees. I was shocked to see how he 
characterized these employees, not by anything related to their 
job performance, but by national origin, ethnicity, perceived 
political affiliation, and even gossip that some might be 
troublemakers.
    So, I want to ask you an easy question. Is targeting 
employees for these reasons appropriate?
    Secretary Pompeo. I came onboard and immediately made sure 
that both the Office of Special Counsel and the OIG had all the 
information they needed to complete their investigation. And I 
am disappointed that they have not completed their work yet and 
hope that they will do so soon. Other than that, I am not going 
to respond to anything about any particular person, but I can 
assure you I want every employee at the Department of State 
treated with the dignity that they deserve because of their 
humanness.
    Chairman Engel. Can you tell us, then, Mr. Secretary, why 
have not you shared with us any of the information?
    Secretary Pompeo. I think we have shared a great deal. We 
have come over and we have talked with you. We have talked with 
folks on the Senate as well. We are working diligently to 
comply with the requests that you have.
    It is complicated when you have IG investigations and 
Special Counsel investigations. You would be the first to 
remind me that, if we started asking hard questions of the IG, 
it would suggest that I might be trying to improperly interfere 
with their work. And I have tried to do everything I can to 
make sure that accusations like that could not possibly be 
leveled.
    Chairman Engel. I just want you to know that I have here 
the OIG's email confirming that they have no problems with the 
Department providing these documents to Congress. It has just 
been very frustrating, and I am sure you can understand, the 
stonewalling we have been getting for over a year now. And it 
is very frustrating. All we want to know is what we are 
entitled to know. A call from your staff just days before this 
hearing in which they did not agree to produce any documents is 
really not a good-faith effort. So, I would hope, based on what 
you have said, that you will provide us the documents the 
committee requested, and I hope you can do that within 1 week. 
There is nothing outlandish or outrageous. We are just trying 
to do our jobs.
    I want to ask you a question about Syria. I am very worried 
about President Trump's statement that we are going to pull out 
of Syria. I do not want the United States to be in a foreign 
country any more than we have to, but pulling out of Syria 
would be a betrayal to the Kurds, our faithful allies for many, 
many years; saved American lives. It would create problems for 
our ally Israel because it would put the Iranian regime right 
on Israel's border. And if and when we ever had to come back, 
it would probably result in more American casualties. Right 
now, we seem to have the situation pretty much in hand.
    So, I hope that the President's precipitous statement that 
we were going to, after he allegedly spoke with Mr. Erdogan of 
Turkey, that we were going to pull out of Syria soon, 
immediately, or whatever, is not the truth, is not so, and that 
we have rethought it. And can you give us some assurances on 
that?
    Secretary Pompeo. I do not want to speak about particular 
troop levels. I will leave that to the Department of Defense. 
But I can talk about the policy. The President has made clear 
he wants to put as few American soldiers' lives at risk as he 
possibly can and do so while achieving America's important 
policy interests. I think we can do that.
    By the way, I have a senior State Department official who 
is working diligently to implement U.N. Security Council 
Resolution 2254 and to work with the Turks and with the Kurds 
to create conditions on the ground, in the real estate that 
separates Syria and Turkey, so that we can continue to maintain 
the vigilance that led to the destruction of the caliphate.
    It is a longer answer, but this fits inside our policy 
throughout the Middle East, whether it is Iraq or in Syria, the 
work that we are doing to help Lebanon, the work we are doing 
with our Gulf partners to achieve precisely what it is I think 
you describe, a secure situation for the American people and an 
increase in the stability throughout the Middle East.
    Chairman Engel. And, of course, we do not need Iran in 
Syria or Russia in Syria, right up to Israel's northern border.
    Secretary Pompeo. That is correct.
    Chairman Engel. Let me finally ask you this question: the 
Balkans, how is the U.S. pushing back on Russian encroachment 
in the Balkans? I am very supportive of the independence of 
Kosovo, very supportive of the U.S. alliance with Kosovo. I 
would like to see Kosovo in the United Nations, in all the 
international organizations. I know they are having 
negotiations with Serbia, but Serbia is actually trying to 
undermine them the minute they walk away by trying to get other 
nations to withdraw their recognition of Kosovo, by making 
noise in terms of preventing them from getting into INTERPOL, 
and some of the other international organizations.
    I just want to say that I hope the Administration stands by 
our ally. I know of no country that is more pro-American than 
Kosovo. And I just would like to hear you respond to that.
    Secretary Pompeo. Thank you, Mr. Chairman.
    We are watching the situation closely. We understand all 
the rest. Under Secretary Hale was in the region not too 
terribly long ago. He reported back to me on the challenges. We 
understand Russia's efforts to influence and use various forms 
of power to control that region.
    And I would be happy--I know you want short answers--I 
would be happy to talk to you in detail about how it is we are 
trying to achieve those through all the diplomatic tools we 
have, not only the soft power of diplomacy, but through our 
economic tools as well.
    Chairman Engel. Thank you, Mr. Secretary.
    Mr. McCaul?
    Mr. McCaul. Thank you, Mr. Chairman.
    Let me first say, Mr. Secretary, that the chairman and I 
will be working in a bipartisan fashion to plus-up your budget. 
I think we need stability throughout the globe, and we look 
forward to working with you on that issue.
    Tomorrow, the chairman and I will be traveling to the 
Venezuelan border in Colombia. And I have kind of a two-part 
question. First is I do not think failure is an option here, 
but what would be the consequences for the United States and 
the region if Maduro succeeds in Venezuela? And the second part 
is, if Maduro does not succeed, what would a post-Maduro 
reconstruction strategy look like?
    Secretary Pompeo. So, I am of the nature that I try not to 
contemplate failure too often, but we have certainly considered 
what the risks are associated with the efforts that we have 
provided to date and the efforts. Frankly, you mentioned the 
Lima Group, all the countries in the region now, some 50-some 
that have recognized the proper leader, as designated by the 
Venezuelan people through their constitution.
    Look, we have seen Russia continue trying to exert 
influence. We know that the Cubans are providing substantial 
support to the Maduro regime. Allowing Maduro to continue will 
have as its primary negative outcome continued destruction of 
the Venezuelan economy and real hardship for the Venezuelan 
people. It will certainly have an importance in terms of the 
risk of terror, the risk of chaos, the economic, and refugees 
flowing from those regions, from Venezuela to the region as 
well. So, there is lots of downside if the Venezuelan people's 
objective is not achieved.
    Second, the day and week after is going to be a long 
process. The Maduro regime's destruction of the economy in 
Venezuela is not as a result of the sanctions that the United 
States has put in place over the last months. This is years of 
socialist leadership that has completely put their primary 
revenue source, their fossil fuel resources, in a place that is 
going to cost, I have seen estimates between $6 and $12 
billion, and years to repair. So, the day after means making 
sure the Cuban and Russian influence are out; Maduro and his 
cronies are all gone, and we begin to rebuild the democracy. 
And the world will have to provide the economic assistance to 
get them through this transition period.
    The United States will certainly be part of it, but I am 
confident we will find the coalition that we have built, some 
50 countries strong, that our State Department has built, will 
be part of that as well.
    Mr. McCaul. And thank you. I think it is an historic 
opportunity for the region, the hemisphere. I think it will 
transform Venezuela, which is now a failed State. It was a 
prosperous nation. Now, 20 years later, it is in utter chaos. 
And I think it would also impact Cuba, Nicaragua, Bolivia. It 
could really transform the Western Hemisphere and be a major 
foreign policy victory.
    On China, as I get my threat briefings, Islamist terror has 
always been the focus, but it seems to me that China now is 
becoming more the No. 1 threat in nation States. Can you tell 
me about the threat from China? In particular, what I am 
concerned about is the One Belt One Road Initiative. You know, 
their theft of intellectual property--they are in our medical 
institutions, our universities. But the One Belt One Road, they 
are literally overleveraging countries, and particularly in 
Africa, too, where they can take over these countries without a 
shot fired. And they are in Sri Lanka now--they have that 
port--and in Djibouti.
    What is the Administration doing to counter the Chinese 
threat?
    Secretary Pompeo. So, the first thing we did is we 
identified it, something previous Administrations were loath to 
do. I get it. We have important economic interests with China. 
Many American jobs depend on that. President Trump is doing his 
level best to set the trade relationship so that it is fair and 
reciprocal. So, I would describe that as the first thing the 
Administration did.
    The second thing is we recognize this is a great power 
battle and we are engaged in it across the world. It is our 
support of ASEAN. It is identifying the threat from Chinese 
State-owned enterprise technology companies, sharing that with 
countries in the Middle East and in Europe, identifying these 
risks, so that Western democracies around the world will wake 
up to the risks and will push back.
    And you mentioned One Belt One Road, in particular. We are 
doing our best to make sure that there are Western competitors 
every place there is a project that China is putting forth. We 
are happy to compete. If it is fair, transparent, open 
transaction, you know, the Chinese may win a few, but I am very 
confident that American businesses will do incredibly well 
there.
    What we have seen is just the opposite. We have seen 
transactions that were not straight-up, that were not fair, 
that were designed with a national security interest, and not 
an economic interest for the people of their country. The State 
Department has shared with these countries and their people and 
their leadership the risks from entering into these. And 
frankly, I think countries throughout Asia/Southeast Asia are 
waking up to this concern as well.
    Mr. McCaul. And let me just close. I know my time has 
expired.
    Just commending you for your engagement with Kim Jong-un in 
North Korea. I think that is vitally important, given the 
threat that we face in the region. I also commend you for 
walking away from the table. I think the best thing Ronald 
Reagan did was walking away from the table from the Soviets, 
and then we, ultimately, saw the end of the cold war.
    And I think just to get a deal, like the Iran deal, for 
instance, it is not adequate. We need a good deal. And so, 
thank you, sir.
    I yield back.
    Chairman Engel. Thank you, Mr. McCaul.
    We will now go to Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman.
    Secretary of State, thank you and welcome.
    I want to talk a little bit about the Western Hemisphere 
and what is going on. I see a bigger plan in what is going on 
in Venezuela I think than most people. I see a lot of 
similarities of what happened with Cuba and what is happening 
in Venezuela. In Cuba, they allowed the people to leave that 
were disenchanted with the government. In Venezuela, there are 
5,000 people leaving every day. They expect, by the end of this 
year, to be about 5 million people that have left Venezuela, 
those who are disenchanted with this government.
    I really believe that there is a bigger plan here to 
destabilize the Western Hemisphere with what is going on in 
Venezuela. You have a million people putting a great deal of 
pressure on Colombia, and they have opened their doors and they 
have done a great job in helping these people. You have 700,000 
people going into Peru. You have people all the way down to 
Argentina. Some of these countries cannot absorb the quantity 
of people that are leaving Venezuela daily. So, to me, I think 
this is part of a bigger plan to destabilize this whole region.
    It continues to keep us busy. It continues to make America 
the bad apple in all this. And I would hope that we will 
continue to put pressure on Maduro. I do not believe in 
military action, but I do believe that sanctions will be 
effective and working with the Lima Group will be very 
effective.
    This afternoon, I am meeting with Fabiana Rosales, the wife 
of Guaido. She is very concerned about her husband. She feels 
that any day now they are going to pick him up, and God knows 
where they are going to put him.
    Are we prepared to increase our sanctions and make it even 
harder for Maduro to continue being in power if anything like 
this happens?
    Secretary Pompeo. Yes.
    Mr. Sires. Do you know, can you share with us kind of 
sanctions would you be considering?
    Secretary Pompeo. What we have done so far is historic.
    Mr. Sires. I agree with what they are doing so far.
    Secretary Pompeo. And your analysis, I actually share most 
all of the analysis that you just laid out as well of the risks 
to the region. I would prefer not to get out ahead of what we 
are prepared to sanction and what we are not, but suffice it to 
say, you have this Administration's commitment to continue to 
work to deliver for the Venezuelan people. Whether that is 
economic sanctions, sanctions on family members, military 
leaders, our outreach through diplomats to try and convince the 
Venezuelan army of the fool's errand it is to stand with this 
thug, we are hard at it.
    Mr. Sires. I am concerned that it is going to go from 
Venezuela to Nicaragua. I mean, Nicaragua last year bought $80 
million worth of tanks from Russia. They are one of the poorest 
countries, if not the poorest, in the region. So, to me, they 
are going on the same path.
    This idea that somehow they are having this dialogue now, 
they keep walking away from this dialogue with the opposition. 
And it is only a matter of time until they pull one of these 
Maduro issues where they become absolute power.
    Are we willing to put sanctions on Nicaragua if they go the 
same way as Venezuela?
    Secretary Pompeo. I am confident that we will respond. If 
the threat is similar and the risks are similar, we will 
respond in a similar fashion.
    Mr. Sires. And the last thing I have is, Uruguay, Mexico, 
they were talking about somehow some sort of dialogue to see if 
they could move Maduro out. Has the Administration talked to 
these two countries in terms--I think Brazil was probably 
involved in that also--to see if they could help in moving this 
guy out of there before more people die?
    Secretary Pompeo. Yes, we have been in conversations with, 
I personally have been in conversations with each of those two 
governments. And I must say, there is no evidence that there is 
any value in speaking with Maduro at this time. His time has 
come; his time has gone. It is time for him to leave.
    Mr. Sires. I have so many questions, but my time is running 
out.
    But I know the Turks----
    Secretary Pompeo. I tried to be brief.
    Mr. Sires. You are; you have been.
    The Turks, the Iranians are in Venezuela. Very concerned.
    And thank you for being here.
    Secretary Pompeo. Yes.
    Mr. Sires. Thank you, Chairman.
    Secretary Pompeo. May I just add to that? And they have 
provided financial assistance and support to the Maduro regime 
at a time when it was incredibly unconstructive.
    Mr. Sires. And I see that the Russians landed 100 soldiers, 
or something, the other day?
    Secretary Pompeo. That is correct.
    Mr. Sires. Thank you, Mr. Secretary.
    Chairman Engel. Thank you.
    Mr. Smith?
    Mr. Smith. Thank you very much, Mr. Chairman.
    Mr. Secretary, welcome and thank you for your great 
leadership and for being here today.
    A few months ago, I chaired a hearing on the Chinese 
government's complicity in the production and trafficking of 
fentanyl. As we all know, 29,000 people in the United States 
have been killed, the most recent numbers in 2017. I have a 
bill, H.R. 1542--Mr. Suozzi is my principal Democrat 
cosponsor--called the Combating Illicit Fentanyl Act of 2019. 
And what we are looking for is a listing of people who are 
complicit. At the hearing, I walked away thinking we are not 
doing perhaps all that we can do. I know you are doing much. 
But it seems to me the Magnitsky Act sanctions and other things 
ought to be brought to bear against those people.
    Second, thank you, on Ambassador John Richmond and Special 
Envoy Elan Carr, for two very superb choices, the Special Envoy 
on Antisemitism and Ambassador Richmond heading up the 
trafficking office. So, thank you for that leadership because 
they are two wonderful people that are doing a good job 
already.
    Let me just jump back to a second ago. Last night I was at 
a premiere of a brand-new film called ``Unplanned,'' which 
opens this weekend at over 1,000 theaters, based on the life of 
Abby Johnson and her book Unplanned, which I have read. The 
film chronicles Ms. Johnson's life as a Planned Parenthood 
student activist, followed by almost 8 years as director of a 
large Planned Parenthood clinic in Texas where over 20,000 
abortions were performed.
    In Unplanned, Ms. Johnson points out that she assisted in 
the first ultrasound-guided abortion at that clinic and she 
says, and I quote her, ``The details startled me. At 13 weeks, 
you can clearly see the profile of the head, arms, and legs, 
even tiny fingers and toes. With my eyes glued on the image of 
this perfectly formed baby, I watched as a new image emerged on 
the video screen. The cannula, a straw-shaped instrument 
attached to the end of the suction tube, had been inserted into 
the uterus and was nearing the baby's side. It looked like an 
invader, out of place.'' She then says that, ``at first, the 
baby did not seem aware the of canaula. ``The next moment there 
was a sudden jerk of the tiny foot of the baby as it pressed 
in."And then the doctor's voice broke in and said, ``Beam me 
up, Scottie,'' telling the assistant to turn on the suction, 
and the child crumpled right before her eyes.
    I want to thank you, Mr. Secretary. In this country, we 
have lost 61 million unborn babies to abortion, a number that 
equates with the entire country, the population of Italy. And 
yet, there are many of those who would like to export abortion 
through our foreign policy.
    So, I want to thank you for your faithful implementation of 
the Protecting Life and Global Health Assistance Policy, which 
continues to be a significant reiteration and expansion of 
President Reagan's Mexico City policy. Members might recall 
that, announced by Ronald Reagan at the U.N. conference in 1984 
in Mexico City--hence, its name--the policy was and is designed 
to ensure that U.S. taxpayer funding is not funneled to foreign 
NGO's that perform or promote abortion as a method of family 
planning.
    Thirty-four years ago, in July 1985, I authored the first 
of several successful amendments that became annual amendments 
to preserve this policy. People said then that NGO's would not 
accept those conditions. We found out very quickly that they 
did, and they divested themselves, if they were complicit in 
the taking of life, to what their mission happens to be, 
malaria and some other important program. So, I want to thank 
you for that.
    Let me also remind my colleagues--and you know this so 
well, and special thanks--that President Trump has said he will 
veto any bill that weakens or nullifies any pro-life policy, 
any of them, and that includes Mexico City. And we will sustain 
that veto.
    More than 169 Members have signed the letter to the 
President in the House, 49 in the Senate, saying clearly, if it 
is on any bill, that bill, we will sustain your veto, Mr. 
President. And I want to assure you, because life is so 
precious and we need to protect it, we will do that and those 
Members will be true to their words.
    If you could speak on those issues briefly and on fentanyl.
    Secretary Pompeo. Let me take two of them briefly.
    President Trump has made this a priority. He got a 
commitment from President Xi that President Xi would do all he 
could in his space to stop fentanyl from moving out of China. 
We have not yet seen as much action as we had anticipated we 
would see. The day I was there I heard President Xi make that 
commitment.
    This Administration is determined. This crisis, this opioid 
crisis is real. It is tragic. We do not have our hands around 
it yet, but know that the State Department and my colleagues 
across the Cabinet understand the risk that this presents to 
the United States and its people.
    Second, your statements on the Mexico City policy I 
appreciate. We made an extension of it yesterday. I am very 
confident that the things that we did yesterday will be 
absorbed by the NGO community. They will continue to deliver on 
the health needs that you and I both are so committed to 
delivering. Not a single dollar will be reduced in terms of 
spending, and we will make sure that those dollars go to the 
right place and that not one dollar of taxpayer funding goes to 
the tragedy of abortion around the world.
    Chairman Engel. Thank you, Mr. Secretary.
    As you can see, we have a vote on the floor right now, and 
it is 4 minutes 40 seconds. There are only two votes, though, 
luckily. So, I am going to recess for now.
    Secretary Pompeo. Great.
    Chairman Engel. Mr. Secretary, there is a room we were in 
before if you would like to go in.
    And we will be back and start as quickly as we can. It 
should only be about another 15 minutes or so.
    So, we stand in recess until then.
    [Recess.]
    Chairman Engel. Mr. Secretary, we are about to get some of 
our members. I know you remember the days fondly.
    Secretary Pompeo. I do.
    Chairman Engel. So, what we will do is we will start. OK, 
as our members are coming back, we will start immediately, and 
then, we will continue to the end. I am told we are not 
expecting any more votes. So, that should be a good thing.
    Mr. Secretary, thank you for your patience.
    It is now my pleasure to call on Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman.
    Hi, Mr. Secretary.
    Secretary Pompeo. Hello.
    Mr. Meeks. I missed your testimony, but I read it, and I 
thought it was an important point that you made when you 
mentioned Colombia and this whole scenario that is dealing with 
Venezuela. I guess you would say that the people of Venezuela--
I think we would agree on this--are in crises, correct?
    Secretary Pompeo. I am sorry, the people in Venezuela? Yes. 
Yes.
    Mr. Meeks. And so, they are fleeing and, fortunately, they 
are going to Colombia. And we have got a great ally in 
Colombia, and Colombia is doing the right thing by taking care 
of these folks who are in crises.
    It just seems to me that it is in contrast to the position 
that we are taking on our southern border, because I do not 
hear any talks--I am now speaking to the members of the 
Colombian government--they are not saying they are being 
invaded. They have got millions of people crossing their border 
every day. They are not saying they are being invaded. There is 
no talk about building a wall. But, rather, they are calling 
for a coordination of humanitarian assistance and working 
within their group.
    The fact of the matter is, in talking to some of the 
Colombian members of their government, I was talking to them 
not too long ago, yesterday to be a fact, they expect the 
possibility of a bigger crisis. They say 2-3 million people may 
be coming across. But they were going to try to make sure they 
take care of them, not prevent them from coming across.
    A stark contrast to the policies that we have on our 
southern border. Do you see a difference from people trying to 
flee for their life and safety on the southern border of the 
United States and the border between Venezuela and Colombia?
    Secretary Pompeo. In what respect?
    Mr. Meeks. Well, in the respect of being humanitarian and 
trying to take care of people that is in crises, people that 
are fleeing their homeland because of their safety. And what we 
have seen on our southern border, families who are fleeing 
their homeland for fear in losing their life. And we have had 
the policy of either building a wall, so they will not come 
over here, separate them from their families, locking them up. 
That has been our policy, as opposed to what I see happening on 
Colombia and Peru and the other bordering countries around 
Venezuela. And there is nowhere near the amount of people on 
our southern border that are now crossing the border in 
Colombia, but the response is substantially different from our 
Administration and President Duque's Administration in 
Colombia.
    Secretary Pompeo. Well, every nation gets to make its own 
sovereign decisions about how to handle crises of this nature. 
I think that is to be sure. Our President----
    Mr. Meeks. Well, you praise them. So, then, maybe you 
should say something different about us because we are having a 
situation completely different than they are.
    Secretary Pompeo. We----
    Mr. Meeks. Let me just go from there. Let me ask, because 
you are here about budget also, and I understand that there was 
a cut, somewhere between 17 and 20 percent reduction, for 
embassy security, construction, and maintenance, is that not 
correct?
    Secretary Pompeo. I do not have the numbers in front of me. 
I know that we have increased our budget for the overall scope 
of security inside the Department of State. It is something I 
have as a real priority.
    Mr. Meeks. But I just want to be sure because, look, last 
time we had a conversation, we talked about security and you 
said at that time that you take a backseat to no one with 
respect to caring about protecting the people that work for us. 
Cutting their security, given what is going on, I know it is 
concerning to me because I want to make sure that we protect 
our diplomats.
    In fact, do you recall the incident in Dhaka, Bangladesh? I 
think that took place on August 4th of 2018.
    Secretary Pompeo. I am sorry, where was this?
    Mr. Meeks. Dhaka, Bangladesh.
    Secretary Pompeo. I do not know what incident you are 
referring to. We have security incidents with great frequency, 
and we do our level best to address them. Our teams are 
fantastic and have kept our people safe during----
    Mr. Meeks. Well, let me tell you about it. Fortunately, no 
one was injured. But, on August 4th, 2018, armed men on 
motorcycles targeted our then-Ambassador to Bangladesh while 
her--attacked the vehicles.
    Secretary Pompeo. Yes, I now recall the incident, yes.
    Mr. Meeks. OK. And so, luckily, nobody is hurt. But when I 
hear, as a matter of policy, that we are cutting back on 
security, that gives me some real concern, particularly from 
you, Mr. Secretary, because when you were on this side of the 
bench, you questioned Democrats, when we had a Democrat 
Administration, on their sincerity with reference to protection 
of our embassies. But, yet, you are silent when we are cutting 
the budgets for security and the State Department, but nothing 
said. And clearly, our Ambassadors are at a state of risk.
    I think I am out of time. So, I yield back, Mr. Chair.
    Chairman Engel. Thank you.
    Mr. Chabot?
    Mr. Chabot. Thank you very much, Mr. Chairman.
    Mr. Secretary, as you know, last Congress I introduced the 
Taiwan Travel Act, and President Trump signed it into law last 
March. The intention of this legislation was to allow our high-
level officials to go to Taipei and to allow their high-level 
officials to come here to the United States, including 
Washington. In fact, as I had mentioned when you were here last 
time, I would absolutely advocate President Tsai addressing a 
Joint Session of Congress here in Washington, DC, sometime in 
the not-too-distant future.
    As you know, you and I were elected together back in 2010, 
the historic 2010 class, majority-makers. And you have moved 
on. It was your first time, my second time, but you moved on 
to, I guess, to some would argue bigger and better things. But 
you are now Secretary of State. As you may know, I was first 
elected back in 1994, and a member of my class back then, Sam 
Brownback, was here for a while, and then, he moved up and on 
to the Senate, although we do not necessarily think that is 
``up'' on this side of the building.
    [Laughter.]
    Of course, then he became Governor of Kansas. And the 
reason I bring Sam up is not only were we classmates, but he is 
no Ambassador-at-Large for International Religious Freedom. And 
he did visit Taipei recently. And I would certainly encourage 
more visits like that.
    So, I guess my question, Mr. Secretary, would be, do you 
think that the full implementation of the Taiwan Travel Act 
would improve U.S.-Taiwan relations? And can the people of 
Taiwan count on you to advocate for further implementation of 
that I think very important legislation, the Taiwan Travel Act?
    Secretary Pompeo. So, I think it is important to consider 
all of these things in the context of the challenges from 
China. You have seen what we have done with respect to Taiwan. 
It was just in the past few days that we sailed through the 
Straits, that the United States Department of Defense----
    [Interruption from audience.]
    Chairman Engel. If everybody will hold--excuse me. You are 
out of order. We will hold for a minute.
    [Interruption from audience continues.]
    Chairman Engel. The chair reminds all members of the 
audience that any manifestation of approval or disapproval of 
proceedings is in violation of the rules of the House and its 
committees. And if there are any further disruptions, the 
police will be called back to remove the person or persons from 
the hearing room.
    Mr. Chabot. Mr. Chairman, the Secretary was in the process 
of answering a question. I would ask that our time be restored.
    Chairman Engel. Yes, absolutely.
    Mr. Chabot. I appreciate that.
    I would also note that the--I guess I will use the term--
``gentleman'' who just interrupted this meeting was neither 
from Taiwan nor the PRC and had nothing to do with my question 
or the Secretary's answer.
    So, Mr. Secretary, if you could continue?
    Secretary Pompeo. I appreciate you stopping people from 
disapproval, Mr. Chairman. If there is approval, you can let 
them go on.
    [Laughter.]
    So, this is a very serious matter. The Taiwan Travel 
Relations Act is an important piece of legislation. You have 
seen our Administration do a great deal to implement that. I am 
sure there is more to follow. I do not want to get too far out 
ahead of what we are doing.
    But, make no mistake about it, we understand the importance 
of that relationship and, more importantly, we have taken a 
much fuller view than previous Administrations. This is not 
partisan. It goes back to Republicans and Democrats alike, the 
concerns about the risks that China presents to American wealth 
creation and our continued democracy.
    Mr. Chabot. Thank you, Mr. Secretary. I appreciate that.
    I would like to move on at this point to Burma. A year and 
a half ago, the Burmese military drove the Rohingya out of the 
Rakhine State through a campaign of killings and rapes and 
burning of villages, and some of the most horrific and 
unspeakable crimes that we had seen on this globe in a long, 
long time. We all appreciated when then-Secretary Tillerson, 
your predecessor, dubbed these atrocities as ethnic cleansing. 
Now, as you know, ethnic cleansing is a powerful message, but 
it does not have legal weight.
    And since 2017, overwhelming evidence has come out that 
clearly shows that the Burmese military committed crimes 
against humanity. Even the Department's own investigation into 
these atrocities came to similar conclusions. Several entities, 
including the House, have concluded that these crimes 
constitute genocide. The State Department has not made any 
legal pronouncement at this point beyond ethnic cleansing.
    Given all the evidence available to you, could you comment 
today if you are ready to conclude or where you are in 
determining whether the crimes committed against the Rohingya 
by the Burmese military did constitute at least crimes against 
humanity?
    Secretary Pompeo. Yes, let me try to address that. You 
referenced the report that the State Department did. It was 
amazing work by some really talented State Department officers 
to go out and collect that data. I think the data speaks for 
itself in terms of the horrific nature of what took place 
there.
    With respect to making this legal determination, I am not 
prepared to provide you an answer today. Know that we are still 
looking at it, frankly, that I am still looking at that more 
specifically. My objective here is to get a really good 
outcome, to change this behavior, then to hold those 
responsible accountable. I want to make sure that we do this in 
a thoughtful way. I get the messaging that takes place when a 
Secretary of State makes these designations. I value that and 
it is important. But I think we would all agree the most 
important thing we can do is get both accountability and 
behavioral change, and that is what the State Department is 
working to do. We are still actively considering how to 
approach those conclusions.
    Mr. Chabot. Thank you very much.
    Georgia and Ukraine both face intense continued pressure 
from Putin. Both have territory illegally under Russian 
control. Despite the risks, Georgia and Ukraine, and really 
many Eastern European countries, actively pursue pro-Western 
policies. Could you describe how the President's budget 
enhances our support for these two critical partners?
    Secretary Pompeo. So, you have seen real tangible ways we 
have done in Ukraine, providing defensive items to the 
Ukrainian people. We have provided intelligence assistance. I 
saw that in my previous role and before I was the Secretary of 
State. You have seen our efforts all across the world, Ukraine 
and Georgia included, to push back against Russian efforts to 
interfere when elections are approaching, as we are in Ukraine 
today.
    There are many elements. And I was speaking about things 
mostly that the State Department and the Department of Defense 
were involved in. There are elements all across the U.S. 
Government determined to help the Georgian people, who are very 
pro-American and share our understanding of the way that region 
ought to operate.
    Mr. Chabot. Thank you.
    I have only got 30 seconds. So, I want to conclude on North 
Korea. I want to applaud both you and the President and his 
team for being willing to walk away from a bad deal in Hanoi. 
It reminded me a lot of a President who up to this point was my 
most respected President, Ronald Reagan, walking away from 
Gorbachev in Reykjavik. So, thank you for doing that. It is 
easy to enter into a bad deal and you get some press that is 
positive. But you were willing to walk away. God bless you for 
doing it. Keep the sanctions up, and let's denuclearize that 
peninsula. Thank you for your efforts.
    Secretary Pompeo. Thank you.
    Chairman Engel. Thank you.
    Mr. Connolly?
    Mr. Connolly. Thank you, Mr. Chairman.
    Welcome back, Mr. Secretary, and thank you for being here.
    Mr. Secretary, I do not want to talk at a political level 
today with you. I want to talk from the heart. And I want to 
talk about a matter of justice on behalf of one of my 
constituents well known to you. I want to show you a picture.
    This picture took place on November 19th, 2017 in my 
district. I am holding a cane because I had had a bad accident 
at a NATO meeting in Bucharest, Romania, a few months before 
and I still needed a cane to hobble around, not the most 
flattering picture of me.
    Next to me is a man named Jamal Khashoggi. He is a mild-
mannered man. He and I are discussing Middle East issues. He 
was a Saudi citizen, family, children, had on occasion worked 
for the Saudi government or for members of the royal family. He 
was mild-mannered, soft-spoken, and a moderate critic of the 
Kingdom. He wanted to see modernization. He wanted to see 
reforms. He was a columnist sometimes for The Washington Post, 
our local newspaper here in Washington.
    On October 2d, 2018, 11 months later, my constituent, a 
legal resident of the United States who lived in Tysons Corner 
in Fairfax County, the Commonwealth of Virginia, was lured into 
the sovereign territory, the consulate of the Saudi government 
in Istanbul because he was seeking papers to get remarried. He 
had his fiancee outside waiting for him. He had been to the 
consulate before, and they had lulled him into believing he 
would be safe. But, of course, he was not.
    What we know was that, on that day, two planes under the 
control of the Crown Prince of Saudi Arabia flew in with two 
teams whose objective was to either kidnap or kill Mr. 
Khashoggi. One presumes the objective involved killing because, 
not a diplomatic tool normally, they brought with them a bone 
saw. We know all of that because of revelations from Turkey. 
But those revelations, as I understand it, have been confirmed 
by our intelligence community; you would know better than I.
    Nonetheless, what we do know is the Saudi government lied 
consistently. They lied about whether he safely left the 
consulate that day, knowing full well he did not. They lied 
about his murder. They lied about the conspiracy to murder him. 
They lied about who did it and how it was done.
    And I guess I want to show you another picture, Mr. 
Secretary. This is a picture that took place 14 days after the 
murder. And that shows you and the Crown Prince, who many 
believe orchestrated and ordered the murder of Mr. Khashoggi, 
my constituent. And I guess what this picture raises is a 
question. At what point, as Americans, do we insist that the 
inalienable rights enumerated in our Declaration of 
Independence, life, liberty, and the pursuit of happiness, all 
three of which were denied my constituent, Mr. Khashoggi, when 
do they trump diplomatic nicety? Is there ever a time when we 
are going to, as a country, insist, you know what, we are not 
going to do business as normal and we are going to hold you to 
account?
    Now, at that meeting, you said, I believe, that they would 
be held to account, but you were meeting with a man who was 
assuring you they would be held to account, when he is himself 
suspected strongly of having orchestrated the murder. And so, I 
guess I want to ask you, Mr. Secretary, were you aware of the 
fact at that point of the gruesome details of the murder of my 
constituent, Mr. Khashoggi? Did you discuss that murder with 
the Crown Prince? And how are we going, moving forward, to hold 
the Crown Prince and the Saudi government responsible for one 
of the most grisly episodes ever to occur in a consulate or an 
embassy in our diplomatic experience?
    Secretary Pompeo. So, you asked three questions there, I 
believe. The first one was what was my knowledge base. I think 
at that time I knew most of what had taken place, although I do 
not recall the exact sequence. I certainly have learned more 
about that since then. I have learned additional facts since 
that moment in time.
    The second question was did I discuss the murder. The 
answer is yes. I think I said it that day, that I had discussed 
the murder with him.
    And then, the third question is how will we hold them 
accountable. You have seen the Trump Administration do just 
that with respect to 17 individuals. We are continuing all 
across the government, certainly with overt means and all the 
tools that we have in our capacity, to learn more facts about 
this. President Trump has made very clear that we will continue 
to work to identify those who are responsible for Jamal 
Khashoggi's murder and hold them accountable. We will. I stand 
by that today. I am sure President Trump will as well.
    Mr. Connolly. And just a real quick one. And does that 
mean, Mr. Secretary, no matter how high up it might go?
    Secretary Pompeo. I said ``anyone''.
    Mr. Connolly. Thank you, Mr. Secretary.
    Secretary Pompeo. Thank you, sir.
    Mr. Connolly. And I pray we get justice for Mr. Khashoggi 
and his family and friends.
    Thank you.
    Mr. Sherman [presiding]. Now I recognize the gentleman from 
Pennsylvania.
    Mr. Perry. Thank you, Mr. Chairman.
    And, Mr. Secretary, it is great to see you. We are proud of 
your service in this body and your current efforts.
    I want to begin by applauding the President and your 
Department for taking steps to recognize the Israeli 
sovereignty over the Golan Heights. As you might recall, I 
wrote you a letter last year in that regard, encouraging that 
recognition. And I just think at this time, with Iran and their 
proxies, terrorist organizations, the IRGC, Hezbollah, all on 
the border, there is no more an important time than now to take 
this action. And I speak for all the people in the district 
that I am privileged to represent that are proud of this 
action, support it, and just say thank you very much. And we 
offer our support and assistance.
    Moving on, regarding Tibet, I am just wondering, what is 
preventing the Administration from formally placing a 
diplomatic post in Lhasa?
    Secretary Pompeo. It is something that previous 
Administrations and this Administration continue to review. We 
have to place it in the context of our larger policy, Indo-
Pacific policy, even more broadly. We are trying to make sure 
that we get each of these steps right.
    What President Trump has directed each of us to do is 
recognize facts on the ground, try to apply good common sense, 
and then, generate policies that actually get outcomes. I think 
for an awful long time, we have done things that made us feel 
good, but did not deliver. And so, with respect to this 
particular issue, and all the issues that surround it in Asia, 
we want to make sure that we actually deliver for the American 
people. And so, as we consider the appropriateness of a lot of 
decisions on designations, on sanctions, on how the Department 
of Defense is going to posture, how we work with Southeastern 
countries, we want to make sure that we actually deliver for 
the American people.
    Mr. Perry. We hope you do. It has been a long time, and I 
think it would be helpful for our broader relationship, so to 
speak.
    Moving on, but somewhat within the realm of China, will the 
State Department consider revoking pouch status for 
construction materials regarding the housing complex on 
Connecticut Avenue that China is building in association with 
their diplomatic mission here until they respond to a 
reciprocal-type arrangement with our embassy in Beijing?
    Secretary Pompeo. I am familiar with the challenges we are 
having with delivering diplomatic materials consistent with 
international treaty obligations there in Beijing. We are 
considering lots of different ways to convince the Chinese to 
permit us to do this basic diplomatic function.
    Mr. Perry. Is it not part of their agreement that they 
cannot be shipping their construction materials in via 
diplomatic pouch? I mean, did not they sign that agreement or 
agree to that provision?
    Secretary Pompeo. I am not certain if that is the case or 
not.
    Mr. Perry. It is my understanding, but if there is 
something other than that, maybe we will followup afterwards. 
But it seems to me that this is a circumstance that should be 
easy. When our construction, our building over there, needs 
assistance and needs attention, that we should be able to do 
that, and certainly under the exact same provisions that they 
are. And the fact that they would not allow that, while we 
allow them to build on Connecticut Avenue, on the high ground, 
mind you, as a military officer, that concerns not only me, but 
many Americans greatly.
    Moving on, with the advent of the Mueller report, I am 
wondering if your Department is starting to investigate people 
at the State Department that used their official position to 
distribute elements or discuss elements of the Steele dossier, 
with the intent of sparking an investigation into the President 
of the United States, that work in the State Department, those 
folks. Are there ongoing investigations or are you considering 
investigations at this time?
    Secretary Pompeo. I am going to honor the commitment I made 
when I signed up for this gig. I am not going to talk about 
ongoing investigations that we have. But you can rest assured 
that, if we see malfeasance, misbehavior, those doing things 
that are inappropriate, the team understands their mission set, 
which is to hold every officer accountable against the mission 
set that the Constitution and President Trump have laid out for 
us.
    Mr. Perry. And I appreciate not discussing ongoing 
investigations, but now that the Mueller investigation is 
complete and the report, at least the summary is issued, and we 
expect the full report or at least a portion of that when able, 
do you envision any new investigations or opening any 
investigations subsequent to that, based on what you know now 
about some of the people at the State Department who have 
engaged in circulating or being a part of the Steele dossier?
    Secretary Pompeo. Yes, I am not going to speculate on 
investigations that we might or might not open.
    Mr. Perry. All right. Thank you. Thank you, Mr. Secretary.
    I yield.
    Mr. Sherman. Thank you.
    The chair now recognizes himself.
    I have four questions for the record that I just want to 
have my colleagues be aware of.
    The first of these is whether we can count on you to 
support continued assistance to Nagorno-Karabakh Artsakh, 
especially for demining efforts, and expanding support to 
health care and rehabilitation services, especially those 
injured in mines.
    The second is whether we can count on you to support aid to 
Armenia for the 25,000 Syrian refugees that they have taken in.
    The third is I am chair of the Sindh Caucus. Southern 
Pakistan's Sindh has faced extrajudicial killings, forced 
conversions of Hindu girls after they have been kidnapped, and 
then, forcibly marriages. And Dr. Anwar Leghari, the brother of 
a dear friend of mine, was subject to extrajudicial killing 4 
years ago. So, I hope that you can pledge to raise a gross 
human rights in Sindh with the Pakistani diplomats that you 
interact with. And I hope that you will also be able to support 
more outreach in the Sindhi language from our Karachi 
consulate, and to support $1.5 million a year, so that the 
Voice of America can broadcast in the Sindhi language.
    Now I want to pick up on Mr. Connolly's comments. Khashoggi 
was brutally murdered. So far, our sole response has been to 
tell 17 thugs that they cannot visit Disneyland, these 17 
button men who will not get U.S. embassies. That is an 
inadequate response. I am going to suggest a better response.
    There are a lot of things we could do to Saudi Arabia that 
may not be our traditional policy, may not be in our interest, 
but one thing that is in our interest is to prevent Saudi 
Arabia from getting a nuclear weapon for three reasons. If you 
cannot trust a regime with a bone saw, you should not trust 
them with nuclear weapons. Second, even if you think MBS is a 
tremendous leader for the future, he is a not a democratically 
elected leader. He could be overthrown by the Wahhabi clerics 
at anytime. And, of course, the Middle East does not need a new 
nuclear weapon.
    What I have seen in this Administration recently--and it 
has just come out--is an effort to evade Congress, and to some 
extent evade your Department, and provide substantial nuclear 
technology and aid to Saudi Arabia while Saudi Arabia refuses 
to abide by any of the controls we would like to see regarding 
reprocessing, enrichment, et cetera. And we see strong advocacy 
of this coming from a group called IP3 and others show seem 
very close to the Saudi regime.
    In particular, we have seen your Assistant Secretary of 
State Chris Ford say the Department will conduct some nuclear 
cooperation through memorandums of understanding, which do not 
require congressional oversight or approval, rather than 
through a one-two-three agreement.
    And we see that there were some six licenses granted by the 
Department of Energy which in normal course are made available 
to the public, but are, instead, being kept secret, all of 
which provide for the transfer of nuclear technology to Saudi 
Arabia.
    So, can I count on you and the Administration to release 
these six--they are called Part 810 authorizations--by the 
middle of this month?
    Secretary Pompeo. I will have to look into it.
    Mr. Sherman. Can your staff prepare for us or you prepare 
for us a list of all the types of nuclear commerce the 
Administration believe it is entitled to engage in without a 
one-two-three agreement that has gone through congressional 
review?
    Secretary Pompeo. We can certainly take a look at that. I 
can assure you that we will do our level best to comply with 
the law every day. And if you believe that we are not doing 
that on our obligations, please let me know.
    Mr. Sherman. It appears to be in one case, it appears that 
this is an end run around the law in an effort to achieve a 
policy. Do we want to provide nuclear technology to Saudi 
Arabia before they enter into agreements for no reprocessing 
and no enrichment?
    Secretary Pompeo. We have been working--``we'' 
collectively, the U.S. Government, the Department of Energy, 
the State Department, and others--have been working to get--the 
Saudis have indicated they want civil nuclear power. We have 
been working to make sure that they do----
    Mr. Sherman. But why would not they want controls, except 
for the reason that they want nuclear weapons? How do you 
generate an extra kilowatt by keeping the IAEA inspectors out?
    Secretary Pompeo. Yes, you know, I can only tell you that 
the Islamic Republic of Iran very much wanted to do the same, 
right? They did not want any of these things in, either, and we 
got----
    Mr. Sherman. We treated Iran like an enemy. If Saudi Arabia 
is hell-bent on developing a nuclear program that is 
uncontrolled and designed to make them a nuclear State, or a 
possible nuclear State, we will treat them as an enemy?
    Secretary Pompeo. We are working to ensure that the nuclear 
power that they get is something we understand and does not 
present that risk. That is the mission statement----
    Mr. Sherman. These six secret Part 810 authorizations are 
inconsistent with that, and I look forward to you making them 
available to the public, or at least to this committee.
    And with that, I recognize my fellow head of the Asia 
Subcommittee, the ranking member thereof, Ted Yoho.
    Mr. Yoho. Thank you, Mr. Chairman.
    Mr. Secretary, good to see you again, and thank you for the 
great job you and the Administration are doing. And it is good 
to see Ms. Mary Elizabeth with you.
    When you came into office, what were the biggest threats to 
the U.S. and the world that you guys saw or inherited from the 
previous Administration?
    Secretary Pompeo. Goodness. You know, I get asked to rank 
all the time. It is always a challenge. There are some that are 
immediate, right? The threat from terrorism is on top of us. It 
is real. It is a threat every day. We have done our best to 
make progress. We have made progress in certain parts; in other 
places we still have a tremendous amount of work to do.
    But the threats, our renewed efforts to build that 
coalition is to push back against what I will call the 
traditional power rivalries have been very real, the threat 
from China, the threat from Russia, the threat from Iran. And 
then, of course, we have spent a lot of time on proliferation 
issues, Iran there, too, North Korea.
    Mr. Yoho. Well, and that is what I wanted to bring up. 
Terrorism, ISIS, obviously, DPRK, China, Afghanistan, the 
situation. Has that threat of ISIS been lessened in the 2-years 
this Administration has been there?
    Secretary Pompeo. Yes, I believe that it has. I think the 
numbers are different. It is still there.
    Mr. Yoho. It is, and it will never go away, but I think the 
immediate threat has been the dynamics have changed 
drastically.
    Has the DPRK threat been lessened? And that is an obvious 
because, if we look at the last ballistic missiles or nuclear 
bombs launched or detonated, it has been over 15 months. So, I 
think the results that you guys are doing and pursuing are 
doing a great job.
    Has the Administration backed or signed into law 
legislation to counter China's BRI? I almost feel guilty asking 
that.
    [Laughter.]
    Secretary Pompeo. We have. President Trump did sign.
    Mr. Yoho. He did sign the BUILD Act? And that is a way that 
we can stand up to what they are doing with the BRI.
    Do you have sufficient resources, i.e., people or budget, 
to accomplish your mission to advance America's diplomacy?
    Secretary Pompeo. Yes.
    Mr. Yoho. In the staffing shortfalls, my understanding is 
many people have been nominated and positions have been 
nominated. Where is the holdup?
    Secretary Pompeo. On staffing, I brought the data with me. 
Our staffing levels were actually in pretty good shape. The 
overall size of the work force, the Foreign Service Officer 
work force, by the end of this year, will have at or near more 
Foreign Service Officers than ever in the history of the United 
States of America.
    We are challenged. I have in front of me a list of 40-plus 
senior leaders. I have not had a Chief Operating Officer in 2 
years. I do not have a head of Near East Affairs. These are 
highly qualified people that have been held up.
    Mr. Yoho. By the Senate?
    Secretary Pompeo. They are sitting in the U.S. Senate 
today.
    I made a commitment to get the team on the field. I have 
got an ambassador waiting to go the Kingdom of Saudi Arabia, a 
topic we just talked about. I want to get these folks out 
there, so that we can deliver American diplomacy in every 
corner of the world.
    Mr. Yoho. And I am going to give a shoutout to you because 
I had the opportunity to travel with you for a better part of a 
day. What I saw you and your team doing I thought was pretty 
phenomenal, because I have never seen this done before where 
you were traveling within the States to promote what the State 
Department does. You were talking to young students to get them 
involved in thinking about going into a career in the State 
Department. And I commend you and your team for doing that, 
because I look back when I grew up as a pretty sheltered life. 
I did not even think that was a realm of possibility. Again, I 
cannot tell you how much I appreciate that.
    I share the same beliefs as Mr. Sires, of my colleague, in 
regards to Russia, Cuba, China, and Iran, that there is maybe a 
destabilizing, coordinated effort underway to destabilize the 
Western Hemisphere. And I think you and I have talked about 
this, that Venezuela could be but the rubicon, because if 
Venezuela fails, it will show that Cuba, you know, they cannot 
survive because they are the ones that have been propping that 
up.
    How do you assess that? And along with that, how should we 
respond to Russia's interference under the guise of support to 
the Maduro regime in Venezuela? And do we need to reemphasize 
the Monroe Doctrine?
    Secretary Pompeo. So, I have spoken to my Russian 
counterpart no less than three times on the issue of Venezuela 
and their interference, the fact that they are undermining 
Venezuelan democracy. It was met with precisely what you would 
expect from them.
    We are doing our level best to push back against the 
capacity of Cuba, who has had intelligence officers and 
security officers on the ground there today protecting Maduro. 
It shocks me that the Venezuelan military will tolerate these 
foreigners, right, coming to run their security service. As a 
former U.S. Army officer, it would have been embarrassing if a 
third country had to come in and provide security for the 
leadership of our country. But that is where we are today.
    We are doing our level best to put sanctions in place, to 
put restrictions in place, and to, more importantly, build our 
coalition, not just in South America and Central America with 
the OAS and the Lima Group, but European countries from all the 
around the world who understand that democratic Venezuela is 
the only path forward and Maduro has to go before we can get 
there.
    Mr. Yoho. I look forward to working with you.
    I am out of time, Mr. Chairman. Thank you, and I yield 
back.
    Chairman Engel [presiding]. Thank you.
    Mr. Deutch?
    Mr. Deutch. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for being with us. Thank you for 
your service.
    March 9th marked the 12th anniversary of the disappearance 
of Bob Levinson from Iran's Kish Island. Bob is my constituent. 
He is part of our community back home in Coral Springs. He is a 
patriot, as you know, who devoted 30 years to serving his 
country, first, with the DEA, and then, a quarter century with 
the FBI. He is a husband of 40 years. He is a father of seven. 
He is a grandfather of six, five of whom he has never met.
    Iran's despicable practice of holding Americans and other 
foreign nationals hostage should not be tolerated by any 
responsible nation. Mr. Secretary, I know you are well familiar 
with Bob's case and the Levinson family. Bob's son, Doug, is 
here today. I appreciate that you have always been willing to 
engage with the Levinsons and with me on this matter. And I 
would ask that you look for every opportunity to raise Bob's 
case; also, to make bringing Bob home a priority. I would ask 
that you implore the President himself to sit down with the 
Levinsons and the other families of others detained in Iran. 
And I am willing to work with you, Mr. Secretary, others in the 
Administration, anyone--anyone--who can help bring Bob home.
    I would like to turn to Syria. Mr. Secretary, I am troubled 
by your Syria policy because I, frankly, do not understand it. 
I do not understand how freezing assistance, pulling back U.S. 
troops, and ceding American leadership to Russia and Iran will 
help protect our national security interests. I have a series 
of related questions.
    The first has to do with the role of Russia in Syria. There 
have been now several requests for information, so that we can 
do the job that we are supposed to do in providing oversight, 
requesting information about the meetings that the President 
has had with Vladimir Putin, particularly the summit that took 
place in Helsinki, that took place without anyone there. We 
have an obligation on behalf of the American people to know 
what was said. And as the chairman of the Middle East 
Subcommittee, it is of great interest to me and our 
subcommittee to understand what may or may not have been said 
on the topic of Syria.
    And my first question is, why has the Administration 
refrained from providing information of those Trump-Putin 
meetings to Congress?
    Secretary Pompeo. Well, let me begin by saying, it is not 
remotely unusual for senior leaders to have private 
conversations with their counterparts around the world. So, to 
suggest otherwise I find surprising. I might use a different 
descriptor, but I will use ``surprising'' in a second.
    As for what is going to be shared and released on 
conversations between the President and his foreign partners, 
the White House ultimately makes those decisions. And so, the 
inquiries would properly be lodged there.
    Mr. Deutch. And we have. And you are the Secretary of State 
before us. And as a former Member of this body, you also 
understand the constitutional obligation we have to provide 
oversight of the Administration.
    The Fiscal Year foreign affairs budget eliminates all 
economic assistance to the Syrian people and all security 
assistance, known as foreign military financing. That is to 
Iraq. Since the re-emergence of ISIS, Iraq used FMF to fund 
urgent counterterrorism requirements, and the State Department 
claimed those funds were critical to Iraq's efforts to defeat 
ISIS and improve the security environment in Iraq.
    Given these statements by the State Department, why the 
decision to cut FMF when it seems, based on those statements, 
that it would undermine efforts in Iraq, our efforts in Iraq, 
and create the conditions that would allow ISIS to revive?
    Secretary Pompeo. Look, I am proud of what this 
Administration has done in Iraq. I think we have been prepared 
to do things, take risks, act against Iran, the true malign 
actor inside of Iraq today, in ways the previous Administration 
just had no interest in whatsoever. So, I am very proud of the 
work we have done there.
    I have traveled now to Baghdad as the Secretary. I had been 
there before in my previous role. I have senior officials on 
the ground. I would love it if I could get my Ambassadors from 
the region confirmed. If you could talk to your colleagues on 
the Senate side, that would be most helpful to us in executing 
American policy.
    But I am convinced that we will have the resources we need 
to deliver all of the assistance to build out the Iraqi 
security forces in a way to give the Iraqi leaders--the speaker 
of the house will be here this week; I will get a chance to 
meet with him again--to deliver all the support needed, so that 
Iraq can become independent, free, and sovereign. I think that 
is your goal. It is certainly mine.
    Mr. Deutch. It is. We will have an opportunity to talk more 
about those budget decisions.
    Moving to a different part of the world, but continuing a 
discussion that we started on human rights, Mr. Secretary, 
there are more than a million Uyghurs who have been detained 
without due process in Xijiang, kept in internment camps, 
reeducation camps, under the guise of antiterrorism efforts. 
There are reports that China is now considering implementing 
this same approach in Tibet. Can you tell us what the State 
Department has done to raise these human rights abuses with the 
Chinese government and to elevate these issues which are so 
critical to us as we try to advance our values around the 
world?
    Chairman Engel. Thank you.
    Mr. Kinzinger?
    Mr. Deutch. Could the Secretary answer?
    Chairman Engel. Yes, certainly.
    Mr. Deutch. Thank you, Mr. Chairman.
    Secretary Pompeo. Let me just try to do it briefly. The 
human rights violations that you identified, we have spoken 
about strongly. If you watch our Human Rights Report, what I 
said and what the head of DRL said that morning when the Human 
Rights Report came out, we have elevated this. We have raised 
this. We have done that publicly. You have seen that.
    I met with a group of Uyghurs just yesterday in my office. 
Ambassador Brownback has been relentless, if nothing else, with 
respect to this issue. And you should know that we have done 
that not only publicly in the way that you can see, but each 
time we interact with our Chinese counterparts this issue is 
raised as well.
    Mr. Deutch. Thank you, Mr. Chairman.
    Chairman Engel. Mr. Kinzinger?
    Mr. Kinzinger. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for being here.
    We talk a lot about politics ending at the water's edge. I 
believe it does and should. Even under the prior 
Administration, I very much religiously held that. But what 
kind of an effect does it do for our politics when we do not 
have Ambassadors in place? Just briefly, I mean, how does that 
hurt you?
    Secretary Pompeo. So, I do not want to criticize any of the 
charges who are running, doing their level best to manage the 
chief-of-mission responsibilities in theater in the countries 
that they are in. But other countries know that it is different 
when you have a Senate-approved nominee who has gone through it 
and is now the dedicated Ambassador. It reduces your capacity 
to speak on behalf of America.
    Mr. Kinzinger. Thank you.
    And would you trust Iran with a bone saw? In other words, 
earlier the question was, would you trust Saudi Arabia with a 
bone saw; therefore, we cannot give them nuclear weapons or 
engage with them at all. I think an important point to note is 
I would not trust Iran with a bone saw. They have quite a few 
bodies, frankly, on their conscience from Syria, from a lot of 
places.
    And so, I just want to commend you and the Administration 
for your decision to get out of the Iran nuclear deal. I think 
that was a smart move. I think it sent a very strong message 
that it is not just about the development of nuclear weapons 
over a period of 10 years; it is also about behavior in the 
region and development of ballistic missiles. So, I just want 
to commend you on that.
    Closer to home--actually, I want to hit Yemen real quick. 
The very first thing this committee did--and I hate to obsess 
about it and channelize on it, but it has really stuck with 
me--the very first thing this committee did, Mr. Secretary, in 
the new Congress was, basically, to take away the authority of 
the Administration to be involved in any way with Yemen. And I 
think most of the members of this committee have never had a 
classified briefing on what is occurring in Yemen. They have 
never had a briefing on the SCIF. And I think there is a 
perception out there that it is the United States and Saudi 
Arabia that are creating a humanitarian crisis in Yemen.
    Mr. Secretary, can you briefly talk about maybe the 
Houthis' role in a humanitarian crisis in Yemen, many actions 
of Iran, and maybe some of the role that we do not hear about 
in terms of who is really driving that crisis?
    Secretary Pompeo. I am not sure I can do it briefly, but 
let me try. It is complicated space.
    Mr. Kinzinger. Take whatever time you need.
    Secretary Pompeo. Yes. So, let me start with something that 
often gets neglected in this debate, too. There is still active 
al-Qaeda, al-Qaeda on the Arabian Peninsula there. The United 
States is engaged in trying to crush it there, in Yemen as 
well. Remember that Yemen sits on the southern border of Saudi 
Arabia and has launched hundreds of missiles into the Kingdom 
of Saudi Arabia out of Yemen. They were launched by the Houthis 
and they were Iranian missiles in nearly every case, missiles 
that had been brought across the borders, in through ports, in 
pieces and parts. And now, the Iranians are attempting to 
establish the capacity to actually build out missiles inside of 
Yemen.
    The United States has a responsibility to do all that it 
can to prevent the humanitarian crisis, which is ravaging that 
nation. We have done that. I think the number is now close to a 
billion dollars that the United States has provided. The Saudis 
and Emirates each have provided billions of dollars as well. 
The one country that has not provided a single dollar to aid 
the humanitarian crisis is the Islamic Republic of Iran. 
Instead, they have chosen to use their money to get Houthis and 
Yemenis killed and spur the continuation of the civil war, and 
frankly, put Americans at risk.
    We all fly. Members of Congress fly into King Khalid 
International Airport in Riyadh. They are launching missiles 
that can range to Riyadh. This is a very real risk, and the 
Saudis have a right to defend their nation, just in the same we 
would if we had missiles at airports in Denver or LA or New 
York. And at its root, Iran is driving this behavior.
    Mr. Kinzinger. You obviously represent one instrument of 
power, which is diplomacy. Actually, you have a few others in 
your toolkit. But when you think about diplomacy and you think 
about the message that this Congress sent on the Yemen issue, 
and considering there are hundreds of defense cooperation 
agreements that, frankly, for the first time ever now could be 
brought up and brought under privileged resolution, including 
our agreement with Israel, what does that do to your ability, 
for instance, to try to solve diplomatically the crisis in the 
Middle East when Congress is sending kind of contrary messages?
    Secretary Pompeo. Yes, look, the good news is I am hopeful 
that Martin Griffiths, the U.N. Special Envoy in Yemen, in the 
next handful of days will make progress. He may not. We have a 
great agreement in Stockholm. We have not been able to enforce 
it. The Houthis have refused to withdraw from the Port of 
Hodeidah. I hope that they will in the coming days. Frankly, if 
I were betting, I would probably bet against, but one lives in 
hope.
    Congress obviously has its own independent right to act as 
it so chooses. It has its constitutional authorities. I can say 
this: I hope everyone who cares about the people of Yemen 
understand that the legislation that passed did not remotely 
benefit them. Indeed, it will work to their detriment.
    Mr. Kinzinger. Thank you for your service, sir. I 
appreciate it.
    And I will yield back to the chairman.
    Chairman Engel. Thank you.
    Mr. Keating?
    Mr. Keating. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here.
    I do want to go back to the instance where a bone saw was 
used and just had a couple of questions. I know that you would 
agree that every single person who is responsible for the 
murder of Jamal Khashoggi needs to be held accountable. You 
said that in January in Saudi Arabia. And thank you for saying 
that.
    I do want to ask, however, along those lines: 17 people 
were sanctioned out on that. So, there seems to be--is there a 
discrepancy between the people that were arrested and the ones 
that were sanctioned under that? Is there a difference in that 
number?
    Secretary Pompeo. Congressman, can I get back to you? There 
is a large overlap. I could not tell you that they are 
completely coincident, that those were----
    Mr. Keating. OK, but did you or anyone from our country 
have discussions with the Saudis about who was going to be 
sanctioned or how that list was determined?
    Secretary Pompeo. No, we did not. Indeed, the sanctions 
decisions were based on information that we had in our 
possession. It was information that the American Department of 
Treasury was able to validate.
    Mr. Keating. Well, I know that, it is my understanding that 
the intel chairs had a briefing.
    Now you mentioned that you had some information when you 
met with the Crown Prince. Did you hear the tapes? And what was 
the nature of that? Did you hear the tapes at that point that 
Turkey sent us or tapes that we had ourselves, either one?
    Secretary Pompeo. I have not to date heard the tapes.
    Mr. Keating. Did you think it would have been a good idea, 
before you sat down with the Crown Prince, to get as much 
intelligence as you can to deal with that?
    Secretary Pompeo. I did.
    Mr. Keating. But you did not do that? Or you did not have 
access to the tapes at that point? Is that it?
    Secretary Pompeo. I do not recall the precise timing. I do 
not recall the precise timing of when the information 
transited. I am very confident I have a deep understanding of 
all the intelligence the U.S. Government has in its possession, 
and I would have had every bit of it that was in its possession 
at that time.
    Mr. Keating. Oh, OK, because you had just said a few 
minutes ago that you got some more later on.
    Secretary Pompeo. Yes. No, we continue to learn things. I 
am confident we will learn something this afternoon and 
tomorrow as well.
    Mr. Keating. Well, thank you for that.
    Another question. I believe that the Senate has requested 
that their Members have a classified briefing on the 
intelligence surrounding the Khashoggi murder. Is that correct?
    Secretary Pompeo. It would not have come to the State 
Department. I assume it would have gone to the intelligence----
    Mr. Keating. Well, I thought you might know since you knew 
everything about what was going on. So, let me ask you this: 
would you join us if we requested, as a committee, that 
classified briefing, so we could be informed? Indeed, we are 
the committee that will be involved in arms sales to Saudi 
Arabia. It would be important for us to have that access. Can 
you see, in your current capacity or your former capacity as 
CIA Director, why this committee should not have that 
information?
    Secretary Pompeo. I will say this: I know this often gets 
caught up on your side, in the legislative branch. There are 
jurisdictional debates about which Member sees certain pieces 
of classified information. I am not about to wade into that 
briar patch.
    Mr. Keating. I see. Well, I think we should, and I think, 
Mr. Chairman, we should make that request formal in terms of 
our committee, if not for the whole membership of the House.
    Yesterday, I had a hearing here in our Subcommittee on 
Europe and Eurasia. And as part of that hearing, we dealt with 
the historic 70-year alliance that we had with Europe, one of 
the most successful alliances in modern history, if not the 
history of Europe itself.
    And one of the things that came across to me in a recent 
trip there about three and a half weeks ago was the concern 
with the officials there. Let me give you one example that 
really was difficult for me to address when I was asked. The EU 
officials that we met with, they used words like ``painful'' 
and ``hurtful,'' and they meant it sincerely, when they were 
talking about how they felt from actions of the United States.
    And one thing they said, in particular, was that the 
emergency security powers that we used to assess the tariffs 
that were there struck them, because they asked the question, 
``You are using emergency security powers to create tariffs on 
our closest allies.'' And they were asking us--and maybe you 
could help us with this--when did they become a security risk 
to the United States?
    Secretary Pompeo. I will tell you, I do not know with whom 
you were speaking. If you want to share with me who you spoke 
to and exactly what they said, I would be happy to----
    Mr. Keating. It was repeated through all. I will tell you, 
you could go right to the leadership of the EU----
    Secretary Pompeo. Because my conversations have been very 
different.
    Mr. Keating. I was in the room. So, trust me, it was a 
high-ranking EU leader.
    Secretary Pompeo. I believe you.
    Mr. Keating. As a matter of fact, I would like to know the 
answer to that. It does not matter who asks. I am asking.
    Secretary Pompeo. Yes, so I am happy, if it is from you, I 
am happy to answer.
    Mr. Keating. Well, it is for me, but, you know what, it is 
important that our allies know this, too.
    Secretary Pompeo. This Administration has worked with 
European countries in ways the previous Administrations simply 
refused. I get it. Sometimes when we ask them to do more, when 
we ask hard things, when we ask the American taxpayers for 
money in America for our Department of Defense, I know many 
Americans would prefer we spend those resources someplace else.
    When I encounter European officials and they say, ``Boy, it 
is hard for us to get to our own promise for 2 percent. It is 
just really hard to convince our people,'' I----
    Mr. Keating. Well, can I, because my time is out, I just 
want to say this: that the President said--again, the NATO 
officials we met with, they are great allies, they remain great 
allies, but there were some comments that were made, Article 5 
concerns. And that came up at yesterday's hearing, too. And the 
President said ``Montenegro is a tiny country with very strong 
people. . . . They are very aggressive people. They may get 
aggressive, and congratulations, you are in World War III.'' Is 
that the way we should approach our Article 5 agreement with 
our NATO countries?
    Secretary Pompeo. Next week, I will host here in 
Washington, DC, the 70th anniversary of the NATO alliance. I 
will be with Secretary General Stoltenberg. America will once 
again, this Administration will once again reaffirm our 
commitment to our NATO allies, and we will again ask them, 
because it is important, to do their share to make sure that 
NATO is around for the next 70 years.
    Mr. Keating. Thank you, and I look forward to the 
information, the personnel information, that the chair 
requested. And hopefully, you can provide that to the committee 
in 7 days.
    I yield back.
    Chairman Engel. Thank you.
    And I want to remind everyone that Mr. Stoltenberg is going 
to speak before a Joint Session of Congress, I believe it is 
next week.
    Mr. Zeldin?
    Mr. Zeldin. Thank you, Mr. Chair.
    Mr. Secretary, thank you for being here. I have great 
respect for your service to our country, first in your class at 
West Point, a great colleague of ours, did an exceptional job 
as our CIA Director, and I am really a big admirer of your work 
so far as Secretary of State.
    I do have some concerns I want to bring up. I have been 
working with Chairman Engel and other colleagues with regards 
to the Bytyqi brothers, who were constituents of the First 
congressional District of New York. They were murdered 20 years 
ago in Serbia. And the chairman and I recently met in Munich 
with President Vucic and asked him about this. There really 
needs to be justice delivered. And anything that you and your 
team can do, and any opportunities that present itself, we 
would really like to see justice in that case.
    I am concerned about Turkey's acquisition of the S-400's 
and what that means, especially with our upcoming transfer, 
potential transfer, of F-35s.
    I am greatly concerned with the human rights violations 
that we see around the world, but I also want to touch on a 
number of other topics that I think are just going really well.
    And one of the words that has been mentioned at this 
hearing was the term ``disengagement''. Over the course of 
these last few years, ISIS has been nearly wiped off the map in 
Iraq and Syria. The caliphate is gone.
    Thank you for the recognition of Golan Heights and Israel's 
sovereignty over the Golan; the embassy move in Israel to 
Jerusalem, and encouraging other countries to follow suit, as 
we are seeing now; helping the Taylor Force Act get passed and 
signed into law, so that the Palestinian Authority does not 
financially reward, as they continue to do, terrorists who 
murder innocent Americans and Israelis. We should be cutting 
off our U.S. tax dollars when that happens. It is a better 
policy for us to go forward with the Taylor Force Act and the 
principles behind it.
    The use of the MOA when President Trump first came into 
office. I was in Afghanistan shortly thereafter, and a direct, 
positive response with morale and effects, but our troops know 
that their President and this Administration has their backs.
    Standing with Guaido and recognizing him as the 
constitutional Interim President of Venezuela; and all your 
efforts to combat antisemitism, recently appointing a Special 
Envoy, I thank you for doing that. That was a position that was 
long vacant, and it is great to see it filled with Elan Carr.
    In Syria, it should be noted that we followed through with 
air strikes after Assad's use of chemical weapons against his 
own people. In the past, there have been threats that use of 
chemical weapons would result in consequences from the U.S., 
and the United States now follows through. And I believe that 
the Assad regime and their allies know what the consequence is 
of use of chemical weapons.
    In Russia, the imposition of sanctions in response to the 
use of biological or chemical weapons in the U.K.
    As far as engagement with regards to North Korea, when 
President Trump first came into office, putting the military 
option back on the table, but understanding that the military 
option should always be the last possible option of anyone on 
the entire globe between any nations.
    The USMCA, which Congress should pass. I met with President 
Trump yesterday on it. I believe this should be a bipartisan 
effort, Republicans and Democrats in the House and the Senate, 
to get speedy passage.
    In China, confronting the currency manipulation and the IP 
infringement and trade deficits; the imposition of tariffs if 
China does not positively change their behavior.
    I know Congressman Cicilline is following me, something 
that he is deeply passionate about. I am working with him with 
concern about the LGBT community in other parts of the world 
where they have been criminalized. They are being murdered 
simply because they are LGBT. Over the course of recent weeks, 
I have seen that the State Department has taken an important 
leadership role in confronting that.
    But, in our brief time, I just hope you could talk about 
your upcoming efforts as it relates to religious freedom. I 
know it is a personal topic. There is a lot of religious 
minorities who are being persecuted across the world. And with 
our remaining time, I am hoping you could touch on that. Thank 
you.
    Secretary Pompeo. On religious freedom, protecting 
religious minorities, not simply--we have talked about the 
Uyghurs, Muslim minorities in China, but Christian minorities 
in Iraq that we spoke about earlier this morning of every 
religion. We will host the second ever ministerial for 
religious freedom at the State Department this summer. We had--
I have forgotten the number--dozens and dozens of foreign 
ministers to talk about religious freedom, not all of whom were 
in the place we want them to be, but each of those who was 
present that day was making real progress in places one might 
not expect. It is important. It is America's first freedom. All 
our other freedoms build from that, and I hope that we can 
expand that around the world.
    Mr. Zeldin. Our Secretary contacted me at 1:58 a.m. on your 
time to talk business on Monday morning. The last person that 
Secretary Pompeo and his team--the last thing they should be 
accused of is disengagement. I appreciate your continued 
service.
    [Laughter.]
    And I yield back.
    Secretary Pompeo. It was a different time in my time zone.
    Chairman Engel. Thank you, Mr. Zeldin.
    We are going to just go out of order quickly because one of 
our members has to be on the floor. I am going to call on Ms. 
Wild.
    Ms. Wild. Thank you, Mr. Chairman.
    Secretary Pompeo, I am deeply concerned about the 
unprecedented lack of transparency and potential conflicts of 
interest in this Administration. Members of Congress and the 
American people do not always know what foreign policy 
decisions are being made or whose interest they are intended to 
serve.
    Earlier this month, on March 18th, you held a telephone 
press briefing focused on, quote, ``international religious 
freedom,'' end quote, that was only open to faith-based media 
outlets. This briefing was closed to the State Department's 
press corps and closed to major independent news organizations. 
The State Department has said it will not release a transcript 
of the briefing to the public, which is highly unusual for this 
type of high-level briefing.
    To me, this instance raises concerns about First Amendment 
violations. The Administration should not be granting some 
media outlets access to briefings while selectively excluding 
others based on the Administration's preferences. As a public 
official, what you say, especially during a press briefing, is 
inherently of interest to the public and the media. And I am 
concerned, also, that the Department during your tenure has 
greatly reduced the frequency with which it holds regular open 
press briefings on foreign policy matters of the day.
    So, my question to you is, why did you want to limit the 
type of participants who could join this press briefing call on 
March 18th, and why are you not releasing the transcript of 
that briefing and the call participants who participated?
    Secretary Pompeo. Congresswoman, I talk to the press all 
the time. I talk to different groups of the press all the time. 
Indeed, sometimes I talk to single members of the press. I do 
that with great frequency. And when I do, I do not release 
transcripts of those conversations. Those are interviews that I 
grant individual reporters. They write certain pieces and 
certain other pieces they do not. This was no different from 
that in any material respect. I am confident I will do so 
again.
    Ms. Wild. Excuse me. Secretary, my question was very 
specific about the March 18th press briefing----
    Secretary Pompeo. Yes.
    Ms. Wild [continuing]. Which was specifically focused on 
international religious freedom and was made open only to 
faith-based media outlets. So, my question to you is not about 
individual press discussions that you may have on a daily 
basis, but about a very specific briefing.
    Secretary Pompeo. Yes, I was answering that question.
    Ms. Wild. And so, will you release a transcript of that 
briefing?
    Secretary Pompeo. No.
    Ms. Wild. Will you identify who the participants were in 
that briefing?
    Secretary Pompeo. No.
    Ms. Wild. And your rationale for that is simply that it is 
something that you like to do?
    Secretary Pompeo. It is something that every Secretary of 
State that I am aware of has done consistently on a consistent 
basis.
    Ms. Wild. So, that will continue to be your practice?
    Secretary Pompeo. It will continue. It was Secretary 
Powell's practice. It was Secretary Rice's practice. It was 
Secretary Kerry's practice. And Secretary Pompeo intends to 
continue that practice, yes, ma'am.
    Ms. Wild. OK. So, that was a decision made on your own, not 
with influence by anybody else from the Administration?
    Secretary Pompeo. Yes. Yes, it was my decision.
    Ms. Wild. All right. Secretary, my colleague, Mr. Yoho, 
commended you on your travels through the United States sharing 
the message of the State Department. I noticed that you visited 
Iowa, an interesting choice, along with Texas and Kansas this 
month on 1-to-2-day visits. Can you reassure this committee 
that you are not using your travels and engagement as Secretary 
of State to advance your own personal brand or political 
ambitions?
    Secretary Pompeo. Of course I can.
    Ms. Wild. And the purpose, again, for these travels 
throughout the United States?
    Secretary Pompeo. Look, it is true, I did not go to 
Martha's Vineyard.
    Ms. Wild. That is not my question.
    Secretary Pompeo. No, but may I----
    Ms. Wild. Secretary----
    Secretary Pompeo. It's that Secretaries travel----
    Ms. Wild. May I----
    Secretary Pompeo [continuing]. Domestically all the time, 
ma'am. And the fact that I went to places outside the Acela 
corridor somehow seems to have alarmed people here in the 
Beltway. I went there, I will tell you what----
    Ms. Wild. I am not alarmed by travel throughout the United 
States.
    Secretary Pompeo. I went there--let me tell you what, let 
me tell you what my mission set was, what I said when I was on 
the trip. There were multiple missions. When I went to Houston, 
I was talking about American energy and its importance to 
diplomacy. When I went to Kansas, it was a long-planned Global 
Entrepreneur Summit that we will repeat in the Netherlands in 
June. When I went to Iowa, I was talking to Iowa farmers about 
President Trump's trade policy and how it fits into American 
diplomacy.
    And then, second, I had a very selfish mission. I want the 
most talented people from all across the country to apply and 
become Foreign Service Officers working as America's finest 
diplomats.
    Those were my mission sets. I spoke publicly at each of 
these events, in some cases numerous times. I think it would 
track with what I just told you.
    Chairman Engel. Thank you.
    Mr. Sensenbrenner?
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman.
    Mr. Secretary, welcome back to this sea of tranquility 
compared to what your current job is now.
    I have a couple of questions. We have seen a rising level 
of antisemitism across our country and even in our own 
government institutions. Several high-profile individuals have 
spouted off anti-Israel rhetoric that has had to be countered 
with condemnation resolutions by the House. The Administration 
is currently attempting to craft a peace agreement between 
Israel and the Palestinians. The two questions, Mr. Secretary, 
are: will these statements damage our standing with Israel and 
make is a weaker ally? And second, do these types of 
antisemitic acts and rhetoric damage the United States' 
credibility in the Middle East nations that will be involved in 
the final agreement?
    Secretary Pompeo. I think the answer to both questions is 
yes, and antisemitic language is abhorrent regardless of the 
U.S. diplomatic outcome. But, yes, it makes more difficult, 
undoubtedly.
    Mr. Sensenbrenner. So, what we say here, particularly when 
it is way off base, does make the job of our diplomats more 
difficult when they are attempting to reach a peace agreement 
in a part of the world where real peace has not come for 
centuries?
    Secretary Pompeo. Language used by Members of Congress 
matters. These countries all around the world are listening to 
you all. They are watching. They are watching to see if this is 
a whole-of-government United States process, and they are 
watching voices, even if sometimes those voices are outliers. 
They do not always know what to make of it.
    Mr. Sensenbrenner. My second issue is, as you know, the 
opioid and fentanyl epidemic has been plaguing our Nation for 
almost a decade now. Congress has taken aggressive steps to 
better fund treatment programs and curb the implementation of 
these deadly substances. Recently, my good friend, Mr. 
Connolly, and I introduced the Blocking Deadly Fentanyl Imports 
Act. This would add illicit fentanyl to the list of substances 
under Section 481 of the Foreign Assistance Act, which makes 
any exporting nation ineligible for U.S. taxpayers' subsidized 
foreign aid or Export-Import Bank loans if it fails to 
cooperate with American narcotics control efforts.
    Now, Mr. Secretary, do you believe that this section of the 
Foreign Assistance Act is an effective tool of combating 
illegal drug imports into the United States? And do you believe 
that Mr. Connolly's legislation and mine, bipartisan, would be 
an effective additional tool in combating illicit fentanyl in 
our country?
    Secretary Pompeo. With respect to your first question, is 
that section important and effective, the answer is yes. With 
respect to the particular language you are proposing, my gut 
tells me it is right. I would love the chance to actually 
review it and make sure that I understand it in its full 
context.
    Mr. Sensenbrenner. OK. We will talk to you later about 
that.
    And I yield back.
    Chairman Engel. Thank you.
    Mr. Cicilline?
    Mr. Cicilline. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here.
    You and other Administration officials have repeatedly 
claimed that military action is an option in Venezuela or all 
options are on the table. As a former Member of Congress, I 
assume you are familiar with the War Powers Act?
    Secretary Pompeo. I am.
    Mr. Cicilline. And as your Special Representative for 
Venezuela, Elliott Abrams, confirmed for me before this 
committee there is no current statutory authorization for a 
military intervention in Venezuela. So, is the Administration 
currently planning any military action against Venezuela?
    Secretary Pompeo. I am certainly not going to speak to that 
today. I will leave the Department of Defense to speak about 
their planning. I can say this: any action that we take with 
respect to Venezuela, whether it is military action or action 
otherwise, will be in full compliance with U.S. law.
    Mr. Cicilline. And so, I take that that is an agreement 
that you will honor the Constitution and, as a member of this 
Administration, seek congressional authorization before any 
military engagement in Venezuela?
    Secretary Pompeo. We will fully comply with the 
Constitution.
    Mr. Cicilline. I will take that as a yes.
    In August, the Administration announced it would cutoff 
funding to the U.N. Relief and Works Agency for Palestine, 
UNRWA, claiming that the U.N. body provides a lifeline and 
truly vital assistance, but needs reform. Your spokeswoman 
pledged, then, that the United States will intensify dialogue 
with the United Nations, host governments, and international 
stakeholders about new models and new approaches, which may 
include direct bilateral assistance from the U.S. and other 
partners that can provide today's Palestinian children with a 
more durable and dependable path toward a brighter future.
    Can you please tell me about this intensified dialogue?
    Secretary Pompeo. Sure.
    Mr. Cicilline. What concrete steps has the United States 
taken and what specific reforms are you working on? And how 
many suggested reforms has the Administration submitted to the 
U.N. or to UNRWA as of today?
    Secretary Pompeo. Yes, I could not tell you numbers. I can 
tell you that we have absolutely lived up to the commitment 
that you just described there. Indeed, I spoke about it with 
the Egyptian Foreign Minister just yesterday. I spoke to the 
Jordan----
    Mr. Cicilline. No, my question, Mr. Secretary, is----
    Secretary Pompeo. Yes, well, I understand----
    Mr. Cicilline [continuing]. What steps have you taken, 
concrete steps has the United States taken with respect to 
these reforms?
    Secretary Pompeo. This is how you do reforms, right? This 
is how you work on them. You go build out coalitions that are 
designed to resolve the very problems that we identified with 
UNRWA. And so, we are working--may I answer?
    Mr. Cicilline. Yes, of course. I am anxious for you. I am 
waiting.
    Secretary Pompeo. Yes, well----
    Mr. Cicilline. Are there concrete actions that the U.S. has 
taken or reforms that you have proposed?
    Secretary Pompeo. Yes, we are trying----
    Mr. Cicilline. What are those?
    Secretary Pompeo. We are trying to make sure that the 
resources that the American taxpayers provide go to the right 
places and achieve American outcomes. We have made a number of 
suggestions. We do not have any--we have not had any takers 
yet.
    Mr. Cicilline. OK.
    Secretary Pompeo. But I am confident that we will continue 
to work on this----
    Mr. Cicilline. Will you be willing to provide a summary of 
those reforms and suggestions that you have made to the 
committee?
    Secretary Pompeo. I would have to take a look at it. If 
they were private conversations, I likely will not be able to 
do that.
    Mr. Cicilline. OK. Next, Mr. Secretary, around the globe, 
as you know, LGBTI people have been targeted, rounded up, 
tortured, and even killed just for being who they are. We have 
seen this in Chechnya, Egypt, Azerbaijan, Indonesia, 
Bangladesh, and other places. The United States recently 
refused to join a statement delivered to the United Nations 
Human Rights Council calling for the perpetrators of violence 
in Chechnya to be held accountable. Why did the U.S. not join 
over 30 other nations in signing the recent joint statement to 
the U.N. Human Rights Council calling for a thorough 
investigation into the anti-LGBTI crimes being perpetuated in 
Chechnya?
    Secretary Pompeo. I will have to get back to you on the 
reasons for that particular decision. But I will defend 
staunchly the work that we have done. I hope you have seen 
that. I hope when you talk to our diplomats as you travel 
around the world you see our commitment.
    Mr. Cicilline. Mr. Secretary, it makes the refusal to sign 
this very important document particularly concerning. So, I 
would like an answer back on that. Thank you.
    Mr. Secretary, you had made reference to NATO just a moment 
ago. Are you familiar with the report ``NATO at 70,'' prepare 
by Ambassador Burns and Ambassador Lute?
    Secretary Pompeo. I am not. I know who----
    Mr. Cicilline. Well, I urge you, encourage you to read this 
report. They identify the single greatest challenge to NATO 
today is the President of the United States. And they detail 
conversations with NATO officials who explained, for the very 
first time in the history of NATO, there is an American 
President who does not seem to support or understand its 
significance, who has said that he has considered withdrawing 
from NATO, that NATO is obsolete. And so, it is a really 
alarming report. And I wonder what steps you, as the Secretary 
of State, are taking to reassure our allies that the U.S. 
remains committed to NATO and that we understand its critical 
role in our shared values of advancing democracy, human rights, 
and the very important alliance that has provided such peace 
and stability around the world.
    Secretary Pompeo. No, I have not read the report. I have 
known Doug Lute since I was a young lieutenant when he was the 
S3 of my squadron in Bindlach, West Germany--he was a major--a 
long time ago. I have great respect for him. He is just simply 
wrong. If the conclusion he drew is that President Trump is the 
biggest impediment to NATO, he is just simply wrong. We have 
worked diligently to make NATO stronger. I am convinced that we 
have done so.
    Mr. Cicilline. Thank you.
    And my final question, Mr. Secretary, is, just to go back 
to the question about your March 18th briefing, it has been the 
practice of every other Secretary of State, not on individual 
meetings, but when there are press briefings or press 
roundtables, that transcripts are prepared and the State 
Department press corps are present. You have changed that 
practice. So, when you say it has been the practice of every 
Secretary, with respect to one-on-ones you may be right. With 
respect to press briefings, the State Department press corps is 
there, and there is a transcript provided.
    I am asking you today whether you will reconsider your 
position and go back to that past practice and bring greater 
transparency, because we are all concerned about a significant 
reduction in press access and a significant reduction in access 
to transcripts of these proceedings, which goes against a very 
basic principle of freedom of the press and is very dangerous 
for our democracy.
    Secretary Pompeo. I am happy to take a long at it again.
    Mr. Cicilline. Thank you.
    Chairman Engel. All right. Thank you.
    Mr. Mast?
    Mr. Cicilline. I am sorry, Mr. Chairman, I have a unanimous 
consent request.
    Mr. Mast. Thank you for recognizing me, Mr. Chairman.
    Chairman Engel. Yes, Mr. Mast, if you will just hold for a 
second, please?
    Go ahead.
    Mr. Cicilline. Mr. Chairman, I request unanimous consent to 
put into the record remarks delivered by Senator Menendez on 
the floor today directly refuting both the President and the 
Secretary's claim that Senate appointees are being held up by 
the U.S. Senate. And I would ask that be placed in the record.
    Chairman Engel. Without objection, so moved.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. Mr. Mast?
    Mr. Mast. Thank you again for recognizing me, Mr. Chairman.
    Mr. Secretary, I want to say thank you to you and to the 
State Department for the truths that you have gone out there 
and made it a point to address that have been ignored year over 
year. And there is an extensive list that many of my colleagues 
have brought up.
    You have addressed the truth that Jerusalem is the capital 
of Israel. If folks have a problem with that, they should 
probably take it up with God.
    You have addressed the truth that, if your enemy wants to 
shoot you, you do not go take them out to buy a gun. And we do 
not allow nations like Iran, who threaten to kill us, who would 
be more than happy to slit the throat of every person in this 
room, we do not give them access to weapons of mass 
destruction. That is a truth that your State Department went 
out there and addressed.
    You addressed the truth that we should seek peace with 
nations like North Korea. We should attempt to reach 
denuclearization agreements, but that we should also walk away 
from bad deals that do not benefit the citizens of the United 
States of America.
    You addressed the truth that China has been ripping us off 
year after year, penalizing our goods, stealing our ideas, 
stealing our intellectual property, and said that that is not 
going to happen any further.
    You addressed the truth that many in Europe want us to go 
out there and defend them from Russia while at the same time 
they are doing business with Russia and not picking up their 
piece of the check in terms of defense.
    You have addressed the truth that we have exhausted 
tremendous treasure and lost far too many sons and daughters of 
the United States of America in our 18 years of war.
    You have addressed the truth about the people crossing our 
border illegally on our southern border. Whether it be for the 
purpose of bringing drugs, for trafficking humans, or for 
seeking a better life, they are crossing our border illegally, 
and you have addressed those truths.
    And my question for you today, as we are supposed to be 
having a hearing on strategy of the State Department going 
forward, is, what truths do you want to see us go out there and 
confront moving forward for the United States and for the State 
Department for the betterment of our citizens?
    Secretary Pompeo. One of the things I have focused on is 
ensuring that our team had what it needed to go out and make 
sure that America was leading, and it was leading in a way that 
was not, frankly, from behind, but was, rather, building 
coalitions. And we have been pretty successful at that. I think 
the world needs to see that.
    When we supported Venezuelan democracy, we built out an 
enormous coalition. I sent folks to every corner of the earth 
explaining what was taking place in Venezuela and why the 
recognition of Juan Guaido made sense and was the right thing 
to do.
    When we wanted to take on North Korea, we got the largest 
coalitions and the biggest sanctions, voted on by every member 
of the United Nations Security Council uniformly to achieve the 
objective there, the denuclearization, the risk that we take of 
proliferation takedown from the world.
    The counter ISIS campaign that has now taken down the last 
piece of real estate in Syria and in Iraq from ISIS. We know 
work continues, but we built out an enormous coalition to do 
that. That was the great work, largely, of the team that I have 
the privilege to lead.
    And I want everyone in the world to know that we are 
prepared to do that. Where problems and challenges confront us, 
the United States Department of State will lead and build out 
organizations, so that we can confront these challenges that 
present risks to America and to the world.
    Mr. Mast. I thank you for that leadership, Mr. Secretary.
    And I yield my time back.
    Chairman Engel. Thank you, Mr. Mast.
    Mr. Bera?
    Mr. Bera. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for appearing here.
    I was pleased to hear in your opening comments that you 
recognize the important role that Congress has and the 
important role that Congress has with regards to oversight and 
investigations.
    As the new chair of the Subcommittee on Oversight and 
Investigations, I want to thank the chairman of the full 
committee for giving us broad jurisdiction really to take a 
look and a deep dive into the State of America's diplomacy and 
development. It is a big task, and I am sure I share your 
commitment that we want to have the best State Department; we 
want to have the best development agencies; we want to have the 
best people out there serving the interests of the United 
States of America in our soft power.
    I cannot do this by myself, and I am going to need your 
help and your commitment to allow your staff to work with us as 
we take this deep dive. Do I have your commitment that you will 
make your staff available to us?
    Secretary Pompeo. Yes, sir, you do.
    Mr. Bera. Thank you.
    Also, in your opening I was glad to hear you talk about the 
important work that the men and women around our country who 
serve and represent us abroad every day, the work that they do 
is incredibly valuable. They are patriotic Americans often 
working in difficult environments and difficult situations.
    I do have one concern. A March 2019 GAO report found that 
13 percent of the overseas Foreign Service's positions were 
vacant as of March 2018. Now that is not your doing because 
these are similar vacancy levels as such positions in 2008 and 
2012.
    But, also, in interviews GAO found that the staff at 
overseas posts told us that the vacancies really are increasing 
their workloads, contributing to low morale, and high stress 
levels. And this seems to be borne out in other reporting.
    In the latest annual rankings of Best Places to Work in the 
Federal Government, produced by the Partnership for Public 
Services and the Boston Consulting Group, the State Department 
dropped from eighth place to 14th place amongst the 17 large 
Federal agencies.
    Meanwhile, I think as you have already mentioned, the 
registration for Foreign Service Officer tests saw a 22 percent 
decline from October 2017 and October 2018, according to an NBC 
News report.
    I am glad you are out there recruiting. I am glad you are 
out there trying to get the next generation of America's 
diplomats to think about service to country through the Foreign 
Service. But we realize that morale is taking a beating.
    What I would like to do is, again, obviously, it is 
important for us to fill those positions. In our oversight 
role, I would be curious, who is the person responsible for 
implementing your plan to help fill these positions, help with 
recruitment, and so forth? You cannot do it by yourself. So, 
who should we be working with?
    Secretary Pompeo. So, the person you would work with would 
be my Under Secretary for Management, but I do not have one.
    Mr. Bera. OK.
    Secretary Pompeo. So, it would be great if I did. We have 
now gone 2 years without a confirmed Under Secretary for 
Management, essentially, the chief operating officer. We did 
get, although it took too long, we did get Carol Perez, who is 
a talented career Foreign Service Officer, whose title is 
Director General for Human Resources.
    Mr. Bera. Do you have a nominee that----
    Secretary Pompeo. Well, we do, yes, absolutely.
    Mr. Bera. OK.
    Secretary Pompeo. That is the second one we have put 
forward.
    Mr. Bera. Well, let's try to get that position filled.
    Secretary Pompeo. Yes. Highly qualified, I believe every 
Member of the U.S. Senate so believes. And yet, we have not 
been able to get him across the floor. But we have someone you 
can work with.
    Mr. Bera. Great.
    Secretary Pompeo. Her name is Carol Perez. She is a career 
Foreign Service Officer. She runs what is called the Director 
General of Human Resources.
    Mr. Bera. Right.
    Secretary Pompeo. She is a great lady and is driving----
    Mr. Bera. And I got your commitment that we could work with 
that to get these positions filled.
    And last, I have a concern. And I want to thank you for 
being here. Over the years in both Democratic and Republican 
Administrations we had had an interagency process that has 
served us well, where the various agencies are working together 
to make sure the President has the best advice before the 
President makes a decision. I have got a couple of yes-no 
questions, because I do have some concerns about the 
decisionmaking process currently.
    On the decision to withdraw troops from Syria, General 
Votel, the Central Command commander, said, quote, ``I was not 
consulted before this decision was made.''
    Our Special Envoy to defeat ISIS, Brett McGurk, said he 
spoke with you after the President has made up his mind, and he 
wrote in a public op-ed, ``During the December call, Pompeo 
informed us that there had been a sudden change in plans. 
President Trump, after a phone conversation with his Turkish 
counterpart, planned to declare victory over the Islamic State 
and direct our forces to withdraw from Syria.''
    A yes-no question. Did the President consult you before 
deciding to withdraw troops?
    Secretary Pompeo. Yes.
    Mr. Bera. Five days ago, the President tweeted that, ``It 
was announced today by the U.S. Treasury that additional large-
scale sanctions would be added to those already-existing 
sanctions on North Korea. I have today ordered the withdrawal 
of those additional sanctions.''
    Bloomberg News reported yesterday that the President was 
referring to sanctions that the Treasury Department had 
announced the day prior against two Chinese shipping companies 
that were helping North Korea avoid U.S. sanctions. A yes-no 
question. Did the President discuss removing those sanctions 
with you prior to the tweet?
    Secretary Pompeo. They were Treasury sanctions, as I 
recall.
    Mr. Bera. But, again, in an interagency manner, was the 
State Department consulted for that?
    Secretary Pompeo. We have had lots of discussions. The 
reason I cannot answer that yes or no is because we have had 
discussions on sanctions issues with respect to Iran, with 
respect to Venezuela, with respect to China.
    Mr. Bera. Right. I know----
    Secretary Pompeo. We have these discussions consistently 
and over time, and then, there does come a point where 
Presidents make decisions. And at that point in time, we inform 
our team, and we go execute and implement with all of the 
energy and vigor that we have.
    I must say, too, if I may, you made a statement about some 
of the things that Mr. McGurk said. I cannot answer them 
because what Mr. McGurk said in that was classified, and it 
should not have been uttered publicly. And I regret that very 
much.
    Mr. Bera. OK.
    Chairman Engel. Mr. Bera, I am going to let you get one 
more quick question. We have to move on.
    Mr. Bera. Just very quickly, a final--I think it is very 
concerning that there may be a lack of an interagency dialogue 
where our leaders at State, Defense, et cetera, are being 
consulted prior to these decisions being made. Does that sound 
like sound foreign policy? And you do not have to answer that 
question because we are out of time.
    Chairman Engel. All right. Thank you.
    Ms. Wagner?
    Mrs. Wagner. Thank you, Mr. Chairman.
    Mr. Secretary, over here.
    Secretary Pompeo. I have got you.
    Mrs. Wagner. Thank you for your time today and for your 
service.
    I have to say that it is appalling the number of nominees 
that this Administration still has in State and other agencies 
that have not been confirmed by the Senate. We hope that they 
can move much more swiftly and waive the 30-hour rule.
    Sir, the Elie Wiesel Genocide and Atrocities Prevention 
Act, a bill that I introduced, that was signed into law by 
President Trump in January, affirms the critical importance of 
interagency coordination to prevent genocide and mass 
atrocities. Secretary Pompeo, how is State supporting atrocity 
prevention and response activities?
    Secretary Pompeo. There are multiple mechanisms inside the 
Department of State. We have teams that have responsibility for 
the implementation. The State Department's element of 
implementing that particular statute and law, we have a broader 
group of folks who work on human rights issues. And then, yet, 
we have another group that have regional responsibility. Each 
of them has tasks to ensure that we do all that we can to 
reduce the risk that there would be genocide, atrocities, 
crimes against humanity all of these horrific activities that 
we find too many governments taking.
    Mrs. Wagner. And are they reaching posts actually?
    Secretary Pompeo. Yes.
    Mrs. Wagner. Are they trained up----
    Secretary Pompeo. Yes, I think so. I am sure we could do 
better. Just I am sure we could get this information out more 
broadly and execute this, and I am happy to look at how 
effective we are at getting this out into the missions.
    Mrs. Wagner. I have some ideas about that, as a former U.S. 
Ambassador and on this piece of legislation. So, I would love 
to share them with your team, Mr. Secretary.
    China has been working to isolate Taiwan through diplomatic 
channels. We have heard a little bit about this earlier with 
Mr. Chabot. In the past year, China convinced three countries 
to cut diplomatic ties with Taiwan and, instead, recognize 
Beijing. How is State working to prevent China from further 
eroding Taiwan's international support?
    Secretary Pompeo. We are using every tool that we have in 
the toolkit. You have seen that we have used our economic 
toolkit to try to convince countries that this was not the 
right thing to do. We have used our, I will call it our 
diplomacy/political toolkit to convince them that this was 
something that mattered to America. As a former Ambassador, we 
have issued demarches to countries.
    Mrs. Wagner. Right.
    Secretary Pompeo. We have a commitment with respect to 
Taiwan and how we will deal with that, a longstanding set of 
policies that goes back now decades.
    Mrs. Wagner. Right.
    Secretary Pompeo. The United States is firmly committed to 
enforcing that set of understandings, and inside of that, doing 
our level best to make sure that we honor the commitments to 
Taiwan as well.
    Mrs. Wagner. I was glad to see us in the Taiwan Strait 
recently.
    Secretary Pompeo. Yesterday.
    Mrs. Wagner. Yesterday, yes.
    Speaking of recently, on Sunday, Mr. Secretary, Thailand 
held its first elections since the military junta seized power 
in 2014. Although voting was expected to be free and fair, 
worrisome reports have emerged that cast doubt on the 
election's legitimacy. How will State work with civil society 
and government officials in Thailand to facilitate a return to 
genuine democracy? Thailand has the chair of the ASEAN Caucus, 
of which I am a co-chair and care deeply about this region, 
especially vis-a-vis a counterbalance to China.
    Secretary Pompeo. So, I have been to Bangkok. We have 
reengaged in ways that the American leadership has not engaged 
since 2014. I have also seen the reports from the election 
yesterday, albeit only what I would call first reports. So, I 
want to see more about what actually transpired. Our team on 
the ground there worked diligently to ensure that we would be 
able to make determinations about the election and, in fact, to 
ensure that we provided whatever support we could to make sure 
that there was a free and fair election.
    Thailand is an important place, a place where I believe 
America can find an important counterbalance to the risk that 
China presents to the United States.
    Mrs. Wagner. I could not agree more. I care deeply about 
the entire ASEAN region from a security standpoint, from a 
trade standpoint, from a humanitarian standpoint, and, most of 
all, as a counterbalance to China.
    Given the Burmese government has cutoff Rakhine State to 
humanitarian and AID workers and international observers, how 
is State working with local actors to direct aid to those who 
need it most, Mr. Secretary?
    Secretary Pompeo. So, State Department proper is doing it. 
USAID is on the ground as well.
    Mrs. Wagner. Right.
    Secretary Pompeo. There are other commercial partners, non-
governmental partners as well. It is tough. It is heavy 
slogging. Our capacity to deliver that is, unfortunately, 
limited, but we are working. We are working to reopen some of 
the ways we were able to do that previously as well, but we 
have not had much success.
    Mrs. Wagner. These atrocities, whether it is in Burma with 
Rohingya, the Kachin, Shan, and the Rakhine, are just horrific.
    We thank you for all of your service and your support in 
this area.
    I yield back.
    Chairman Engel. Thank you.
    Mr. Castro?
    Mr. Castro. Thank you, Chairman.
    Thank you, Secretary, for your testimony today.
    I have a question about what seems in some parts of the 
world to be the growing cooperation between Russia and China to 
pursue mutual interests. In Venezuela, for example, it seems as 
though both have been involved to some extent. And I came 
across, not too long ago, a quote by an African leader that 
said that, ``China is the money and Russia is the muscle.'' Do 
you find that to be true, and what do you see in terms of their 
cooperation?
    Secretary Pompeo. That is a very important question. We 
have seen Russia and China begin to work together in ways that 
they had not done 15-20 years ago. That is a trend that has 
probably gone on for a handful of years now. They have just 
found themselves in places where they have overlapping 
interests. They have strategic challenges between the two 
countries, long-term strategic challenges in places that I do 
not believe will ever truly overlap. But certainly, tactically 
and operationally, we see that today.
    Venezuela is a very, very good example, but we have seen it 
in other places as well. We see it at the United Nations, 
where, as members of the U.N. Security Council, they work 
together as well, almost always against freedom, democracy, 
liberty, the things that the United States and democracies hold 
dear.
    Mr. Castro. Also, let me ask you about recent news that 
Italy is joining the effort on China's One Belt One Road 
Initiative. And obviously, a major European country, friendly 
to the West, historically, what that means for the United 
States and for China and its effort at expanding its might, 
economic might and military might, around the world.
    Secretary Pompeo. It is disappointing anytime any country 
begins to engage in behavior and commercial interactions with 
China that are not straight-up. China has every right to move 
around the world and compete transparently, private companies 
engaging. They will win a handful of times. I am convinced that 
we will do great if there are rule-of-law transactions that are 
open and transparent.
    That is not the case with many of the initiatives under One 
Belt One Road. And so, your point, whether it is Italy or other 
countries that have gone down this path, we are saddened 
because we think those countries, we think the people of those 
countries will ultimately lose. We have seen that in some 
smaller, less wealthy countries. That is, the debt trap 
diplomacy, this predatory lending that takes place comes home 
to roost more quickly than it does in nations that can survive 
that, that are wealthier.
    But when you engage in these non-economic transactions with 
essentially State-owned or State-directed enterprises, nothing 
good happens for your people. It may feel good in the moment. 
You think you got a cheap product or a low-cost bridge or road 
built. In the end, there will be a political cost attached to 
that which will greatly exceed the economic value of what you 
were provided.
    Mr. Castro. We certainly support your efforts to obviously 
allow China to compete, but not to cheat around the world.
    And let me ask you one last question with respect to North 
Korea. I want to get your perspective on whether you think, 
think or know whether North Korea's nuclear capacity and 
capabilities have increased or decreased since the first Trump 
summit.
    Secretary Pompeo. So, the fact that they have not conducted 
missile tests or nuclear testing is a good thing. It reduces 
their capability. Their systems become less reliant. But we 
have not yet seen them make the big move that we were hoping, 
frankly, that they would do in Hanoi. We have not yet seen them 
take the big step that I spoke about the very first time I met 
Chairman Kim, goodness, almost exactly a year ago, where we 
talked about the fact that there would be a brighter future for 
the North Korean people, but it had to be this complete 
denuclearization. We have not seen them take a step in that 
direction yet.
    I am still hopeful that we can engage and negotiate with 
them and get to the right outcome. Chairman Kim, even in this 
last visit between the Presidents, the conversations between my 
team and his team, they still tell us they are committed to it. 
It is time that we begin to see real actions in that regard.
    Mr. Castro. And where does it all go from here with North 
Korea?
    Secretary Pompeo. My team is engaging at every level, not 
only with the North Koreans. Steve Biegun, the Special 
Representative, has been in China these past couple of days. I 
think he may be on his way back here now. He has been working 
with our allies in the region, South Korea and Japan, to ensure 
that we keep the pressure campaign, that we continue to enforce 
the U.N. Security Council resolutions, and then, continue our 
diplomatic efforts to achieve this outcome.
    Mr. Castro. Thank you, Secretary.
    I yield back.
    Chairman Engel. Thank you.
    Mr. Curtis?
    Mr. Curtis. Thank you, Mr. Chairman.
    And, Mr. Secretary, greetings from Utah. It is a delight to 
be here with you today.
    I am not sure all of us can appreciate that one of your 
skill sets is sitting there hour after hour and answering our 
questions, but thank you.
    We have paid homage, rightly so, to C-SPAN for their 40-
year anniversary over the last day or two, but, interestingly, 
I think we have missed one of the most significant 40-year 
anniversaries. Forty years ago yesterday, President Carter, 
Sadat, and Begin signed the historic peace treaty. I happened 
to be 19 years old and living in Jerusalem at the signing of 
that treaty, and I grabbed a newspaper and, for years and 
years, I kept it in a file in my office.
    And when I came to Congress, I took that newspaper and I 
had it framed. And this now hangs in my office as a reminder of 
the many lessons that came out of that, among other things, 
that we can do what seems near impossible; that we can bring 
these groups together that seem so far apart; that we can be 
bipartisan in the way that we approach these. And I worry that 
our relationship with Israel is becoming a partisan issue, and 
I hope that it is not. I think our success depends on this 
being a bipartisan issue.
    Could you touch just a minute on what the Administration is 
doing that might take us back to a point like this in our 
relationships with Israel and their Arab neighbors?
    Secretary Pompeo. Sure. So, your point is well-taken. I am 
also reminded, if I have the history right of that day, that if 
you looked at the outsiders the day before, at least a week 
before, months before, it seemed almost imaginable----
    Mr. Curtis. It would not happen, yes.
    Secretary Pompeo [continuing]. That that would have 
happened. So, I am mindful.
    We were talking about North Korea a little bit ago. As 
difficult as these problems look, if you continue to work at 
them, if you continue to engage in good-faith negotiations, and 
try and grind away and resolve these resolutions, that 
sometimes things happen quickly and big. And I am hopeful that 
the Trump Administration will be able to achieve some of those.
    With respect to the efforts in the Middle East, there has 
been a lot of groundwork laid, working with each of the 
countries in the region, the Jordanians, the Egyptians, the 
Saudis, the Emirates. I am going to miss a few along the way. 
We have worked with the Iraqis. I was just in Lebanon. I was in 
Israel. In my previous role, I met a number of times with the 
Palestinian leadership.
    Working to try and understand the conflict as it sits 
today, not as we might have imagined it 5 years ago or 10 years 
ago or 30 years ago, and to try to identify those places where 
we can find congruence, overlap, places where we can 
acknowledge the history, but move past it. And we will lay out 
our vision for that in the not-too-distant future, and I hope 
that every one of those countries will take a good look at it. 
There will be something in there, I am sure, that they do not 
find too wimpy, but I hope they will at least take a serious 
look at it and take it as a good-faith effort to resolve this.
    Mr. Curtis. And to your point about the naysayers, I 
actually was in Galilee the night that it was signed, and Syria 
had said they would invade over the Golan Heights. And I 
remember, as a 19-year-old, looking up and seeing the Golan 
Heights, wondering if they were coming. But I think it is a 
great testament that we can do these hard things.
    Unfortunately, this week we have also seen rockets launched 
at Israel from Hamas, from Gaza. There is some belief that Iran 
had a hand in this. Can you address that and, also, does that 
show us one of the flaws in the Iran nuclear deal with the 
long-range ballistic missiles not being addressed? And is this 
an example of why that is a problem?
    Secretary Pompeo. With respect to the recent rocket 
attacks, when I came this morning, I think both sides had 
agreed that they had gotten to a pretty good place. Whether 
that will hold, I do not know. It was pretty fragile when I had 
the last conversation, but I am hopeful that it will.
    Second, I could not tell you if the Iranians were directly 
involved in this particular attack. I can tell you that they 
underwrite Hamas, the entity, the terrorist entity, that is 
responsible for those missile launches.
    And then, finally, your third question was about the JCPOA. 
Look, most of the behavior that has led to Iran being the 
world's largest State sponsor of terrorism increased during the 
JCPOA. It was because the JCPOA prevented the Administration 
from taking any action against Iran. They said that it did not, 
but, in fact, you just need to look at the activities that they 
engaged in. They permitted Iran to expand. They gave Iran 
resources. They opened up economic wealth for Hezbollah and for 
Shia militias all across Iraq.
    Those were the kind of things that our policies are trying 
to cabin, to reduce the capacity for the Islamic Republic of 
Iran to engage in terror behavior, whether that is in the Gaza 
Strip or the assassination campaigns that are taking place in 
Europe, or the missile launches that are coming out of Yemen.
    Mr. Curtis. Thank you, Mr. Secretary.
    I yield my time.
    Chairman Engel. Thank you.
    Ms. Titus?
    Ms. Titus. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for being here.
    It has been reported that Jared Kushner offered Prince 
Mohammad of Saudi Arabia, and I quote, ``advice about how to 
weather the storm'' in the aftermath of the murder of Jamal 
Khashoggi. Do you know if that is true or not?
    Secretary Pompeo. I do not.
    Ms. Titus. Well do not you think it would be important for 
the Secretary of State to know what the senior White House 
officials are telling world leaders, including the leader of 
Saudi Arabia?
    Secretary Pompeo. Yes, I believe I know everything that he 
told him, but you suggested some report that I have not seen. 
And so, I am happy to----
    Ms. Titus. Well, do you know if he gave him PR advice?
    Secretary Pompeo. To the best of knowledge, he did not.
    Ms. Titus. Do you think it would be----
    Secretary Pompeo. I talk with Mr. Kushner all the time. I 
think we are fully in sync with respect to how we are handling 
each of the issues around the world. We know what his files 
are. We know the ones that I am engaged in. We know where we 
have overlap, and we are working toward the same end State.
    Ms. Titus. Well, I want to ask another question about some 
of our relations, whether it is through you or through Mr. 
Kushner. And that is the setting up of an Air Marshals-type 
program with Saudi Arabia. I know this was begun under a 
previous Administration, but I wonder if you have any 
reservations about continuing the program now, since it comes 
in the wake of the murder of The Washington Post journalist, in 
the wake of arrests and detentions and abuses of women's rights 
activists, in the wake of air strikes that have hit schools and 
hospitals, even a bus carrying 40 children. Thousands of people 
in Yemen have died as a result of it. Both Houses have voted in 
opposition to it. Do you think that we might want to reassess a 
program that we have set up with Saudi Arabia to create this 
special Air Marshals-type program?
    Secretary Pompeo. I am not familiar with the program. I am 
happy to take a look at it.
    Ms. Titus. You are not familiar with the program? Because 
it is supposed to go into place fairly soon, and we have sent 
TSA officials----
    Secretary Pompeo. I am happy to look----
    Ms. Titus [continuing]. Over to set it up.
    Secretary Pompeo. Yes, I vaguely recall. I do not have 
responsibility for TSA.
    Ms. Titus. Yes, I know you do not, but it is through the 
State Department.
    Secretary Pompeo. That might be why I am not as familiar 
with it as I might otherwise be. But I am happy to take a look 
at it.
    Ms. Titus. Well, great. Maybe you will take a look at the 
other countries in the Middle East where we already have these 
programs. Are you familiar with those at all?
    Secretary Pompeo. I know of the existence of the program, 
yes.
    Ms. Titus. Well, can I ask you what you might think, if we 
set up a program with Saudi Arabia, what we can do to put some 
safeguards in place to be sure that it will not be used against 
our interests or fall into the wrong hands that, then, might be 
used against us?
    Secretary Pompeo. Yes, I think, most appropriately, DHS 
would be the best place to lodge those questions. But I am 
happy to take a look at them and see if they have important 
State Department equities or foreign policy elements to them.
    Ms. Titus. Well, thank you. I would appreciate it if you 
would get back to us on that. And I am a little disappointed 
that you are unaware of a major program that is taking place 
with collaboration of the State Department.
    Let me ask you about another program that maybe you do have 
more information about. It has been reported that the U.S. 
Citizenship and Immigration Services--I know that is not 
directly under you--but they are closing 23 international field 
offices. These are offices that work on refugee applications, 
family reunification, visas, and foreign adoptions. And they 
plan to transfer those over to the workload of the State 
Department. That would be what you are in charge of.
    Secretary Pompeo. It would, yes, ma'am.
    Ms. Titus. I wonder, did you sign off on that decision?
    Secretary Pompeo. Yes, ma'am, I am very familiar with this. 
I am very familiar with how our Consular Affairs team interacts 
with the USCIS, and I am very comfortable with the path that we 
are taking.
    Ms. Titus. Well, there is nothing that is reflected in your 
budget to show how you are going to take up this work. Can you 
explain how you are going to be able to cover these new 
assignments?
    Secretary Pompeo. I am very comfortable that we can deliver 
on that mission set, and my team has told me the same.
    Ms. Titus. And are you going to continue to make this a 
priority or will this be put on the back burner? And what is 
going to be the impact on refugee applications as a result of 
your just kind of absorbing this process?
    Secretary Pompeo. When you say ``this,'' I am not certain 
what you are----
    Ms. Titus. This was family reunification, visas, the 
refugee applications, those activities that used to be done by 
the U.S. Citizenship and Immigration Services that are being 
transferred to you, that you are so comfortable about taking 
up.
    Secretary Pompeo. I am very confident that we can deliver 
these services.
    Ms. Titus. Well, we will be watching that to be sure that 
that is the case. But it seems to me it would be a little more 
responsible if you had made some mention of it in your budget, 
that this will be a new task that you are undertaking, as 
opposed to DHS. You do not have any problem with that?
    Secretary Pompeo. Do you have a question, ma'am?
    Ms. Titus. My question was, why did not you put it in your 
budget?
    Secretary Pompeo. Ma'am, I would have to go take a look at 
that line item and see what we did and where it is that line 
item fits. But I have talked with the team on the budget. The 
Consular Affairs team was very involved in delivering the 
budget and they are comfortable that they can deliver on all of 
the missions that we have provided to them.
    Ms. Titus. Well, I am glad you are comfortable because I am 
not very comfortable. I am not very comfortable with the 
answers, that you do not seem to know what is going on. But I 
would be more comfortable if you would get back to us and tell 
us about this TSA Air Marshal program that you are setting up 
with Saudi Arabia.
    Secretary Pompeo. I will ensure that DHS gets back to you, 
ma'am.
    Ms. Titus. And I appreciate that. Thank you, sir.
    Chairman Engel. Thank you.
    Mr. Buck?
    Mr. Buck. Thank you, Mr. Chairman.
    Welcome back, Secretary Pompeo.
    Secretary Pompeo. Thank you.
    Mr. Buck. During your time at the CIA and at the State 
Department, did you receive training on how classified 
information should be handled?
    Secretary Pompeo. Yes, sir, I did.
    Mr. Buck. Does everyone handling classified information at 
the State Department receive a briefing or training course on 
how to handle classified information?
    Secretary Pompeo. I believe that is correct.
    Mr. Buck. Did this training cover the different 
designations indicating a document's level of classification?
    Secretary Pompeo. Anyone who receives a clearance and has 
access to classified information would receive training on the 
various levels and how those various levels are required to be 
handled.
    Mr. Buck. And does a classification marker of ``TS'' 
indicate that it is top secret information contained in that 
document?
    Secretary Pompeo. That is what those two letters would 
normally indicate, yes.
    Mr. Buck. And if it is an ``S,'' would it indicate that it 
is a secret classification?
    Secretary Pompeo. Also correct.
    Mr. Buck. And if it is a ``C,'' would it indicate that it 
is a classified document?
    Secretary Pompeo. ``C'' typically means confidential.
    Mr. Buck. OK.
    Secretary Pompeo. That is the level of classification, but 
I suppose it could--yes, I think----
    Mr. Buck. OK. So, confidential?
    Secretary Pompeo [continuing]. Typically, it means 
confidential, yes, sir.
    Mr. Buck. OK. And you were taught these designations at the 
training that you received as Secretary of State?
    Secretary Pompeo. You know, I know I went through that 
training as Director of CIA. I do not know that I went through 
the course again when I became Secretary of State. I may have.
    Mr. Buck. I do not want to suggest something about your 
age, but were you grandfathered into that as a result?
    Secretary Pompeo. I do not know. Here is what I am 
confident of: if I was required to go through the process, I 
did.
    Mr. Buck. OK. Have you ever gone home for the night and 
left classified documents on your kitchen table?
    Secretary Pompeo. Not to the best of my knowledge.
    Mr. Buck. OK. Have you ever left them in your car?
    Secretary Pompeo. Not to the best of my knowledge.
    Mr. Buck. Have you ever taken classified documents home 
with you and had them outside of your possession?
    Secretary Pompeo. I have, only because I have a location 
that I can store classified information in my home.
    Mr. Buck. OK. So, it has----
    Secretary Pompeo. So, they would have been stored in an 
appropriate location inside the secure facility that is inside 
of the house in which I live.
    Mr. Buck. And a security official has approved that as a 
secure location?
    Secretary Pompeo. That is correct, yes, sir.
    Mr. Buck. OK. Do you have a private server in your home?
    Secretary Pompeo. No, I do not.
    Mr. Buck. And if you had left classified information in 
your car or if you had left it in your home outside of the 
private area, would that be a violation of the training that 
you had received about how to handle classified information?
    Secretary Pompeo. Anytime that classified information is 
not stored in an appropriately approved facility or is outside 
of the control of to whom that information has been provided, 
whether that is written or even if one speaks about it, lets it 
out orally, yes, that is inconsistent with the requirements.
    Mr. Buck. OK. Could you be prosecuted for receiving 
information outside of a secure or sending information outside 
of a secure location or email serving--a non-classified email 
server?
    Secretary Pompeo. Yes.
    Mr. Buck. OK. Mr. Secretary, you are also a lawyer, is that 
correct?
    Secretary Pompeo. I am not certified to practice anywhere 
today, but, yes, at one point I went to law school and I used 
to have a bar registration.
    Mr. Buck. And as a lawyer, you have heard of the term 
``circumstantial evidence''?
    Secretary Pompeo. I have.
    Mr. Buck. And would it be considered circumstantial 
evidence of guilt for someone to take evidence of a crime and 
destroy that evidence?
    Secretary Pompeo. It might well be.
    Mr. Buck. OK. I have no further questions, and I yield 
back.
    Chairman Engel. Thank you.
    Mr. Espaillat?
    Mr. Espaillat. Thank you, Mr. Chairman.
    Secretary, I believe the last time I spoke, I was the 
Mariano Rivera of this. Now I am sort of like a middle 
reliever, or still find myself asking questions that may have 
been addressed already.
    But I want to start by expressing my serious concerns with 
plans to close USCIS. The international field offices was 
previously mentioned. This may seem a little bit out of scope 
with this hearing, but I guarantee that it is not.
    Two weeks ago, the USCIS Director Cissna put forward a plan 
to close its 12 dozen overseas offices and said that many other 
responsibilities would be shifted onto the State's Consular's 
Office. It is my understanding that the very reason that these 
offices exist is to take some of the workload off the Consular 
officials.
    Let me make myself clear. I oppose this plan. I know that a 
number of my colleagues also oppose it. I will be leading a 
letter in opposition to it.
    I just want to find out how are you going to address the 
overload of work for these Consular Offices. Are you going to 
increase staff? There is currently a backlog to begin with. And 
now, you are shifting these services to another unit that may, 
in fact, be overburdened to begin with. Do you have a plan to 
increase staffing and do you project--what kind of workload do 
you project these Consular Offices are going to have?
    Secretary Pompeo. I do not have that in front of me, but I 
know our team is very well apprised of this transition that is 
taking place, and our Consular team is confident that they can 
achieve their mission set.
    Mr. Espaillat. One of the issues that often comes forward 
is the lengthy times that folks have to wait for these 
services. With regards to family reunification, some families, 
some mothers have to wait as long as 7 years. By the time they 
are done, those kids that they want to reunite with are now 
adults. And this brings about a great degree of issues to the 
families. So, I urge you to please come back to us and give us 
what your plan is for this change.
    Secretary Pompeo. I will make sure that we collectively do 
that, that we help you. This is a longstanding issue, as I 
understand the history of it--it is not the last couple of 
years; it predates that--and one that we need to seriously make 
sure that we understand fully.
    Mr. Espaillat. I want to shift now to the Caribbean. I find 
that the Caribbean is often overlooked for its strategic 
importance to the U.S. The Caribbean is, in fact, our third 
border, and we ought to direct necessary focus to the region. 
We must work to curb the flow of illicit drugs, combat 
corruption, promote good governance, and buildupon trade 
partnerships for our relationship with these nations to 
prosper.
    One important aspect of our relationship with the Caribbean 
is the Caribbean Basin Security Initiative, to which the U.S. 
contributes roughly $58 million annually to combat drug trade, 
promote social justice, and increase public security. I believe 
that the CBSI is critical to the U.S. national interest and 
that we ought to continue to grow the program. I will be asking 
for a substantial increase to the CBSI.
    I just want to know from you, Mr. Secretary, how do you 
plan to ensure that we continue to work with the Caribbean, the 
CBSI program to fight drugs in that region?
    Secretary Pompeo. The CBSI is, in fact, an important 
program. I concede that. We have to make hard choices from time 
to time. You will have to make hard decisions about how many 
dollars to allocate to particular programs. You will have to 
make tradeoffs, ones that you are not always happy with as 
well.
    Mr. Espaillat. Will you be supportive of a substantial 
increase to that program?
    Secretary Pompeo. I will have to take a look at it in the 
context of all the other demands on resources for the State 
Department.
    Mr. Espaillat. Finally, Mr. Secretary, I consistently hear 
of our allies in the region that they feel, in that region and 
Latin America, that they feel ignored by the U.S. because we 
have stepped away from the region. We do not invest in our 
allies. And instead, they turn to China because we have left 
sort of like a vacuum.
    I know that you, the Administration has sort of like given 
a green light or winked at some of those nations saying, you 
can trade, but there are certain projects that we would oppose. 
For example, ports, access to data, other important--could you 
enumerate which are the kinds of projects that the 
Administration will oppose some of the countries in Latin 
America engaging with China?
    Secretary Pompeo. Sure. I am agree with the predicate of 
your question with respect to a couple of decades where America 
did not engage and invest in that region in the way that it 
should have. We are trying to correct that.
    And China has shown up and made proffers that we think are 
not in the best interest of those nations. I do not know that I 
can segregate them out as categories other than to say free, 
open, private companies competing transparently, Chinese 
companies, all good.
    Mr. Espaillat. But do you think----
    Secretary Pompeo. When it presents a security risk to the 
United States, no good.
    Mr. Espaillat. Do you think, for example--real quickly, Mr. 
Chairman--do you think that allowing Chinese to run ports, 
given the crisis of fentanyl in the region and in the 
hemisphere, is a good idea?
    Secretary Pompeo. I do not.
    Mr. Espaillat. Thank you, Mr. Secretary.
    Chairman Engel. Thank you.
    Mr. Wright?
    Mr. Wright. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for being here. I want to 
compliment you on what I believe is outstanding leadership of 
your Department.
    I recently introduced the Digital Global Access Policy Act, 
which would expand internet access to developing countries and 
promote U.S. export of technology. We have heard a lot about 
China.
    So, my question relates specifically to internet access. 
And, yes, we work with private companies and all of that, but 
is there anything the State Department is doing with regard to 
that? We talked about this yesterday in the African 
Subcommittee hearing. And could you tell us what the State 
Department is doing just in that regard?
    Secretary Pompeo. With respect to internet access?
    Mr. Wright. Yes.
    Secretary Pompeo. And globally? Speaking around the world?
    Mr. Wright. Right.
    Secretary Pompeo. Yes. So, there are places that is our 
responsibility. We try to make sure that there is freedom of 
speech, freedom of expression. The internet is, obviously, part 
of that, the capacity for citizens to communicate. We talk 
about that in every place we go where there is substantial risk 
of that. We also do our best, when malign actors are attempting 
to close down, create closed systems which prevent citizens 
from speaking, from getting this information that comes through 
the internet, the State Department has a role in trying to 
prevent that as well.
    Mr. Wright. Great.
    Now I want to shift to the border. You know what the 
national numbers are. I can tell you that in Texas 11,000 per 
week are coming across into Texas, 9,000 into three Texas 
counties, the three most southern counties. I toured that area 
last week by plane, by helicopter, by gunboat on the Rio 
Grande. I saw firsthand where the drug cartels are operating, 
where human traffickers are bringing people across on rafts.
    And I have a lot of questions for one of your counterparts. 
Nobody is going to mistake you for the Secretary of Homeland 
Security.
    But, as it relates to Mexico and our policy toward Mexico, 
what can we do to get Mexico to do more on their side of the 
border?
    Secretary Pompeo. I have personally been very involved in 
this. Frankly, I think I have been to Mexico more than any 
previous Secretary of State in our first--what now?--10 or 11 
months as Secretary of State, and met with my Mexican 
counterpart and spoken with him more. I have a great 
relationship with Foreign Minister.
    We have asked them to do a number of things. We have asked 
them to strengthen border security at their southern border, a 
very important component----
    Mr. Wright. Right.
    Secretary Pompeo [continuing]. Of what is taking place 
today at America's southern border.
    We have asked them not to create incentives for people to 
travel this dangerous path through Mexico. And then, we have 
come to an understanding with respect to how those coming to 
the United States to seek asylum can remain in Mexico during 
the time of the pendency of their claim.
    We are working with the Mexican government on each of 
these. We need them to do more. We need them to set up more 
checkpoints. We need them to do the things that prevent what 
you describe is happening in your State.
    Mr. Wright. With regard, though, to the drug cartels and 
the human trafficking--and the human trafficking aspect of this 
is something that we do not hear a lot about, but it is 
absolutely horrible, what is happening to young women that are 
being brought across the border. I do not see Mexico stepping 
up to the plate when it comes to that.
    Secretary Pompeo. I have talked with them a great deal. I 
know my counterparts at DHS, at DEA, all the elements that work 
on these transnational criminal organizations, the narcotics 
and human trafficking that flow through those networks, we are 
there to help. The United States taxpayers actually provide 
significant resources to assist them. We are prepared to 
continue to do that, but we certainly need the Mexican 
government to do more.
    Mr. Wright. Well, I can tell you that what U.S. Border 
Control, the Texas Department of Public Safety working in 
tandem with them, and the county sheriffs, they are doing 
outstanding work. I can also tell you they are overwhelmed.
    Secretary Pompeo. Yes.
    Mr. Wright. And they need help down there.
    My last question, it is a little more personal. I have some 
constituents in my district, a family who has a family member, 
Majd Kamalmaz, who is being held in Syria, has been for almost 
2 years. You have been very responsive. Your office has been 
very responsive to my office as well as to the family. I would 
just ask that you continue to work with the Czech Republic--
they are the ones that are actually helping us with this--and 
not let this man fall through the cracks.
    Secretary Pompeo. You have my commitment. Next week, we 
will hold an event at the State Department talking about this 
specific set of issues, about Americans that are detained 
wrongly abroad. I will have some of the families in.
    The Trump Administration has had some success we are very 
proud of in getting people back. I personally got to bring back 
three Americans who were being held in North Korea. We focus on 
this every single day.
    Mr. Wright. Great. Thank you. Thank you again. Thank you 
for your service.
    And I yield back, Mr. Chairman.
    Chairman Engel. Thank you.
    Mr. Phillips?
    Mr. Phillips. Thank you, Mr. Chairman.
    And, Mr. Secretary, as a Gold Star son, I am particularly 
grateful for your service to our country.
    My question is about Afghanistan. It goes without saying 
that a secure and peaceful Afghanistan is not in our country's 
best interest, but, of course, the world's. I know that will be 
difficult to achieve. But it also goes without saying that 
Members of Congress are concerned about the lack of 
communication between the State Department and Congress 
relative to both our strategy and an update relative to the 
negotiations with the Taliban.
    I think since November 2018, this committee staff has been 
asking for a briefing. I believe Chairman Engel and Ranking 
Member McCaul have sent a letter as recently as February asking 
for that briefing. And all have been ignored.
    So, my question is, can you confirm that within 2 weeks 
that Ambassador Khalilzad would appear for a briefing in front 
of this committee?
    Secretary Pompeo. No, I am not prepared to do that, to 
confirm that he will do that. I am happy to share with you our 
strategy, what it is the State Department has been tasked to 
do, and frankly, all the U.S. Government has been asked to do 
in Afghanistan by President Trump.
    Mr. Phillips. Before you continue----
    Secretary Pompeo. I am happy to share with you--you 
describe, by the way, our negotiations. Our negotiations are 
with every element inside of Afghanistan aimed at there to be 
Afghan-led conversations. That is the mission set that 
Ambassador Khalilzad is engaged in.
    Mr. Phillips. OK. Specifically----
    Secretary Pompeo. So, it is just important to characterize 
it correctly.
    Mr. Phillips. I respect that.
    But, going back to the Ambassador, what is a reasonable 
timeframe for him to appear in front of this----
    Secretary Pompeo. You know, when you are engaged in complex 
negotiations, one needs to be really careful to make sure that 
the contents of those negotiations remain in a very small 
circle. And I am happy to share with you. I know precisely what 
he is doing. I do not speak with him every day, but almost 
every day.
    Mr. Phillips. OK.
    Secretary Pompeo. It is either I are Under Secretary Hale 
that is working closely with Ambassador Khalilzad.
    I am happy to come share with you what we can, but you have 
to know the success of these negotiations depends on every one 
of those partners having confidence that what they say in those 
negotiations will not end up in The Washington Post.
    Mr. Phillips. I respect that. But, in his absence, and with 
about 3 minutes here, if you could brief us on both strategy--
--
    Secretary Pompeo. Yes.
    Mr. Phillips [continuing]. And any update that you can 
share, it is most important.
    Secretary Pompeo. You bet. Let me walk you through 
President Trump's strategy. He has talked very publicly about 
ending endless wars and about taking down America's substantial 
commitment in Afghanistan as quickly as we can, consistent with 
American national security interest. That is the aim that he 
has set out for us.
    So, I, working closely with, first, Secretary Mattis, now 
Acting Secretary Shanahan, have laid out our effort for 
reconciliation to see if we can take down the violence levels, 
and then, begin to have real negotiations about what a 
political resolution would look like in Afghanistan, always 
being mindful of the risk. There is continued ISIS-Khorasan 
inside of Afghanistan. Although America has done enormously 
good work under multiple Presidents to take down the threat 
from al-Qaeda, it remains there as well. So, all the while 
being mindful that we have important counterterrorism equities 
that we need to make sure that we address appropriately.
    And that is what Ambassador Khalilzad and the Department of 
Defense who is working alongside him on these reconciliation 
discussions are trying to convince all the parties, the 
government of national unity, including President Ghani, other 
Afghan actors, and the Taliban to come together to see if we 
cannot find a way to reduce the violence. When we do that, we 
will be able to reduce not only American forces there, but, 
importantly, the NATO forces that are located inside and 
working together alongside us inside of Afghanistan.
    Mr. Phillips. And in your estimation, can the Taliban and 
other extremist groups be trusted?
    Secretary Pompeo. I am a believer that whoever it is we are 
negotiating with, we have to have deliverable, measurable 
outcomes that can be verified. That goes for everyone I 
negotiate with. When I was in the private sector negotiating 
with customers and suppliers, I did not want to have to resort 
to enforcement mechanisms, but, rather, I wanted to be able to 
have the capacity to understand that we could measure, work 
together, and see deliverable outcomes on the ground. That is 
what we will expect from all of the parties in the region.
    Mr. Phillips. OK. All right. My understanding is the 
Ambassador is now going back to the region, will be there 
through April 10th.
    And I will just ask one more time. Your encouragement would 
be appreciated on behalf of this entire committee to extend 
that invitation for a briefing. I think it is important, and 
you having been a former Member of this body, I think you 
probably recognize that.
    Secretary Pompeo. I understand. And I remember when 
negotiations were taking place with the previous 
Administration, they were very careful about information ending 
up in places that harmed the very effort that we would agree we 
are engaged in trying to achieve.
    But I am happy to consider if there is a way we can execute 
what it is I know you want. You do have an obligation on 
oversight.
    Mr. Phillips. Yes, we do.
    Secretary Pompeo. I understand that deeply. And I will do 
my best to make sure that we keep you apprised, as we move 
along, of the success and absence thereof with respect to our 
reconciliation efforts.
    Mr. Phillips. OK. Thank you, Mr. Secretary.
    I yield back.
    Chairman Engel. Thank you.
    Mr. Fitzpatrick?
    Mr. Fitzpatrick. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for being here today. Thank you 
for your service.
    I wanted to touch on Ukraine. I am the co-chair of the 
Ukraine Caucus. Also, before being in Congress, as an FBI 
agent, my last international assignment was in Ukraine, and 
spent a lot of time and put a lot of effort into working with 
their anti-corruption efforts to start the NABU, the National 
Anti-Corruption Bureau, and also working a lot of 
counterintelligence.
    And my question, sir, is, the Administration, their broader 
policy with regards to Ukraine and the annexation of Crimea, 
the ongoing battle occurring in the Donbas region. Do you feel 
that we are supplying them with enough of what they need? What 
has the followup been with regards to the commitments we have 
made? Do you think it is sufficient? That pertains to eastern 
Ukraine. And with respect to Crimea, are we satisfied just 
accepting the status quo there with the annexation? I know we 
have made statements of not recognizing it. But recognizing 
that what Mr. Putin did was a violation of international law, 
what is next in that regard?
    Secretary Pompeo. Let me, if I may, take the second 
question first. We have issued statements. We have issued a 
Crimea declaration. We have worked with our partners along the 
Black Sea in the region. When the Russians captured soldiers in 
the Sea of Azov, sailors in the Sea of Azov, we have done a 
great deal of work to try to push back against that. We need to 
do more.
    Next week, I am hopeful when our NATO colleagues are in 
town for the 70th anniversary of NATO we will be able to 
announce another series of actions that we will jointly take 
together to push back against what Russia is doing there in 
Crimea and in the Sea of Azov and in the region.
    So, the answer is, I do not know that we have done all that 
we can yet. We are continuing to work to make sure that we are 
building out the right policies, so that we can ultimately 
restore what we have said with respect to Crimea. It belongs to 
Ukraine, and we want to see that fixed.
    Second, we are constantly evaluating whether we are not 
only providing enough resources to Ukraine in the southeast, in 
the Donbas, along the line of contact, not only whether it is 
enough, but whether if it is the right tools, not only the 
tools that you see, munitions and arms, but intelligence 
sharing, situational awareness, all the things that we have the 
capacity that you were engaged in, building out infrastructures 
and institutions inside of Ukraine. We are constantly reviewing 
whether or not we are doing enough there.
    We are hopeful that there will be a successful election and 
a successful government formation that follows that. And then, 
we hope, too, that we can continue the very efforts you 
described, the anti-corruption efforts. They are incredibly 
important. Those reforms will be central to restoring the full 
democracy that the Ukraine and people so richly deserve.
    Mr. Fitzpatrick. Thank you, sir. I can tell you, the 
younger generation, particularly in Ukraine, provides a very, 
very bright future for that country. They want, more than 
anything, closer ties with the West.
    I think the greatest thing we can do in that region is to 
keep our word to the Ukrainians, provide them with as much 
military assistance as they need, because that is a big, big 
constraint for them right now. And I just wanted to share that 
thought with you, sir. If you could keep that in mind when you 
are enacting policies pertaining to that region, that we 
maintain close contact and ongoing communications with 
Ukrainian leaders, particularly in the area of the military. 
The more military folks we can have joint exercises and 
training with--I know predominantly now it is the National 
Guard in California that does most of the work in Ukraine--but 
it would certainly help to have some of their military leaders 
in Ukraine train here at some of our academies. I think that 
would really go a long way.
    Thank you, sir.
    Secretary Pompeo. Thank you.
    Chairman Engel. Thank you.
    Mr. Levin?
    Mr. Levin. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary.
    I have several questions for you on the Administration's 
implementation of the Trafficking Victims Protection Act. Let 
me be clear. There is bipartisan support for ending human 
trafficking, but we must follow the letter of the law and 
ensure vulnerable populations are not punished for their 
government's conduct.
    In November, a Presidential memorandum restricted aid to 
countries that are not meeting or trying to meet standards set 
out by the Trafficking Victims Protection Act, meaning 
governments that are not doing things like seriously 
investigating and prosecuting trafficking cases. This 
memorandum said the United States ``will not provide 
nonhumanitarian, nontrade-related assistance'' to the 
governments until they make progress, but it is not totally 
clear, at least to me, what that means. Does assistance to 
governments include aid administered through NGO's directly to 
populations where the government does not provide any financial 
or in-kind support?
    Secretary Pompeo. We look at each of those on a case-by-
case basis to determine whether it is appropriate. I think you 
noted that in the memorandum there was an exclusion for 
humanitarian assistance. Many of the NGO's, indeed, are 
providing just exactly that.
    Look, there is a good reason for that memorandum. I think 
it makes enormous sense. I am fully supportive of the decision 
the President made there. It is the right thing to do to 
encourage these governments, ultimately, for it to be 
successful at taking down this threat from trafficking. It is 
going to be those governments that do that. So, our work, the 
State Department's work----
    Mr. Levin. Right.
    Secretary Pompeo [continuing]. Is to make sure that those 
governments do it and build that infrastructure.
    Mr. Levin. We are all for that, sir, but what I am trying 
to get at is the boundary, and, in particular, we do not want 
to restrict direct NGO aid to victims and vulnerable 
populations.
    Several Senators and Representatives sent you a letter on 
this very matter on December 17th, and the Department did not 
respond at all until March 5th. And even then, in the response, 
it did not answer the question at all. We are talking about 
things like nutrition assistance and health care without which 
people suffer. So, it has been more than 3 months since we 
first asked the Department this question. Why isn't there an 
answer?
    Secretary Pompeo. Well, you just said we sent you a letter. 
I think we have provided an answer. If you think the letter is 
insufficient, we are happy to review it and see if we cannot 
provide you additional context, additional color, some more 
detail. But it sounds like that----
    Mr. Levin. So, when can we expect a followup?
    Secretary Pompeo. If you would, please, send us a letter 
indicating what it is you think----
    Mr. Levin. So, another letter? We will just go back and 
forth----
    Secretary Pompeo. Well, I mean, we clearly think we 
responded. We believe we responded to you.
    Mr. Levin. OK.
    Secretary Pompeo. If there are particular places where you 
have concerns or you think we did not adequately respond, it 
does not have to be a letter, but if you would share with us 
what it is you are----
    Mr. Levin. Yes, time is short. Let me ask you another 
question about waivers to aid restrictions and how they are 
being applied. I understand that PEPFAR funds are being granted 
waivers, so that assistance can continue, even though PEPFAR 
programs require coordination and some integration with 
governments. Yet, I have also heard that education and other 
programs that are not working through governments are being 
impacted. I do not think there is any question that cutting off 
education assistance will hurt local populations. So, I would 
like to understand the decisionmaking process. What criteria is 
the Department using to determine which forms of assistance can 
continue and which cannot?
    Secretary Pompeo. Yes, I cannot give you a blanket answer. 
Do you have a particular country? I mean, I can talk to you 
about our understanding about how it is we deliver that. We are 
trying to get the very outcomes that are described in the 
program. So, we are trying to make sure that U.S. American 
taxpayer dollars are used for programs that actually have 
positive outcomes, that actually deliver the results. Where 
we----
    Mr. Levin. Well, for sure. I do not mean to interrupt you, 
but, you know----
    Secretary Pompeo. Well, you did.
    Mr. Levin. This is also--yes, I did--this is also a matter 
we asked in the December 17th letter. And the reason I am 
asking you these questions is because the assistance we are 
talking about is absolutely critical to some of the world's 
most vulnerable people, and because this is hardly the first 
time requests for key information from this committee have been 
ignored. I am extremely concerned that, despite the Secretary's 
own experience with congressional oversight, that this State 
Department has no qualms stonewalling Congress and keeping us 
from carrying out our constitutionally mandated oversight 
responsibilities.
    Let me just ask you one other quick question about Paul 
Whelan, a Michigander. He is an American citizen. He was 
arrested, as you know, on December 28th in Russia by the FSB, 
purportedly for espionage. He remains in prison, and a Russian 
court recently extended his pretrial detention until May. Given 
that we have little time left here, can you just give me some 
sense? We are very concerned about him, that he remains in 
prison. And we would like to know what you are doing to secure 
his rights under international law and, ultimately, his 
release.
    Secretary Pompeo. I cannot say much about what we have 
taken, only to reassure you that our Ambassador Huntsman there, 
our team on the ground, our team that travels and has 
communications with the Russian government raises this issue 
consistently and is doing all that it can to make sure that we 
treat this issue with the highest priority.
    Chairman Engel. Thank you.
    Mr. Levin. Thank you, and I would yield back, Mr. Chairman.
    Chairman Engel. Mr. Burchett?
    Mr. Burchett. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for being here, brother. You have 
incredible control. I have had to leave three times for 
restroom breaks; you stay right there. So, I am not sure what 
was in your criteria for hiring, but a large bladder must have 
been. So, I am appreciative of that, brother.
    I am going to ask you some questions about Israel and the 
Golan Heights. And I was wondering if you could elaborate some 
further on the strategic implications that will have for the 
region, and will it be helpful for the peace process?
    Secretary Pompeo. So, first of all, the decision the 
President made was one that we had been working on for some 
time. And ultimately, it was done because it was the right 
thing to do, in the sense that it recognized the reality on the 
ground. So, in the first instance, the decision was made 
because it was simply the right thing to do to recognize 
Israel's claim for the sovereignty of the Golan Heights.
    Second, we also believe--and we took a look at this--we 
believe this increases the likelihood that we get resolution of 
the conflict between Israel and the Palestinians. We think it 
speaks with the clarity that takes this away from any 
uncertainty about how we will proceed. And so, we think that, 
when one is involved in a complex negotiation, that more 
certainty is better. And so, we do think this will benefit both 
Israel and the Palestinians, so that we can get resolution.
    Secretary Pompeo. Cool. Thank you.
    And also, I noticed the United Nations, to me, it is pretty 
apparent they have a clear anti-Israel voting pattern, I would 
call it. Will the U.S. be leveraging American foreign aid to 
encourage countries to stand with us at the United Nations, as 
has been suggested. You know, we talk about the carrot or the 
stick. It seems like we are always giving the carrot, and maybe 
the stick might be in order at some point.
    Secretary Pompeo. So, we have certainly done that in terms 
of using all the tools at our disposal to make the case that we 
needed partners certainly on the U.N. Security Council, not 
only the permanent members, but those that are there for a 
shorter time, as well as folks in the broader U.N. General 
Assembly, that they would support us and vote with us.
    One of the reasons we have ended the U.N. Human Rights 
Council was because it had clearly lost its mission; it had 
lost its focus. It was behaving in ways that were deeply 
inconsistent with the very charter of that commission.
    Mr. Burchett. Clearly, I guess some of the countries that 
were on it were some of the worst actors that we have seen.
    What steps is the State Department currently taking to stop 
the flow of resources to the Hezbollah, and are we doing to 
stop Iranian resources from going to them?
    Secretary Pompeo. So, the major global campaign is the 
sanctions regime that we have put in place. We have taken them 
from 2.7 barrels of oil per day down to something around a 
million barrels of oil per day. We will make another set of 
decisions in May about that. That has denied them hundreds and 
hundreds of millions of dollars.
    We have active campaigns with countries around the world to 
deny Iran the capacity to move weapons and money around the 
world. So, Treasury is obviously in the lead, but the State 
Department is doing work for financial sanctions to deny those 
countries the capacity to trade with Iran.
    There are other tools the U.S. Government uses as well. It 
is a full-on campaign.
    With respect to Hezbollah, I was in Beirut just this past 
week to talk with them about how we can work to ensure that 
Lebanon gets the democracy they want without a third-party 
armed force inside of their country. It presents real risks to 
them. It is not to the people of Lebanon's best interest. And 
we are around the world working to make sure that wherever the 
Islamic Republic of Iran is fomenting terrorism or trying to 
undermine democracy or behaving in a malign way, we are pushing 
back.
    Mr. Burchett. All right. It seemed like I asked something 
about the Chinese and the Huawei--I am not sure; I think that 
is how you pronounce it--with the Chinese using them. And 
Secretary Albright was here, I believe last week or the week 
before, and she concurred; she agreed that they were a national 
security threat, especially if they were allowed to be a part 
of the 5G internet infrastructure.
    And with the recent news that Germany will most likely 
allow them to bid on the 5G networks, will that threaten our 
NATO intelligence-sharing and transatlantic security?
    Secretary Pompeo. I do not want to talk specifics about 
what the Germans are telling us, but I can say this: we have 
made clear publicly to every country the risks of putting 
technology from a Chinese State on the enterprise, or one that 
is closely affiliated with Chinese State-owned enterprises 
inside your network, and then, the subsequent risk about 
decisions that we will have to take, that America will have to 
take with respect to where we can put our information. Not only 
our government information, but the private information of our 
citizens is at risk as well.
    And we are out talking about this, making sure that 
everybody understands America's view of the risk. Then, 
countries will make their own sovereign choices, and we will be 
forced to then make ours as well.
    Mr. Burchett. Thank you, Mr. Secretary.
    Mr. Chairman, I yield no time back.
    Chairman Engel. Thank you, Mr. Burchett.
    Mr. Burchett. So, do with it what you will.
    Chairman Engel. I appreciate it. I appreciate it anyway. 
Thank you.
    Mr. Burchett. Yes, sir.
    Chairman Engel. Ms. Spanberger?
    Ms. Spanberger. Thank you, Secretary, for being here today.
    Secretary Pompeo, as a former intelligence professional, I 
am extremely troubled by the apparent lack of respect for the 
intelligence community's objective, nonpartisan intelligence 
assessments and their critical importance in the formulation of 
sound, well-reasoned, and balanced foreign policy which is your 
responsibility as Secretary of State. I would like to ask you a 
few questions regarding some of the most pressing foreign 
policy issues facing our Nation today. As time is short, please 
answer with a simple yes or no, sir.
    Do you believe the North Korean leader Kim Jong-un will 
covertly retain his nuclear weapons program despite 
negotiations?
    Secretary Pompeo. So, I cannot answer that yes or no, and I 
would challenge, by the way, the predicate of your question. I 
think it is important to let----
    Ms. Spanberger. So, sir, I am a former intelligence 
officer.
    Secretary Pompeo. Yes.
    Ms. Spanberger. So, I understand that nuance is deep, but 
these are actually----
    Secretary Pompeo. I worked there for a little while, too.
    Ms. Spanberger [continuing]. In-public, open source. They 
are answered in a very straightforward yes or no.
    So, shall I take your response as a no or a yes, sir?
    Secretary Pompeo. You may take my response however you 
please. But I am happy to answer your questions substantively--
--
    Ms. Spanberger. Do you believe Russia interfered with the 
2016 U.S. general election, sir?
    Secretary Pompeo. If you will permit me to answer your 
question, I would be happy to do so. But----
    Ms. Spanberger. Please go ahead, sir.
    Secretary Pompeo [continuing]. It is not fair to ask a 
question that cannot be answered yes or no and demand that I do 
so. As you said, you know nuance. There is nuance in 
responding----
    Ms. Spanberger. Well, sir, I would argue that point because 
in the 2019 Threat Assessment where we had leaders from the 
intelligence community here before us, they did answer with a, 
yes, that North Korean leader Kim Jong-un will covertly retain, 
their assessment is will covertly retain----
    Secretary Pompeo. Yes, but I am happy to give you my answer 
to that.
    Ms. Spanberger. Well, moving on to the next one----
    Secretary Pompeo. You never get a deal until you get a 
deal. And I understand how intelligence works. They look at 
history. They stare at the past.
    Ms. Spanberger. Sir, let's move on to the next one.
    Secretary Pompeo. But I am looking at forward and I am very 
hopeful that we----
    Ms. Spanberger. Do you believe Russia interfered with the 
2016 U.S. general election? This is looking toward the past.
    Secretary Pompeo. Yes.
    Ms. Spanberger. So, that one should be one that you can 
answer.
    Secretary Pompeo. Oh, yes, they did, and the 2012 and the 
2008 and the 2004----
    Ms. Spanberger. Thank you.
    Do you believe Iran is following the provisions of the 2015 
Joint Comprehensive Plan of Action to reduce or eliminate its 
enriched uranium stockpile and enrichment facilities?
    Secretary Pompeo. That is a very complicated answer, not 
all of which I can give in public.
    Ms. Spanberger. Also answered in the January 2019 threat 
testimony. The answer that the intelligence leaders of our 
intelligence community gave was yes.
    Do you believe that global climate change is real and 
represents a threat to U.S. national security?
    Secretary Pompeo. Yes, the climate is changing.
    Ms. Spanberger. Thank you.
    And is it a threat to our national security, sir?
    Secretary Pompeo. It is not at the top of my list.
    Ms. Spanberger. I am not asking about your list. I am 
asking about the intelligence community's list and their 
assessments, which should be driving the policy you are 
pushing.
    Secretary Pompeo. But policymakers have an obligation to 
form their own independent judgment on priorities, and that is 
what this Administration is doing. It is what I, frankly, wish 
the past Administration----
    Ms. Spanberger. And for the record, I would like to put 
into the record that the 2019 Annual Worldwide Threat 
Assessment did say that global climate change does present a 
threat to U.S. national security.
    So, thank you. I am glad that, ultimately, overall it seems 
like we are in agreement that, when we are looking at threat 
assessments, you are listening to the career intelligence 
professionals, and differing, and learning from, and listening 
to their years of training and expertise. However, 
unfortunately, sir, this has not matched some of the previous 
comments that you have made over the past years, certainly not 
those of the White House.
    So, my question is, why is there such a disconnect between 
your positions and that of the President, the assessment of the 
intelligence community and those of the President?
    Secretary Pompeo. Yes, there is not.
    Ms. Spanberger. Is there not, sir?
    Secretary Pompeo. No.
    Ms. Spanberger. So, OK. Well, thank you very much for your 
answers on this.
    I do want to close because, as a former intelligence 
officer and as someone who has been deeply disturbed by the 
lack of the credence given to some of the work or most of the 
work of the intelligence community, I would like to close with 
a note to my sisters and brothers in the intelligence 
community. And as one former DNI has said, ``The IC will 
continue to speak truth to power, even when the power ignores 
that truth.''
    I want to commend the men and women of the intelligence 
community for risking their lives across the world, and too 
often their livelihoods as well, every day to collect the 
information that should be directing and informing the policy 
that the U.S. Government is pursuing throughout the world.
    Thank you to you, sir, for being here today. And thank you 
to the intelligence community serving around the world.
    Secretary Pompeo. Thank you, and----
    Ms. Spanberger. I yield back.
    Secretary Pompeo. And I would just add that you should know 
that it is; the very work that they are doing is important and 
used by this Administration to inform its policy decisions all 
across the spectrum.
    Ms. Spanberger. Thank you, sir. Then, I would urge you, in 
your conversations with the President, for him to potentially 
speak more respectfully of the life-risking work that so many 
of our intelligence community members pursue, so that you may 
have well-informed, well-sourced information in your day-to-day 
work.
    Thank you. I yield back.
    Chairman Engel. Thank you.
    Mr. Watkins?
    Mr. Watkins. Thank you, sir.
    Secretary Pompeo, thank you for your selfless service. It 
brings honor upon our great State of Kansas, our country, and 
the United States Military Academy at West Point.
    Last time you were home, we were at the GES Heartland 
Institute, and we talked about the role of the State Department 
when linking up our growers, our farmers, and producers in 
Kansas to the global market. Can you talk me through the State 
Department's role in that?
    Secretary Pompeo. Certainly. So, both the State Department 
team that works here in the United States and the team that 
works across missions across the world, we have a 
responsibility to ensure that we have open access to markets. 
So, that is a policy decision inside of those countries that we 
work diligently to make sure they understand that America is 
going to demand reciprocal trade. You see the President raised 
this to new levels of importance. We want to make sure that, if 
they are selling their goods here, we can sell our goods inside 
of their country as well. It is only fair and right.
    And with respect to agriculture, in particular, we have got 
a whole big team. We have 1500 economic officers stationed 
around the world whose singular mission is to make sure 
American companies understand rules, understand customs, 
understand tax laws, have the capacity to build out their 
businesses and create wealth and jobs here in the United States 
by selling all across the world.
    Mr. Watkins. Thank you, Secretary Pompeo.
    Chairman, I yield my time.
    Chairman Engel. Thank you.
    Ms. Houlahan?
    Ms. Houlahan. Mr. Secretary, thank you so much for your 
time today.
    My name is Chrissy Houlahan, and I am here representing the 
people of Pennsylvania's Sixth congressional District. And so, 
I take great responsibility of making sure that my people in my 
community understand the importance of the State Department, 
frankly.
    I am a third-generation military service member myself. I 
have active-duty cousins, many of them in harm's way right now. 
But I firmly believe that the work that you do prevents the 
work that my family needs to do.
    Secretary Pompeo. Amen.
    Ms. Houlahan. And so, my questions are along a couple of 
lines, the first one regarding women and peace and security. I 
am member of this committee, but I am also a member of the 
Armed Services Committee. And I am actually quite concerned 
about the Administration's delay in submitting to Congress its 
strategy on bolstering women's inclusion, peace, and security 
efforts globally. It was required by the Women, Peace, and 
Security Act of 2017.
    And so, my first question is to you, which is, when will 
you plan to deliver this strategy, which was due October 2018?
    Secretary Pompeo. I cannot answer that question, but I will 
get you an answer in the next day or two, of when we will have 
delivered it.
    Ms. Houlahan. I would very much like to have a very 
specific answer to that question because I am also a former 
teacher, and deadlines matter. And I would love to have an 
actual, concrete deadline.
    Secretary Pompeo. As a former businessperson, I understand 
how important deadlines are. And I now run a 75,000-person 
organization. I am with you.
    Ms. Houlahan. Yes, sir.
    And the question is, if you have not yet submitted that, 
how can you possibly, therefore, have an implementation 
strategy for that, and how does that possibly, or can it even 
possibly be folded into this proposed budget that you have put 
forward with regard to women's issues and women's issues of 
safety?
    Secretary Pompeo. I am proud of the work we have done on 
women's issues in this Administration, both in my time as CIA 
Director--you might not think of that as a place where this 
rises to the forefront, but it certainly did for me. Indeed, my 
deputy was a very talented CIA officer who is now the Director 
of the CIA. But, even more broadly than that, it is certainly 
part of what I do at the State Department, what I demand of my 
team on the ground all over the world.
    Ms. Houlahan. Well, and I appreciate that, sir, and I 
definitely would love to get with you in the next day or two to 
get a very firm date on when that particular report will be 
due.
    And my next question also has to do with women's issues and 
the Women's Global Development and Prosperity Initiative. I 
also an a former businessperson, and I was really pleased to 
see that you included $100 million in the women's economic 
empowerment through the Women's Global Development and 
Prosperity Initiative. But I understand in your testimony this 
morning, in the appropriations hearings, that you spent a lot 
of time discussing the long-term viability of this program, 
given the proposed cuts to other programs that assist and 
empower women worldwide, like the Global Health Program and 
basic education.
    And I really appreciated in your testimony that you 
expressed flexibility and a willingness to evaluate the 
effectiveness of that program. But my question to you is, how 
do you reconcile the decreased commitments in some programs and 
this increased commitment in this particular initiative? How do 
you reconcile the critical programs that have been decreased 
with this program that you have increased?
    Secretary Pompeo. Well, as a former businessperson, you 
know you have to make tough decisions all the time and you have 
to make priorities and allocate resources. We certainly did 
that in the budget that we presented to Congress. We are 
confident that we can deliver on the objectives that I think 
you have outlined in the predicate to your question, and we 
believe we can----
    Ms. Houlahan. Can you give me a couple of specifics of why, 
what----
    Secretary Pompeo. Tell me what you are most interested in? 
I would be happy to----
    Ms. Houlahan. Well, just in general, when you are talking 
about making specific decisions and weighing kind of pros and 
cons of different decisions, what was it that made you decide 
to do a new program versus some old programs?
    Secretary Pompeo. Yes, it is our observation that we were 
not as effective with those resources as we believe we can be 
in the new programs in delivering the real outcomes that 
matter, matter to these nations, matter to women in those 
nations. That was the analysis that was undertaken.
    Ms. Houlahan. If it is all right, I would love to ask for 
you to put to the record what were those analyses, what were 
those decisionmaking processes, that it made you evaluate those 
particular things. Because I am a businessperson, a metrics-
driven human being, just like you are, and I know, in 
particular, with things like this that are ``social sciencey'' 
and that are very squishy----
    Secretary Pompeo. Yes.
    Ms. Houlahan [continuing]. You know, that it is really 
important to have those quantifiable ideas behind them of what 
it is that you were weighing pros and cons on.
    Secretary Pompeo. I appreciate that, and you are right, 
sometimes things that you cannot put a number to, you can still 
measure qualitatively. I will concede it is softer. And that is 
what we undertook in this allocation decision as well.
    Ms. Houlahan. And thank you. I do actually have a couple of 
other questions, but I only have half a minute remaining. So, 
if it is all right, what I will do is I will submit the 
remainder----
    Secretary Pompeo. Yes, ma'am.
    Ms. Houlahan [continuing]. Of my questions to the record.
    And I appreciate your time, sir.
    Secretary Pompeo. I am happy to get back to you on them.

    [The information referred to appears in the Appendix]

    Chairman Engel. Thank you.
    Mr. Guest?
    Mr. Guest. Thank you, Mr. Chairman.
    Mr. Secretary, in your written statement that was provided 
to us prior to your testimony, on page 2 of that testimony, you 
say, ``President Trump has made it clear that U.S. foreign 
assistance should serve America's interest and should support 
countries that have helped us advance our foreign policy goals. 
This budget, therefore, maintains critical support for key 
allies.'' And the first ally you list there is the Nation of 
Israel.
    First of all, I want to thank you, in a time of rising 
opposition and the increase of antisemitism, both domestically 
and internationally, I want to thank you and I want to thank 
the Administration for supporting our longstanding alliance 
between the United States and Israel. Recently, the 
Administration has shown support by relocating our embassy to 
Jerusalem and has recognized Israel's sovereignty over the 
Golan Heights.
    Mr. Secretary, even with our recent support, we continue to 
see attacks on Israel, including just this week where we saw 
rocket attacks that injured seven, including two young 
children. And so, my question is, can you please address the 
Administration's approach to working with the international 
community to support Israel's right to, one, defend itself and, 
two, to prevent future attacks on the Nation of Israel?
    Secretary Pompeo. So, I am not sure exactly where to begin 
in responding to that question. I have addressed some of this. 
Look, we have tried to find places where these countries had 
overlapping interest with Israel. There is a long history in 
the Middle East where these countries could not find any place 
to overlap.
    We managed to put together a meeting in Warsaw where you 
had senior-level leaders from Gulf States, from Arab States, 
sitting in the same room having discussions about Middle East 
stability and security with Prime Minister Netanyahu. Those 
kinds of things are incredibly important. They reduce risk to 
Israel. They reduce risk to the United States of America.
    And then, I could go through a series of other places we 
have done, perhaps no place more important with respect to the 
Islamic Republic of Iran, right, a country that has sworn to 
wipe Israel off the map. We have taken an approach that is 180 
degrees from the previous Administration, recognizing the 
threat that Iran is not only to Israel, but to Europe, where 
they are conducting assassination campaigns, to the capacity 
for Iraq to stand up an independent, sovereign government. We 
are working on each of these things, and each of those--our 
effort to build that MESA, the Middle East Strategic Alliance--
each of these projects, each of these coalition-building 
exercises, it is aimed at reducing risk to Israel.
    Mr. Guest. What additional support can Congress provide the 
Administration, again, to show our support? I know we have 
talked a little bit about the international community. What can 
we, as a legislative body, do to show our support for Israel 
and work toward peace in the Middle East?
    Secretary Pompeo. I think Congress over the past decade has 
done a lot. It is important that every Member of Congress speak 
out about this issue. And the more Members of Congress, the 
more that the world sees that this is bipartisan, this 
commitment, that this commitment to Israel will not change from 
Administration to Administration, the more successful we can 
be.
    Mr. Guest. And if the Congress and the Administration were 
to speak in a bipartisan voice, do you believe that that would 
help advance the peace process in the Middle East?
    Secretary Pompeo. Undoubtedly.
    Mr. Guest. Thank you. Mr. Chairman, I yield my time back.
    Chairman Engel. Thank you, Mr. Guest.
    Mr. Malinowski?
    Mr. Malinowski. Mr. Secretary, you have been eloquent in 
denouncing the harm that socialism has done to Venezuela, and I 
agree with you. I applaud you for it. But I am confused about 
one thing. If we are going to be so forceful in denouncing 
socialism, why is the Administration so high on communism?
    Secretary Pompeo. Yes, I mean, the very statement there is 
pretty outrageous.
    Mr. Malinowski. Well, I am talking about North Korea, sir, 
the most perfectly realized communist State in history, a 
country where the State owns everything and everyone. And yet, 
the Administration is repeatedly referring to how it has, 
quote, ``awesome economic potential,'' how it can become an 
``economic powerhouse,'' quote/unquote, without changing a 
system, simply by giving up nuclear weapons.
    And so, my question is, why are you so confident in the 
capacity of a communist State to provide for its people?
    Secretary Pompeo. Let me just back up for just a moment. We 
have both the toughest sanctions on North Korea in the 
history--this Administration built out this coalition against 
this Nation. The previous Administration did not do it, did not 
take it seriously. This Administration has done that. I am very 
proud of what President Trump has been able to do there. We 
have the toughest sanctions while still engaged in some of the 
most serious negotiations and diplomatic efforts.
    And our mission set is, in fact, to get the proliferation 
risk reduced, to get North Korea denuclearized, and then, our 
commitment is to say, at that point, we want a brighter future 
for the North Korean people. The form of government that will 
take place there will evolve over time. We have seen countries 
in the region who have not fully transformed in the way we 
like, countries like Vietnam, be able to grow their economy, 
provide better for their people. We think that opportunity 
exists in North Korea as well.
    Mr. Malinowski. I am asking because there is a whole lot of 
rhetoric about liking Kim Jong-un, falling in love with Kim 
Jong-un, Kim Jong-un being our friend. And so, let me ask you, 
why is liking Kim Jong-un a sufficient reason to cancel or not 
to pursue sanctions against companies helping his nuclear 
program, as the White house said last week? I am quoting the 
White House there.
    Secretary Pompeo. There have been more sanctions put in 
place by this Administration with a global coalition than at 
any time in the world's history, sir.
    Mr. Malinowski. And yet, liking him is cited as a reason 
not to do more. And, sir----
    Secretary Pompeo. Let me answer. We will continue, we will 
continue----
    Mr. Malinowski. It is a simple yes-or-no question.
    Secretary Pompeo. Well, if I may, we will continue to 
enforce the U.N. Security Council resolutions and do our best 
to encourage every nation in the world to do so. I only wish 
the previous Administration had undertaken this same effort.
    Mr. Malinowski. Well, actually, it did. Now let me ask a 
yes-or-no question.
    Secretary Pompeo. These sanctions were not in place, sir. 
That is factually inaccurate.
    Mr. Malinowski. Is Kim Jong-un responsible for maintaining 
North Korea's system of labor camps?
    Secretary Pompeo. He is the leader of the country.
    Mr. Malinowski. Is he responsible for ordering the 
execution of his uncle, the assassination by chemical agent of 
his half-brother?
    Secretary Pompeo. He is the leader of the country.
    Mr. Malinowski. Was he responsible for the decision not to 
allow Otto Warmbier to come home until he was on death's door?
    Secretary Pompeo. I will leave the President's statement to 
stand. He made that statement. We all know that the North 
Korean regime was responsible for the tragedy that occurred to 
Otto Warmbier. I have met that family. I know those people. I 
love them dearly. They suffered mightily, sir.
    Mr. Malinowski. So, what is to like?
    Secretary Pompeo. They suffered mightily, sir.
    Mr. Malinowski. So, what is to like about Kim Jong-un?
    Secretary Pompeo. So, do not make this a political 
football. It is inappropriate. It is inappropriate to do.
    Mr. Malinowski. Well, when the White House says that 
sanctions decisions are based on liking Kim Jong-un--has the 
President ever used that kind of language with respect to 
Angela Merkel? Has he ever publicly called her a friend?
    Secretary Pompeo. I have heard him talk about her that way, 
yes. I do not recall if it was in a public setting or not.
    Mr. Malinowski. OK. Let me go back to the questions--there 
have been a number of questions about Saudi Arabia and the 
Khashoggi killing. Do you believe that the Saudi authorities, 
the most senior Saudi authorities are capable of investigating 
themselves for a murder that has been attributed to them?
    Secretary Pompeo. I think the most important commitment 
that the United States made is the one that I spoke about 
earlier--it would have been earlier this afternoon--which is 
the commitment for the United States to conduct its work and 
hold every person responsible. That is what the United States--
--
    Mr. Malinowski. We will base our judgment on our own 
assessment?
    Secretary Pompeo. Yes, sir, that is what we have done to 
date, and it is what we will continue to do.
    Mr. Malinowski. Thank you very much.
    And if Saudi Arabia's cover story here, if their story is 
that this was a rogue operation, do we not risk reinforcing 
that cover story if all we do is sanction the rogues, the 
henchmen, the people who have been accused by the----
    Secretary Pompeo. I have made very clear, as has President 
Trump, we are continuing to develop the fact set using all the 
tools that we have at our disposal. And as we identify 
individuals who we can hold accountable for the heinous murder 
of Jamal Khashoggi, we will do so.
    Mr. Malinowski. Thank you.
    I yield back.
    Chairman Engel. Thank you.
    Mr. Pence?
    Mr. Pence. Chairman Engel, Ranking Member McCaul, thank you 
for convening this hearing.
    Mr. Secretary, thank you for being here and thank you for 
your fantastic service to this country.
    I noted with great interest that you were recently in 
Houston at CERAWeek. During your address, you stated, and I 
quote, ``Our plentiful oil supplies allow us to help our 
friends secure diversity in their energy resources. We do not 
want our European allies hooked on Russian gas through the Nord 
Stream 2 project any more than we, ourselves, want to depend on 
Venezuela for our oil supplies.''
    You went on to note that there is a desperate need for 
diversification, while pointing out the fact that last year the 
United States exported more crude oil to places like India, 
Japan, and the Republic of Korea. These are great achievements, 
but you also outlined challenges. You specifically singled out 
China, Russia, Syria, and described how these countries are 
attempting to leverage their energy resources for political 
purposes. You stated that we are ``not just exporting energy; 
we are exporting our commercial value.'' I could not agree 
more.
    Mr. Secretary, can you elaborate on what you and Assistant 
Secretary Fannon's priorities are in the energy security space, 
and how can we best address these challenges?
    Secretary Pompeo. As America's senior diplomat, I am an 
enormous beneficiary of the capacity for American innovation 
and creativity, whether that is through fracking, the capacity 
to deliver energy around the world. When America shows up, when 
I talked about exporting our commercial values, when we show 
up, we do straight-up deals. We demonstrate value. We have 
contracts. We honor contracts. We engage in deals that are 
commercial and honor the rule of law, independent from 
government directions, with no political gain to the United 
States.
    Having American companies do business in those ways 
provides an enormous opportunity for us because these countries 
no longer have to be dependent on those countries that are 
trying to undermine Western democracy and Western values. They 
have the capacity to create electricity for their countries, to 
have natural gas, to fuel all of the energy needs of their 
nation without having to turn to bad actors around the world. 
When I was talking about those exports having value, that is 
what I was referring to.
    Mr. Pence. Again, thank you for your service. Thanks for 
being here today and keeping us all informed.
    Mr. Chairman, I yield back.
    Chairman Engel. Thank you very much.
    Mr. Trone?
    Mr. Trone. Mr. Secretary, the Trump Administration Muslim 
ban, that is an appalling policy. It has affected my friends. 
It has affected my neighbors. They have been unable to see 
their families. They feel discriminated in their own country.
    In 2017, a thousand visas were denied. In 2018, that number 
was 37,000. There is a waiver there to Proclamation 9645 for 
undue hardship, when it is not a national security threat, but 
the waiver is rarely used. As a matter of fact, it is used less 
than 2 percent of the time. Your own consular officers have 
described the waiver process as a fraud, window dressing.
    Would you talk about what discretion the consular officers 
have in utilizing this waiver?
    Secretary Pompeo. I would be happy if you tell me which 
consular officer thinks it is a fraud because I would be happy 
to speak with him or her about the fact that it is not, in 
fact, a fraud.
    Mr. Trone. His name is in the press.
    Secretary Pompeo. Great. I will----
    Mr. Trone. We can have that sent to you.
    Secretary Pompeo. I am happy to take a look at it. I am 
happy to make sure he understands the Trump Administration's 
policy there.
    We are determined to make sure that we understand who is 
coming in and out of our country and that we are vetting people 
properly. I am proud of the work that we are doing there. I am 
confident that we have reduced risks to the United States of a 
terror attack here.
    Mr. Trone. The same officers allege that the discretion 
issue waivers is consistently countermanded by Washington. Your 
answer is the same?
    Secretary Pompeo. What is the question, sir?
    Mr. Trone. It is they do not have that discretion that they 
should have, and that is why we have 2 percent.
    Secretary Pompeo. Yes, I actually think we have the 
authority, sir, precisely right.
    Mr. Trone. OK. Is it the policy of the State Department to 
implement a ban on visas for predominantly Muslim countries? Do 
you believe it is due to nationality or religious affiliation 
that makes them a unique threat?
    Secretary Pompeo. We evaluate each individual based on the 
characteristics of the threat that they pose.
    Mr. Trone. These are great people, great Americans, and 
their lives are being disrupted.
    Let's talk about the Kingdom for a second. Thousands of 
people in the Kingdom of Saudi Arabia have disappeared or been 
murdered. The Crown Price has stolen over $100 billion from his 
own countrymen. He has moved against Qatar, our ally. He has 
kidnapped the Prime Minister of Lebanon, and Yemen is a 
nightmare with tens of thousands dead, millions threatened by 
starvation. He is 33. He will probably be the king, if he moves 
up, for 50 years.
    I always like to think about my kids and your kids and 
their kids and future generations. Is this the type of 
individual that would use a bone saw as part of his foreign 
policy that you would invite home for Thanksgiving dinner?
    Secretary Pompeo. Are you suggesting a regime change in 
Saudi Arabia?
    Mr. Trone. Would you invite him home to cut the turkey?
    Secretary Pompeo. I have met with the Crown Prince. I have 
worked with him. The challenges that you have cited there, the 
death that you just cite in Yemen is not because of the Kingdom 
of Saudi Arabia. You have the wrong end of the stick on that--
--
    Mr. Trone. I am not talking about the Kingdom of Saudi 
Arabia. I am talking about the Crown Prince----
    Secretary Pompeo. You are talking about----
    Mr. Trone [continuing]. With a bone saw and the whole 
litany of items we just discussed that all emanate from one 
individual.
    Secretary Pompeo. That predatory question is unfounded. I 
am happy to talk about our strategy with respect to the Kingdom 
of Saudi Arabia. I am happy to talk to you about the 
conversations I have had with the Crown Prince, to the extent 
that I can.
    We have acknowledged the incident with respect to Mr. 
Khashoggi was a murder and it is outrageous. And we are working 
to do everything we can to hold everyone who is responsible 
accountable, and we will continue to do that.
    Mr. Trone. Well, I am disappointed in my own country, and I 
know many, many others are, too. It was not that long ago that, 
short-term convenience, an individual that was in a position of 
power was not tolerated, but, instead, now we just tolerate 
that individual because it is convenient to the Trump 
Administration's national policy. But at some point in time we 
have to draw a line. Where do you draw that line? How many more 
Khashoggis do we have to have?
    Secretary Pompeo. Sir, we are effectuating policies that 
will keep America safe. We are determined to do that. The Trump 
Administration has put human rights at the top of its list in 
every single conversation we have had. It is a tough, nasty 
world out there, if you had not noticed, and we are a force for 
good everywhere we go.
    Mr. Trone. But long term are we really safer in a tough, 
nasty world when we tolerate that type of behavior? That is my 
concern?
    Secretary Pompeo. We simply disagree. I believe the policy 
we have makes America infinitely safer today, next week, and 
for our children and grandchildren.
    Chairman Engel. The time has expired. I am going to go on.
    Votes have just been called. We have only about three or 
four more people. I am going to see if we can do this. The 
Secretary of State has been very generous with his time, and I 
would like to try to see if we can get this in before the votes 
are finished. So, if people would understand that and maybe 
give back a minute or so, that would be appreciated. If not, we 
will do the best we can.
    Mr. Costa?
    Secretary Pompeo. Congressman Costa, I will do my best to 
answer briefly, too.
    Mr. Costa. Well, thank you, Mr. Chairman. I am sure the 
Secretary will appreciate brevity. I will do my best.
    First of all, on behalf of the chairman, I wanted to 
followup on his line of questioning regarding the committee's 
request for documents. On March 14th, 2019, this committee sent 
you a letter reiterating two specific set of document requests, 
and we wanted to know, the chair wanted to know, yes or no, can 
you commit to providing the committee with the requested 
documents within the next seven business days?
    Secretary Pompeo. Making sure I have got the right set of 
documents, these are documents that had to do with--which 
request was this?
    Mr. Costa. Mr. Chairman?
    Secretary Pompeo. There are dozens and dozens.
    Mr. Costa. I am trying to be helpful here.
    Secretary Pompeo. No, no problem. I am happy to take a look 
at it. I just do not want to answer a question when I am not 
thinking about the right set of documents.
    Chairman Engel. The bottom line--and I will say this fast--
the bottom line is it is very frustrating when we send 
something and we do not get a response or get stonewalled, or 
maybe it got caught in the bureaucracy. I do not know what it 
is, but we will get those things back to you again and we will 
highlight them as second requests. And hopefully, we can get 
through it then.
    And I thank my colleague for mentioning it----
    Secretary Pompeo. Yes, sir.
    Chairman Engel [continuing]. For reiterating it.
    Mr. Costa. OK. Thank you, Mr. Chairman. That has been about 
a minute of my time.
    Mr. Secretary, since we have last chatted, I have become 
the chairman of the Transatlantic Legislators' Dialog. And for 
the purpose of the focus of the State Department's strategy for 
this Congress and your budget, I want to focus most of my 
questions, if I can, with regards to Europe and NATO.
    In the most recent meeting, we Members of Congress and the 
members of the European Parliament, we asserted our joint 
statement on the bond between the United States and the 
European Union. It is the most fundamental economic and 
security strategic partnership. Do you agree with that?
    Secretary Pompeo. Yes, our European partners are----
    Mr. Costa. OK. Let me just continue to go on.
    Secretary Pompeo. Yes.
    Mr. Costa. The bond is also based upon the strong 
foundation of our common history and values, including the 
principles of democracy, rule of law, human rights, free and 
open societies, and markets. Do you agree with that concept?
    Secretary Pompeo. Yes. Yes, sir.
    Mr. Costa. And obviously, this partnership has had a long 
history. We have talked a lot about this this afternoon. And 
certainly, there have been concerns, I can tell you, and I know 
you know it because you hear them, too, by our European friends 
about where this relationship is today. And words do matter.
    And whether it is the issues where we disagree or the 
Administration disagrees with Iran, tariffs, climate change, or 
defense, many of our European colleagues are scratching their 
head and they say, ``Jim, what has happened? Where is our 
relationship?''
    What have you tried to do to reinforce it, because I know 
you have been asked the same questions?
    Secretary Pompeo. Yes.
    Mr. Costa. Words matter.
    Secretary Pompeo. Yes, they do, and the words that I have 
shared with them is that they have a continued deep, important 
relationship. You identified three and a half places where we 
have disagreements. On Iran, frankly, we are working together 
on large pieces of pushing back against the Islamic Republic of 
Iran. And there are hundreds of other issues on which we work 
closely with the Europeans.
    You are talking about Europe, France and the U.K. Please 
know this is much broader than that. We have deep relationships 
all across with the Balkans----
    Mr. Costa. I know that.
    Secretary Pompeo [continuing]. And Eastern Europe. These 
are all important places.
    Mr. Costa. And there were previous Administrations that 
talked about ``Old Europe''. And so, I mean, this is not new 
ground.
    Secretary Pompeo. I try not to use that language. I talk 
about our friends.
    Mr. Costa. No, and our most important allies, I believe.
    Let me move on. What kind of message does it send to our 
European allies when the State Department downgraded last fall 
the status of the European Union's Ambassador, and then, 
recently reinstated it to the rightful status a few months 
later, because that is where it should have been? I do not know 
what happened.
    Secretary Pompeo. Yes, we messed up and we fixed it.
    Mr. Costa. OK. Well, that is good.
    Let me move over to NATO quickly. You know, this 
partnership post-World War II that we helped create has 
resulted--and I suspect most Americans, probably most Europeans 
do not realize--in the longest peacetime dividend post-World 
War II, 70 years that we will celebrate next month, as you 
noted, in over a thousand years in Europe. I mean, that is 
significant by any way you examine it.
    Acting Secretary of Defense Shanahan said in his testimony 
before the Senate that the cost of 50 percent-plus present for 
our military commitments, that we are not an outfit of U.S. 
mercenaries, that we are not going to run a business, our 
common defense. And, yes, you are right, Europe is a wealthy 
continent. Germany should pay more, all these countries. And by 
the way, I applaud you for that effort, but that has been 
continuing now for three Administrations, to do their part, in 
fairness.
    Secretary Pompeo. Yes, sir.
    Mr. Costa. So, I would like to hear your thoughts on 
whether or not we should have a cost-benefit basis analysis in 
terms of how our European partners do their part, as they 
should.
    Secretary Pompeo. So, it is certainly more complicated than 
that. But it is the case that we are constantly--we have shared 
values with these European partners.
    Mr. Costa. Of course. Let me put it this way to make it 
simple.
    Secretary Pompeo. Yes.
    Mr. Costa. Do you think that the kind of cost-plus-50-
percent proposal would be a bad idea?
    Secretary Pompeo. I saw precisely what Assistant Secretary 
Shanahan says. He got it exactly right.
    Mr. Costa. Good, good.
    Let me move over quickly. I have a little bit of time left.
    Secretary Pompeo. I said ``Assistant Secretary''. I meant 
Acting Secretary. He would be offended if I did not correct 
that.
    Mr. Costa. Acting Secretary. You are duly corrected, Mr. 
Secretary.
    Secretary Pompeo. Thank you.
    Mr. Costa. Anyway, finally, I do agree--I will commend you 
when I think we agree--that your efforts to bring a coalition 
together in Venezuela is the proper thing to do. I am wondering 
why--and maybe it is under the radar screen--you have not 
convened the Organization of American States together to 
formalize this strategy and this commitment to do the right 
thing with Venezuela, to make the changes that are necessary.
    Secretary Pompeo. I have attended, on this issue, I have 
attended two OAS meetings on this very issue. You should know 
we are actively working alongside them. They have been great 
partners. There is not total unanimity inside the OAS----
    Mr. Costa. No, there never is with the OAS.
    Secretary Pompeo [continuing]. But they are an important 
force that we have worked through with this great----
    Mr. Costa. I think we need to continue to utilize that.
    Secretary Pompeo. Yes, I completely agree.
    Mr. Costa. Along with our partners in Mexico.
    Chairman Engel. Thank you.
    Mr. Costa. Thank you very much, Mr. Chairman.
    Chairman Engel. Thank you very much.
    Mr. Allred?
    Mr. Allred. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for your patience. I know it 
has been a long afternoon.
    I want to talk about Afghanistan. My colleague earlier was 
questioning you and asking about Special Envoy Khalilzad coming 
to speak to our committee. And you said that, during ongoing 
negotiations, that this would be something that would be very 
hard to do that has not been done in the past. We have had two 
Special Envoys come speak to our committee without leaks to The 
Washington Post.
    Secretary Pompeo. That is actually not true.
    Mr. Allred. Well, I have been in classified briefings from 
some of your Special Envoys. We have a constitutional duty to 
make sure that we are overseeing what you are doing in the 
State Department. And so, I do not accept the excuse that 
ongoing negotiations mean that we cannot have the information 
this committee deserves.
    Secretary Pompeo. I am trying to make sure you get the best 
information that you can that is consistent with your oversight 
duties. I am determined to do that. I am also determined to 
make sure we protect this information in a way that prevents us 
from undermining U.S.----
    Mr. Allred. I hope you understand that, with a 17-year war 
heading into the 18th year, that the Congress deserves to have 
a role in how we are going to proceed here.
    Secretary Pompeo. A hundred percent.
    Mr. Allred. OK. Well, thank you. I think this committee 
deserves to have--we can have a classified briefing. We can do 
it in a way that I think is secure. I think if you were in our 
seat during the Obama Administration era and we were having the 
discussions around the JCPOA, and they refused to give you any 
information until the very end----
    Secretary Pompeo. I actually was, and they did.
    Mr. Allred. Oh, they did not. They gave you briefings. I 
know that that is----
    Secretary Pompeo. Meaningless and unimportant.
    Mr. Allred. Meaningless briefings?
    Secretary Pompeo. Yes.
    Mr. Allred. OK. Well, I would like to have some kind of a 
briefing because we have not had that at all.
    Secretary Pompeo. You want more than a meaningless 
briefing, and I would not be doing it right if we gave you a 
meaningless briefing.
    Mr. Allred. Well, this is an important issue, and I think 
this committee, in particular, deserves to have some 
information on it.
    And I want to also talk about the conditions for our 
withdrawal, because previous U.S. policy has required the 
Taliban to accept the current Afghan constitution, including 
its provisions and protections for women and minorities. Why 
have we dropped that condition?
    Secretary Pompeo. You should not be certain that we have 
dropped any conditions based on what you may have read in some 
newspaper.
    Mr. Allred. Well, I have not had a briefing. So, I do not 
know what our conditions are.
    Secretary Pompeo. You should know we are very, very focused 
on making sure that the gains that have been achieved are not 
lost as part of this. The security gains that have been 
achieved, the gains, albeit intermittent, with respect to 
corruption, we hope we can actually do better. But, as you well 
know, this is still a very difficult place. It is the reason we 
still have thousands of soldiers on the ground. And we are 
focused on taking down the level of violence, so that we can do 
precisely what it is I think you just----
    Mr. Allred. Well, I share the recognition that we are not 
going to have a military solution to Afghanistan. My concern 
is, if we have a precipitous withdrawal, and then, we pull out 
without the correct conditions in place, that the progress that 
has been made, particularly for Afghan women, will be lost. And 
I think that this is something that is in the interest of our 
country. It is in our national interest. We need to make sure 
that does not happen. So, I am hopeful that, as part of those 
negotiations, as you said, that is going to be part of it.
    Secretary Pompeo. To describe a departure after 18 years as 
precipitous is----
    Mr. Allred. No, the withdrawal would be precipitous if we 
just take whatever conditions the Taliban will offer us so that 
we can get out.
    Secretary Pompeo. I promise you we are going to maintain 
American security.
    Mr. Allred. Well, my concern is that it seems that there 
might be just trying to fulfill a political promise going on 
here, instead of a rational and reasoned withdrawal, and doing 
it in the right way. And that is what I think this committee's 
jurisdiction directly falls upon, and that is why we need to 
have a briefing and talk to the folks who are involved in that 
negotiation.
    Secretary Pompeo. Just so you know, I am running the 
negotiation. So, you are talking to the guy who is in charge of 
it.
    Mr. Allred. Well, yes, but I would like to know, have some 
more information. And maybe we should have you back to talk 
about that specifically then. I think we should consider that.
    Secretary Pompeo. I am happy to do it in the right setting, 
yes, sir.
    Mr. Allred. So, are we also caving to the Taliban's stance 
that the Afghan government is an illegitimate puppet of the 
U.S.? Because that is what they have said previously. Our 
conditions previously have been that they should be part of the 
Afghan government. Is this funny, sir?
    Secretary Pompeo. Yes, the fact that you are relying on 
third-hand reporting for something that the Taliban might or 
might not have actually said in some print report, yes, I think 
we should all have better information.
    Mr. Allred. Is the Afghan government actively part of this 
negotiation that we are having?
    Secretary Pompeo. Yes, we speak, Ambassador Bass talks to 
President Ghani multiple times every week, multiple times every 
day on some days.
    Mr. Allred. So, your testimony is that, right now, the 
Afghan government is part of our negotiations with the Taliban?
    Secretary Pompeo. Right now, the Afghan government is fully 
apprised----
    Mr. Allred. Apprised?
    Secretary Pompeo. Yes, exactly, and we are diligently 
trying to get these parties to work together.
    Mr. Allred. And is that----
    Secretary Pompeo. The previous Administration went at that 
for 8 years. We have had, I have had 10 months. We are 
diligently trying to----
    Mr. Allred. Well, my concern is that you are undercutting--
--
    Secretary Pompeo [continuing]. Enter Afghan conversations, 
so that we can resolve this----
    Mr. Allred. Undercutting the Afghani government by not 
having them as part of the negotiations is a direct----
    Secretary Pompeo. But that is just untrue.
    Mr. Allred [continuing]. A direct role, not to be apprised 
of it, sir----
    Secretary Pompeo. They are just untrue.
    Mr. Allred [continuing]. But a direct role, risks, when we 
do pull out----
    Secretary Pompeo. Yes.
    Mr. Allred [continuing]. Undercutting the legitimacy of 
that government.
    Secretary Pompeo. Yes.
    Mr. Allred. Leading to the Taliban retaking power.
    Secretary Pompeo. It is just I disagree with the facts as 
you have stated them.
    Mr. Allred. Do you agree that al-Qaeda and ISIS are still 
in Afghanistan right now?
    Secretary Pompeo. Yes.
    Chairman Engel. OK. The gentleman's time has expired.
    Ms. Bass?
    Ms. Bass. Thank you very much.
    Thank you, Mr. Secretary, for being here, I know, all day.
    Secretary Pompeo. It is good to see you.
    Ms. Bass. Good to see you as well. We came in together.
    So, I want to ask you about two countries and one general 
question. The one general question is about U.S. aid to Africa 
and the Administration's pledge to review all U.S. aid to 
Africa in order to target assistance toward key countries and 
particular strategic objectives. And I am wondering if that 
review has happened.
    The second question is about Zimbabwe. They have had 
elections, and they are attempting to address the economic 
issues of the country. I wanted to know if we are reviewing or 
have plans to review U.S. policy toward Zimbabwe.
    And then, the third question is about Sudan and the current 
crackdown and our efforts toward normalizing relations. And I 
wanted to know how the Administration was weighing these 
actions as it addresses Sudan's progress on phase 2.
    Secretary Pompeo. Let me take each of them as best I can 
recall them in sequence.
    Ms. Bass. Sure.
    Secretary Pompeo. First, with respect to the assistance in 
Africa, we are reviewing it. There will be all the factors that 
you could imagine. I think we will give it every thought across 
every element of the U.S. Government to make sure that we get 
the levels right. I am sure there are places our assistance 
will increase; there may well be those where our assistance 
decreases. And I am very confident there will be assistance 
that moots. That is, we put it in in different ways and try to 
make sure we get better outcomes, that have better outcomes 
from those resources that we are expending.
    That review is not complete. It is an interagency process, 
and probably----
    Ms. Bass. Do you have a timeframe possibly?
    Secretary Pompeo. It is going to be a while still.
    Ms. Bass. Well, months?
    Secretary Pompeo. I have watched these interagency 
processes move. It will be too slow.
    Ms. Bass. OK.
    Secretary Pompeo. And it will take time.
    Ms. Bass. While it is under review, then you maintain the 
same levels?
    Secretary Pompeo. Yes, that is largely the case, although 
it is also the case that from time to time we will see things 
that we just say they are disconnected from what has happened 
and transpired, that we feel compelled to make a decision on 
the spot. That is usually----
    Ms. Bass. Like the cyclone?
    Secretary Pompeo. Yes, exactly. That is usually a State 
Department-USAID decision where we do that, a cyclone, a 
tragedy, a particular terrorist incident where we are trying to 
react in a very, very timely fashion, but not laying down a 
longer-term, thoughtful strategy about the region, and a 
country in particular.
    Does that answer that first part of the question.
    Ms. Bass. Yes, it does.
    And in Zimbabwe and Sudan?
    Secretary Pompeo. You know, the same thing. I am happy to 
give you a readout on what we are doing in each of those 
places.
    Ms. Bass. OK.
    Secretary Pompeo. There have been great changes in Sudan. 
And this Administration has tried to find places where we can 
find a more comfortable place to work alongside them and 
continue to develop them. We saw what happened in Zimbabwe. I 
am hopeful we can deliver that too.
    But I am happy to have my team come give you particular 
briefings on the details of what we are doing real time in each 
of those two spaces with respect to our assistance, the State 
Department's role there.
    Ms. Bass. I would appreciate that, especially with 
Zimbabwe. I mean both countries, but Zimbabwe also, trying to 
move forward. I just recently met with the Ambassador from 
Zimbabwe, and they are very concerned about basically their 
economy, where they want to move to privatize certain sectors, 
but their hands are tied because of our previous policies. And 
as they move forward and try to comply and try to bring their 
constitution in line with some past policies----
    Secretary Pompeo. Yes, ma'am.
    Ms. Bass [continuing]. How do we make sure we do not hold 
them back?
    Secretary Pompeo. These are very real concerns. Sudan is 
also the case.
    Ms. Bass. Right.
    Secretary Pompeo. I was with yesterday, or perhaps it was 
the day before, with the Prime Minister from Mali, a similar 
set of concerns and an incredibly difficult environment in 
Mali----
    Ms. Bass. Right.
    Secretary Pompeo [continuing]. Terror and trying to figure 
out how to get not only U.S. assistance there, but U.S. 
economic private sector industry to grow and help them, so they 
can build out and take care of the terror threats that are 
there in Mali.
    There is a country-by-country effort and a regional effort 
that we are undertaking.
    Ms. Bass. OK. Thank you very much.
    Secretary Pompeo. Thank you, ma'am.
    Ms. Bass. I yield back my time, Mr. Chair.
    Chairman Engel. Thank you, Ms. Bass.
    We have two members, I am told, that want to come back 
after the vote to ask you questions. I do not know what the 
timing is on this. But, right now, we--let me put it this way. 
Let me call on the ranking member for----
    Mr. McCaul. Yes, Mr. Chairman, thank you.
    I would like to submit for the record a statement, an op-ed 
by Chairman Risch of the Senate Foreign Relations Committee on 
the importance of getting the President's nominees confirmed.
    Chairman Engel. OK.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. We have been here a long time, Mr. 
Secretary. I think what we will do is we will call the hearing.
    I want to thank you for your patience. I hope you will come 
back and visit us----
    Secretary Pompeo. Thank you. I promise I will.
    Chairman Engel [continuing]. Many, many times.
    Secretary Pompeo. Yes. And thank you for running a very 
professional hearing today. I appreciate that.
    Chairman Engel. Well, thank you. Thank you for coming.
    The hearing is now adjourned.
    [Whereupon, at 4:52 p.m., the committee was adjourned.]

                                APPENDIX
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
